<html>
<title> - CRIMINAL ALIENS RELEASED BY THE DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


    CRIMINAL ALIENS RELEASED BY THE DEPARTMENT OF HOMELAND SECURITY

=======================================================================

                                 HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 28, 2016

                               __________

                           Serial No. 114-111

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                             ______________
                             
                       U.S. GOVERNMENT PUBLISHING OFFICE
23-480 PDF                    WASHINGTON : 2017                       
_________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6f081f002f0c1a1c1b070a031f410c000241">[email&#160;protected]</a>  
              
              
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                 David Rapallo, Minority Staff Director
      Art Arthur, Subcommitte on National Security Staff Director
                          Dimple Shah, Counsel
                          William Marx, Clerk
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 28, 2016...................................     1

                               WITNESSES

Ms. Sarah R. Saldana, Director , U.S. Immigration and Customs 
  Enforcement, Department of Homeland Security
    Oral Statement...............................................     6
    Written Statement............................................     9
Mr. Ralph Martin, Chief of Police, Santa Maria Police Department
    Oral Statement...............................................    71
    Written Statement............................................    74
Ms. Wendy Hartling, Mother of Casey Chadwick
    Oral Statement...............................................    77
    Written Statement............................................    79
Mr. Scott Root, Father of Sarah Root
    Oral Statement...............................................    84
    Written Statement............................................    87
Mr. Chris Burbank, Director of Law Enforcement Engagement, Center 
  for Policing Equity
    Oral Statement...............................................    91
    Written Statement............................................    93

                                APPENDIX

Enforcement and Removal Operaions at Immigrations and Customs 
  Enforcement within the Department of Homeland Security, 
  Statistical Tracking Unit. This information was collected from 
  a Freedom of Information Act request (2015-ICFO-95524) Entered 
  by Chaiman Chaffetz............................................   122
Breakdown of the Types of Specific Criminal Convictions 
  Associated with Criminal Aliens Placed in a Non-Custodial 
  Setting in Fiscal Year 2015, Entered by Chairman Chaffetz......   126
A letter from Senator Grassley and Senator Ernst regarding the 
  case of Sarah Root, Entered by Chairman Chaffetz...............   133
Responses to Questions for the record, from the Director of the 
  U.S. Immigration and Customs Enforcement within the Department 
  of Homeland Security, Sarah Saldana, to Chairman Chaffetz......   135
 Responses to Questions for the Record from Assistant Director 
  for Congressional Relations Jason M. Yanussi, on behalf of 
  Director Saldafia of Immigration and Customs Enforcement within 
  the Department of Homeland Security, Entered by Chairman 
  Chaffetz.......................................................   155
November 24, 2015 letter from Senator Richard Blumenthal, Senator 
  Chris Murphy and Representative Joe Courtney to the Department 
  of Homeland Security Office of Inspector General, Entered by 
  Ranking Member Cummings........................................   158
Customs and Border Protection System Down Times at D FIS Passport 
  Control, Entered by Representative Ron DeSantis................   160
February 2016 message from the Arlington Pubic Schools by Patrick 
  K. Murphy, Superintendent, Arlington Public Schools, Entered by 
  Gerald E. Connolly.............................................   161
March 21, 2016 letter from the Southern Poverty Law Center to 
  Ranking Member Elijah E. Cummings Re: Families in Fear: The 
  Atlanta Immigrations Raids, Entered by Representative Gerald E. 
  Connolly.......................................................   162

 
    CRIMINAL ALIENS RELEASED BY THE DEPARTMENT OF HOMELAND SECURITY

                              ----------                              


                        Thursday, April 28, 2016

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 9:30 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Mica, Duncan, Jordan, 
Walberg, Amash, Gosar, DesJarlais, Gowdy, Farenthold, Massie, 
Meadows, DeSantis, Mulvaney, Buck, Walker, Blum, Hice, Carter, 
Grothman, Palmer, Cummings, Maloney, Norton, Lynch, Connolly, 
Cartwright, Kelly, Lieu, and Welch.
    Also Present: Representatives Young and Courtney.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order.
    And without objection, the chair is authorized to declare a 
recess at any time.
    Preparing for this hearing has been--I am telling you, it 
is hard to keep your cool in preparing for this meeting. And 
let me tell you the heart of why we are here today. Immigration 
and Customs Enforcement, I have met with the men and women who 
work there, wonderful, hardworking, dedicated people who do a 
hard and difficult job. But I have got to tell you, what is 
going on at Homeland Security, what is going on with 
Immigration and Customs Enforcement is one of the most 
infuriating things I think I have seen in this government yet.
    In a 3-year period, Immigration and Customs Enforcement has 
released more than 86,000 criminal aliens into the American 
public. These are people that were here illegally, got caught 
committing a crime, were convicted of that crime, and then 
instead of deporting them, they were just released back out 
into the United States of America. All told, they had more than 
231,000 crimes that they were convicted of, 86,000 of these 
people.
    In 2015, 196 of these people were convicted of homicide, 
and ICE released them back into the public rather than 
deporting them. One hundred and twenty-four of those that were 
released between fiscal year 2010 and 2015, went on to commit 
homicide.
    Let me give you some other stats. In 2013, ICE released 
36,007 criminal aliens, criminal aliens who were here 
unlawfully and present in the United States. As of September 
2014, 5,700 of those individuals went on to commit additional 
crimes. In March of 2015, ICE Director Sarah Saldana testified 
before this committee that during fiscal year 2014 ICE released 
another 30,000 individuals with criminal convictions.
    In fact, ICE released 30,558 criminal aliens in 2014 who 
had a combined 79,059 convictions instead of deporting them. Of 
those 30,558 criminal aliens, 1,895 were charged with another 
crime following their release. Their convictions include sex 
offenses, assault, burglary, robbery, driving under the 
influence. And ICE told us that in 2015 the agency released 
19,723 criminal aliens with a combined 64,197 convictions, 
including 934 sex offenses, 804 robberies, 216 kidnappings, and 
196 homicide-related convictions.
    And that is on your watch. They were here illegally, they 
got caught committing a crime, they were convicted of the 
crime, and instead of following the law and deporting them, you 
release them back out into the public and they commit more 
crimes. How do you look those people in the eye? How do you go 
back to a family and say, you know, they were in our detention 
and we just thought it would be better to let them out into the 
United States of America? That is so wholly unacceptable.
    I want to show you this football stadium. This is Notre 
Dame football stadium. You have released more people that were 
convicted of crimes and should have been deported than you can 
fit into that stadium. You would still have people waiting 
outside the line. Those are the criminals that you released 
instead of deporting.
    And one of the people that is very passionate about this 
issue and has spent a lot of time on that is our colleague, Mr. 
DeSantis Florida. I would like to yield time to him.
    Mr. DeSantis. Thank you, Mr. Chairman.
    You know, we in this country, the government at all levels 
has a responsibility to protect the safety of the American 
people. For the Federal Government, most of the crimes that are 
committed, particularly violent crimes are handled at the State 
level. And I wish we could prevent every crime from happening. 
I wish we could. But the fact of the matter is we rely on 
deterrents, we rely on penalties to prevent people from even 
trying to commit crimes in certain instances.
    But in this case, this is an example of where government 
could have prevented all of these crimes. You have somebody--
and the story that came out, I thought, was just shocking where 
between fiscal year 2010 and February of 2015 there were 124 
individuals who were in the country illegally, had been 
previously detained by ICE, and were released that were charged 
with homicide. You look at the number of convictions that we 
have seen for people who have been released by ICE even after 
being convicted of rape, of homicide, of domestic violence, 
violence against women, other sex offenses, this is putting the 
American people at risk.
    Something is wrong. Something needs to change. We have 
tried to highlight this over and over again. We get the numbers 
of convictions finally given to us for '15, and it is startling 
because we are told that, oh, we are going to focus on really 
getting these criminals, but yet you have criminals in your 
possession, don't have a right to be here, they should be 
returned to their home country, and yet they are released into 
American society and then they reoffend.
    So, Mr. Chairman, I thank you for having this hearing. This 
is an immensely, immensely frustrating issue to see this 
because some of these crime victims, the families, you can say 
to them had the Federal Government simply done its job, maybe 
your loved one would be here today.
    And I yield back.
    Chairman Chaffetz. I thank the gentleman.
    Director Saldana, who is about to testify before us, has 
testified before. She said, ``We welcome any amount of money 
that we have. We can always do more with more resources. We are 
just doing the best we can with the resources we have right 
now.'' Except in June of 2015, Department of Homeland Security 
leadership took $113 million from ICE's enforcement budget and 
asked Congress to reprogram it to other DHS components with no 
role in immigration enforcement. Further, in the latest budget 
justification, Homeland Security seeks $185 million less, less 
for deportation and transportation. Despite a mandate in the 
law requiring ICE to maintain 34,000 detention beds, ICE only 
wants funding for 30,913.
    This administration's failure to secure our border, enforce 
immigration laws, and hold criminal aliens accountable creates 
an ongoing threat to our public safety and sometimes delays 
consequences for innocent Americans. And many of those losses 
are preventable. The numbers became real in February of 2015 in 
a National Security Subcommittee hearing. During the hearing, 
we heard testimony from Jamiel Shaw, whose 17-year-old son was 
murdered by Pedro Espinoza, an alien living in the United 
States illegally. Mr. Espinoza had been released from jail on a 
conviction for brandishing a weapon before the Shaw slaying. 
This is a weapons conviction.
    We also heard from Mike Ronnebeck, the uncle of Grant 
Ronnebeck. Grant was 21 years old when he was killed in Mesa, 
Arizona, while working an overnight shift at a local 
convenience store. The guy is just working at the convenience 
store late at night trying to do the right thing. The alleged 
killer was in removal proceedings due to a burglary conviction 
but released by ICE on a 10,000 bond, and Grant was killed.
    The Ronnebeck and Shaw families are not the only victims of 
crimes committed by aliens unlawfully present in the United 
States. Today, we continue to put names and faces with 
individuals whose lives were changed forever by the death of a 
family member killed by a convicted, convicted criminal alien. 
The common thread among these stories you are about to hear 
today is that each of them were preventable. If ICE had only 
followed the law, it is highly likely that these witnesses 
would not be sitting here today grieving the loss of another 
loved one.
    And I thank the family members that will be joining us on 
the second panel. They are heart-wrenching stories, and it was 
preventable. It didn't have to happen. You could have deported 
them and you chose not to, and it is just infuriating.
    Chairman Chaffetz. My time is expired. Let me recognize the 
ranking member, Mr. Cummings, for his opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    And let me first of all start off by expressing how very 
sorry I am for the families of Casey Chadwick, Sarah Root, and 
Marilyn Pharis. The crimes that were committed against them 
were brutal and barbaric, and their lives were stolen away from 
them all too soon.
    But not only were their lives stolen away from them, their 
lives were stolen away from their parents and their friends and 
relatives. And so to Mr. Root and Charlie, I want to thank you 
for being with us today.
    I thank you for something else, though. I thank you for 
taking your grief and turning it into a passion to make sure 
that it does not happen to anybody else. I really appreciate 
that. Thank you.
    I know how painful it must be to relive these nightmares, 
especially before a congressional committee, and when I read 
your testimony, Mr. Root, I got to tell you, you said over and 
over again a parent should never have to do this, identifying a 
child who has been harmed and murdered. So only you can truly 
know what losses mean to your families.
    I also lost a loved one 5 years ago almost to the day, a 
nephew at Old Dominion College. Folks busted into his room, 
blew his brains out, 20 years old. And then to go there a few 
days later and just see his brains splattered on the wall, I 
tell you, when I read your testimony, I could not help but 
think about all of that.
    And a lot of people don't understand when you have somebody 
who was murdered. I tell people it is hard to mourn properly 
because you are always wondering why it happened, how it 
happened, sometimes, in my case, who did it. But at the same 
time, you mourn for what could have been.
    Every time a friend of folks get married, you think about 
your own, you know, what her marriage would have been like or 
you hear about a child being born, and so it is just constant. 
When the birthdays come, when Christmas comes, everything, it 
just replays in your mind, mourning over and over and over what 
could have been.
    And so I know you want answers, and you deserve those 
answers. And so I want to thank you also, Mr. Burbank and Chief 
Martin, for being here, for dedicating your careers to 
combating all types of horrible crimes in your communities. And 
it should be the business of this Congress to help you be able 
to do your jobs effectively and efficiently. After all, you go 
out there, you put your life on the line over and over and over 
again. And so often, you run into crimes that you can't even 
solve. You try, you do the best you can, you don't get the 
cooperation. So I am committed to making sure we get to the 
bottom line.
    And, Director Saldana, I want to thank you for your 
testimony and for your work as a public servant. It is crucial 
that we hear what Immigration and Customs Enforcement has 
learned from these cases and about your ongoing efforts to 
improve the agency's procedures.
    You can understand why people are upset. Everyone on this 
committee wants to help improve public safety and enhance the 
security of all of our communities. Our committee is not just 
about oversight. And I emphasize this over and over again. It 
is not just about oversight. It is also about reform. If we 
identify a problem, our goal is to address it.
    For example, in one of the cases we will discuss today, ICE 
repeatedly attempted to deport the perpetrator to Haiti before 
his release in 2012, but the Haitian Government refused to 
accept him, not once, not twice, but three times. Even after 
Haitian officials agreed to allow him to board a plane bound 
for Haiti, they reversed themselves and refused to accept him.
    I am sure these facts offer little solace to Ms. Chadwick's 
family. So we need to ask what ICE could have done differently 
and what ICE can do in the future to improve these procedures.
    We also need to--and I think the chairman made a good 
point. We realize that there are issues that go to resources, 
but the question is, are we using the resources that we have 
effectively and efficiently. We also need to ask what more we 
as a government can do to force recalcitrant countries like 
Haiti, in this case, to honor their treaty agreements and to 
accept their own citizens.
    This process is already underway thanks to Senator Richard 
Blumenthal and Senator Christopher Murphy, and Representative 
Joe Courtney of Connecticut. On November 24, 2015, they sent a 
letter to the inspector general of the Department of Homeland 
Security requesting an investigation to determine what more ICE 
could have done ``to overcome the objections of the Haitian 
Government to the removal of this individual.'' So I ask 
unanimous consent to enter their letter into our official 
hearing record today, Mr. Chairman.
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Cummings. The inspector general has agreed to their 
request, and this investigation is now underway. I absolutely 
support these goals. What I absolutely do not support, however, 
is the hateful rhetoric we hear and have heard coming from some 
my members of the Republican Party who disparage all immigrants 
with false condemnation.
    Donald Trump has labeled Mexican immigrants as rapists. He 
has also called for a shutdown of Muslims entering the United 
States. These were not accidental lapses of off-the-cuff 
remarks. They are genuine statements from the leading 
Republican candidate for President of the United States of 
America in 2016.
    If you think his rhetoric is just words and does not cause 
actual harm, consider the brutal assault of a 58-year-old 
homeless Latino man in Boston. Last August, two brothers Scott 
and Steve Leader, who have extensive criminal records, hit him 
in the face, urinated on him, punched him, hit him with a metal 
pole, and then walked away laughing. When questioned by the 
police, one of the brothers said, ``Donald Trump was right. All 
these illegals need to be deported.''
    And when Donald Trump heard about this brutal attack, he 
said that it was a shame but that his supporters are very 
passionate and ``want this country to be great again.''
    And so, as I close, if we remain silent, if we remain 
silent in the face of these actions, hate will become our new 
normal. What we are hearing is racism, pure and simple. I do 
not like to use the word because it can sometimes be difficult 
for people to hear anything else. It can become a distraction. 
We are trying to work towards real solutions like tackling 
criminal justice reform, immigration reform, and gun violence.
    Unfortunately, in this case, it is warranted. So I have 
lived too long and fought too hard. I will not sit by silently 
as some have tried to plunge our nation into a hateful division 
where we turn against each other.
    And so I hope our committee ultimately will do more than 
just hold a series of hearings on immigrants who commit crimes. 
I hope we all will take heart and that we will examine all of 
the legitimate questions. And there are a lot of legitimate 
questions here we are facing as a nation and that we will act 
to develop the bipartisan solutions needed to address them. We 
must come together to reject racist rhetoric and work to make 
our community safer in a comprehensive and constructive way.
    And again, I want to thank our witnesses for turning your 
pain into a passion to do your purpose. Thank you very much, 
and I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I would like to ask unanimous consent to enter into the 
record the Criminal Alien Report released by Homeland Security 
in 2015 and also enter into the record a letter from Senator 
Grassley and Senator Ernst regarding the case of Sarah Root.
    Without objection, so ordered.
    Chairman Chaffetz. And we will hold the record open for 5 
legislative days for any member who would like to submit a 
written statement.
    And I will now recognize the distinguished witness on the 
first panel. We have two panels today. We are pleased to 
welcome the Honorable Sarah R. Saldana, Direction of United 
States Immigration and Customs Enforcement at the Department of 
Homeland Security.
    Thank you for being here.
    Pursuant to committee rules, all witnesses are to be sworn 
before they testify. If you will please rise and raise your 
right hand.
    [Witness sworn.]
    Chairman Chaffetz. Thank you. Let the record reflect the 
witness answered in the affirmative. We would appreciate it if 
you would limit your oral testimony to 5 minutes. Your entire 
written statement will obviously be made part of the record.
    Ms. Saldana, you are now recognized, Director, for 5 
minutes.

                       WITNESS STATEMENTS

                 STATEMENT OF SARAH R. SALDANA

    Ms. Saldana. Thank you, Mr. Chairman, Ranking Member 
Cummings, and other distinguished members of this committee.
    I cannot tell you how disheartening it is to sit here and 
hear an issue--and very important issues--related to the topic 
of immigration reform be bandied about as a political football.
    I'm a former United States attorney. I was a prosecutor for 
10 years. I am about the law and law enforcement. I'm about 
identifying problems and correcting them. I am here to get--to 
tell the public what the situation is with some of the issues 
we face, inform the public, and I would really appreciate we 
focus on solutions, solutions as opposed to political banter.
    Along with our sister agencies at the Department of 
Homeland Security, ICE has no smaller mission, no smaller 
mission than the national security, border security, and public 
safety of our citizens. Like any law enforcement agency, we 
deal with serious and difficult matters every day. In the area 
of immigration, recent estimates are that there are about 11.2 
million illegal immigrants in the country. There are 
approximately 2 million, 2 million undocumented immigrants who 
are involved in some form or fashion in ICE's administrative 
process. There are about half-a-million, 500,000 of those who 
are part of active cases in the immigration courts.
    ICE detention program booked in approximately 300,000 
individuals last fiscal year. And as you know, we've been 
funded at the 34,000 bed level for the last couple years. You, 
the Congress, had not only provided the funds to carry out our 
responsibilities for which we're very grateful, but you've also 
set forth the framework to execute those responsibilities. And 
it's all right here in the Immigration and Nationalization Act. 
You tell us who we are required as a mandatory matter to 
detain, and you tell us who we exercise our ability to release 
someone and not detain, make a decision about not detaining, or 
bond for that matter.
    Given the numbers I've just cited, obviously a very small 
percentage of individuals are detained while an immigration 
judge under the system that you the Congress has provided--are 
detained while that judge makes a decision in their removal 
proceedings. I am deeply mindful that this is not simply a 
discussion of statistics, capacity, policies, or procedures. 
There are families whose lives are personally affected by these 
decisions.
    As a human being and a mother, never mind my prosecutorial 
experience, I feel very strongly any time someone is injured or 
murdered or killed--otherwise killed by any person, and 
certainly those within the immigration system.
    I know that the women and men of ICE work tirelessly to 
enforce the law and protect the public, and they steadfastly 
bear the enormous responsibility that they are charged with. 
When the chairman, respectfully, sir, says we just decided--
that being ICE--to let them out on the streets and ``we chose 
not to detain people,'' that is misleading the public and 
particularly these victims about the immigration situation and 
the entire picture.
    I think this committee well knows that this year over two-
thirds, over two-thirds of the criminal releases, something I 
wish you had pointed out--over two-thirds of the criminal 
releases were as a result of the Supreme Court telling us we 
had to release someone, it wasn't ICE choosing to do so, and 
another portion of the courts otherwise telling us that we had 
to release, the immigration courts, who have overall 
supervisory responsibility over this system.
    So to sit there and say that the proud women and men of law 
enforcement in ICE are choosing to release criminals is 
absolutely unforgivable. I am very proud of representing those 
men and women. Many of them are former police officers, 
sheriff's department members, and they do not go around trying 
to put criminals on the streets. So I want the record to be 
clear, and I want these victims' families to know exactly what 
ICE is facing. And I want them to have an accurate picture of 
that.
    So when ICE makes a custody determination upon an alien 
with a criminal conviction, we act in accordance with the law, 
a law that you have given us. We are committed to carefully 
reviewing the circumstances of each case to ensure we make 
prudent decisions and to use the tools at our disposal, 
including supervision and conditions of release.
    Further, we include in our data set things over which we 
have no control when somebody's claiming to be a citizen or an 
LPR. There are additional requirements on us. This is a very 
complex law, and every time or virtually every time I have been 
before a committee, I have begged, I have asked, work with ICE, 
work with me, work with the Secretary for comprehensive 
immigration reform. We can't kick this down the road or after 
an election. We need to fix this, and I am--I implore you to 
help us.
    So this issue has been a very--of great importance to me 
since I started at the agency about a year-and-a-half ago. In 
March of last year, I set up a system that I think I've 
testified about to this agency to look--review every criminal 
release that there is. We have a panel that I've actually 
visited with. I'm in the process right now, like I do with any 
policy, of revisiting the policy to see how effective it's been 
over the last year, because we started in March, and to see 
what we can do better with--in that regard. I am willing to 
learn, and I do listen.
    So as you're aware, we're proud of the fact--and I think 
it's as a result in part of this panel--of going from 36,000 
releases in 2013 to, in 2015, a little over 19,700. So you 
know--I want to be sure it's clear that while two-thirds of the 
criminal releases in 2013 and 2014 were characterized even here 
as resulting from ICE determinations, that ratio actually is 
reversed in 2015. And as I said earlier, we have about two-
thirds of our criminal releases being required of us by courts.
    And with respect to what Congressman Cummings pointed out, 
and that is the recalcitrant countries in getting people to 
take back their criminals, this world is a chaotic world. We 
have countries with great instability, countries that have 
suffered tremendous even natural disasters like Haiti and are 
in turmoil, and trying to deal with them is very hard. But I am 
working with the Department of State. Quite frankly, this 
afternoon I meeting with Assistant Secretary Michele Bond to 
talk some more about what more we can do with respect to 
recalcitrant countries. And I'm glad to do that.
    Let me conclude by saying that, having heard directly from 
families over the last 11 years of victims of crime who've 
suffered tremendous loss, I personally remain committed--Mr. 
Chairman, I personally remain committed to implementing ICE's 
priorities in a smart and strategic manner and to safeguard our 
communities and maximize the agency's success.
    I thank you for the opportunity to address the group, and I 
await your questions.
    [Prepared statement of Ms. Saldana follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you. I will now recognize myself 
for 5 minutes. The numbers you gave us said just in the last 2 
days discretionary releases by ICE were 54 percent. The total 
is 46,422. These Zadvydas rulings, you said, were two-thirds of 
the reason, and yet the numbers you gave us show that it's less 
than 10 percent.
    Your microphone, please.
    Ms. Saldana. I don't know which numbers you're looking at, 
sir, but ----
    Chairman Chaffetz. You are the one that said that two-
thirds of the reason that you release people is based on the 
Supreme Court decision. The numbers you gave us just 2 days ago 
show that that number is actually less than 10 percent.
    Ms. Saldana. The numbers we gave you, sir, were for 2015.
    Chairman Chaffetz. We have 2015, 2014, and 2013.
    Ms. Saldana. Okay. Let's just focus right now on 2015 as an 
example, although we can do each year if you would like. 
Nineteen thousand seven hundred and twenty-three--there was 
19,723 criminal releases ----
    Chairman Chaffetz. Let me ask you another way ----
    Ms. Saldana. Now, let me ----
    Chairman Chaffetz.--because ----
    Ms. Saldana. Let me ----
    Chairman Chaffetz.--the media ----
    Ms. Saldana. If I may finish because ----
    Chairman Chaffetz. No, no, no, no ----
    Ms. Saldana.--you just said in the question that more than 
that has happened.
    Chairman Chaffetz. No. I want ----
    Ms. Saldana. Eleven percent were Zadvydas releases. And IJ 
orders, the immigration courts that oversee the entire 
immigration system, were 52 percent.
    Chairman Chaffetz. Okay. We will ----
    Ms. Saldana. Only 37 percent ----
    Chairman Chaffetz. We will hash out the numbers with your 
own numbers, but what is unacceptable is even one 
discretionary. Why do you even release one? Why do you even 
release one person?
    Ms. Saldana. Because of the statute the Congress has given 
us ----
    Chairman Chaffetz. No, it is not. It is discretionary on 
your part, and you are not doing--you took more than $100 
million and let it go to other purposes outside of the 
Immigration and Customs Enforcement. You are not maximizing the 
amount of money that you want in order to get to the beds that 
is mandated under the law. And you have asked for $185 million 
less for detention and transportation. You are not going to be 
convincing us that you are dedicated to removing these criminal 
aliens.
    Ms. Saldana. If I may answer your question?
    Chairman Chaffetz. Well, yes, go.
    Ms. Saldana. You have said here only a certain number of 
convictions even--they're primarily convictions, offenses with 
convictions--are subject to mandatory detention ----
    Chairman Chaffetz. And this is where ----
    Ms. Saldana.--the rest are ----
    Chairman Chaffetz.--you are totally wrong.
    Ms. Saldana. If I may finish.
    Chairman Chaffetz. You have somebody who commits homicide, 
yes, we want them deported. That is the law.
    Ms. Saldana. Then put it in the statute, sir, because in 
the statute say if they do not commit one of those offenses 
that are specifically enumerated, including aggravated 
felonies, then these people are not subject to mandatory 
detention, which you've specifically outlined here. And when I 
say you, I mean the Congress. The rest you say, okay, ICE, you 
will then make a determination based on what the judges--
Federal judges of this country make every day, and that is 
based on flight risk and harm to public safety or potential 
harm to public safety, you will decide which ones can be 
released on bond.
    Chairman Chaffetz. And there is a whole list of categories 
there that are harm to public safety, including those that 
commit homicide, that you went ahead and released anyway. And 
so the law is crystal clear. You are making these discretionary 
choices in releasing these people out into the public and they 
are committing more crimes. And I don't understand why you 
don't deport them. You used as an excuse these countries that 
won't accept them.
    Here is my question for you. Based on section 243(d) of the 
Immigration and Nationality Act, how many times have you 
recommended to the State Department in writing that these 
countries are--according to the law, ``on being notified by the 
attorney general that the government of the foreign country 
denies or unreasonably delays accepting an alien,'' and then it 
goes on that the ``Secretary shall order the consular officers 
in that foreign country to discontinue granting visas or 
nonimmigrant visas.'' How many times have you made that 
recommendation to the attorney general or to the State 
Department?
    Ms. Saldana. I don't have the precise number, but we have.
    Chairman Chaffetz. Have you ever?
    Ms. Saldana. Yes, we have, sir. We are--we have a 
memorandum ----
    Chairman Chaffetz. Which countries? Right off the top of 
your head, which countries have you recommended that we ----
    Ms. Saldana. I can't tell you off the top of my head. I --
--
    Chairman Chaffetz. When will you get me that information?
    Ms. Saldana. I can get it to you within a week, sir.
    Chairman Chaffetz. Okay. So you will give me, just to make 
sure we are on the same page, the letters that you have given 
either to the attorney general's office or the State Department 
regarding the problems that you are having and the 
recommendations that you are making about the countries that 
will not accept these aliens?
    Ms. Saldana. And--yes. And you understand that I have to 
talk to Department of State about that because some of these 
are sensitive areas that I believe we can talk about this 
further in chambers, sir, that I believe you would not want me 
to ----
    Chairman Chaffetz. No, we are going to talk ----
    Ms. Saldana.--expose.
    Chairman Chaffetz.--it in the public. I want to know which 
countries are not taking--because, you know what, they 
shouldn't be getting Federal aid and we shouldn't be giving 
them visas so that more people from those countries can come to 
the United States. I don't know what you think is so sensitive 
about that, but I want you to prioritize Americans rather than 
those other countries. That is what I want to hear. I want to 
know that the citizens of our States are your number-one 
priority and put it out there in the public. Let's know and 
understand which countries are not taking back the criminals 
that came here illegally and should be deported back into their 
country.
    Ms. Saldana. Let me remind you, sir, that the Department of 
State is the one that issues visas, withholds aid. We don't 
have money to give aid to countries. That's not what we do.
    Chairman Chaffetz. I know but you have ----
    Ms. Saldana. You have a Memorandum of Understanding with 
the Department of State where we say we are going to recommend 
to you certain steps, but we have it in a step-by-step 
procedure because this is a complicated world, I think you all 
understand, and we have to look at each country separately. 
Syria and Iraq, that's a pretty hopeless situation ----
    Chairman Chaffetz. You think that is your job ----
    Ms. Saldana.--in trying to return those immigrants to those 
countries ----
    Chairman Chaffetz. Do you really think Syria and Iraq is 
your job and your responsibility to make that determination? 
Here is what the law says, and I am quoting, ``On being 
notified via the attorney general that the government of a 
foreign country denies or unreasonably delays accepting an 
alien who is a citizen, subject, national, or resident of the 
country after the attorney general asks whether the government 
will accept the alien under the section, the Secretary shall.'' 
And so if you go to the first part of it ----
    Ms. Saldana. Shall what, sir?
    Chairman Chaffetz. ``Shall order consular officers in that 
foreign country to discontinue granting immigrant visas or 
nonimmigrant visas or both to citizens, subjects, nationals, 
residents of that country until the attorney general notifies 
the Secretary that the country has accepted the alien.'' What 
is incumbent upon you personally in your duty and your role and 
responsibility is to make that notification. If you are trying 
to take even just one alien and deport them back to a country, 
these are criminal aliens, remember? These are ones that 
committed crimes and were convicted of crimes. If you are 
trying to deport even one of those and the country won't take 
them back, you need to give that notification to the State 
Department.
    Ms. Saldana. And the State Department makes the decision. 
Let's just be clear on that.
    Chairman Chaffetz. No, there is no decision because under 
the statute it says ``the Secretary shall.'' And so it starts 
with you, and if you don't give them that notification, it 
doesn't work.
    Ms. Saldana. I agree.
    Chairman Chaffetz. My time is expired. I want to have 
within a week's time all of those letters since you have been 
in office that you have sent to the State Department and/or 
attorney general telling them where there is a problem. And I 
don't want to hear about this excuse any further.
    Chairman Chaffetz. I now recognize the gentleman from 
Maryland, Mr. Cummings.
    Mr. Cummings. Let just start where the chairman left off. 
When that letter goes to the State Department, what happens 
then? Who makes the decision at that point? What happens?
    Ms. Saldana. There's a leadership group. The Consular 
Affairs Assistant Secretary Michele Bond is the person I've 
been dealing with. She makes the recommendation to the 
Secretary of the Department of State, and they look at the 
whole picture with respect to that country and make a decision 
and notify us.
    Mr. Cummings. And then that is the decision?
    Ms. Saldana. Yes, sir.
    Mr. Cummings. And so you can't change that?
    Ms. Saldana. ICE is not in the business of issuing visas.
    Mr. Cummings. I see. I want to make sure we put all this in 
some kind of context because remember what I said in my opening 
statement about reform and trying to find solutions. You know, 
we have these families here who have suffered greatly, and by 
the way, I hope that--I know you may be leaving after your 
testimony, as is usual, but I ----
    Ms. Saldana. I'm staying.
    Mr. Cummings. Oh, good, good, because I want you to hear 
from them. I think they want you to hear their pain. And again, 
they come a good distance, and I thank you very much for doing 
that.
    Ms. Saldana. And I offered to both families, the Roots and 
Ms. Hartling, to meet with them personally.
    Mr. Cummings. Thank you. Thank you very much.
    We need to eliminate any misperception that immigrants as a 
group are more likely to be criminals or commit acts of 
violence. Let's start with the likelihood of landing in jail. 
Census data from 1980, 1990, 2000, 2010 found that 
incarceration rates for native-born, essentially U.S. citizens, 
were 2 to 5 times higher than that of immigrants. Were you 
aware of that fact ----
    Ms. Saldana. Yes.
    Mr. Cummings.--Director? The fact contradicts the 
misconception that immigrants are inherently predisposed to be 
criminals. Would you agree with that?
    Ms. Saldana. Yes.
    Mr. Cummings. So studies have widely shown that the 
recidivism rate for immigrant criminals is lower than for the 
general population. Is that right?
    Ms. Saldana. Yes, sir.
    Mr. Cummings. And, for example, and based on the data 
submitted by ICE for fiscal year 2014, less than 5 percent of 
the immigrant criminals committed new crimes after release 
compared to more than 20 percent of all criminals across 30 
U.S. States. Do you understand that?
    Ms. Saldana. That sounds right. I've looked at the studies 
by the Department of Justice and the statistics.
    Mr. Cummings. Given this information, do you believe it is 
fair to say that a person's immigration status does not 
indicate an increased likelihood that they will commit another 
crime?
    Ms. Saldana. Yes. I ----
    Mr. Cummings. Now, I have got to tell you that if I were 
the family of a victim, I would say, well, Cummings, you know, 
I am really not interested in hearing that because I suffered a 
loss that will never be replaced. But I am trying to just put 
all of this in some kind of context because I think if we look 
at the total picture, then we have a better chance of coming up 
with a solution that truly addresses the problem.
    Now, I would like to discuss the cases in which ICE has 
discretion. The chairman talked about discretion, and I think 
he was absolutely right to address that. ICE has explained in 
the past that some criminal immigrant detainees are released 
after posting bond set by career ICE law enforcement officers. 
Can you please tell us again why not simply deport all criminal 
alien detainees that you have the discretion to the report? And 
is it a question of resources?
    Ms. Saldana. It's not so much a question of resources, sir, 
as it is the statute. Congress in its wisdom gave people who 
were found in the country and determined initially to be in the 
country illegally a very complex set of rights and ability to 
appeal and to have their cases heard by immigration courts.
    Let me just make this really clear. We cannot--we'd be 
violating the statute, which I think no one here wants me to 
do. We cannot deport somebody without a final order of removal 
from a court. ICE doesn't deport people on its own motion. It 
has to have an order from the court. And obviously, we've got 
to have the ability to put that person in the country of their 
origin.
    Mr. Cummings. Now, ICE has reported having the resources to 
support only about 4 percent of the 11 million documented 
immigrants. Is that right?
    Ms. Saldana. That's right. And in fact, I think you all 
have seen the studies that indicate that if we tried to deport 
11.2 million people, it would cost anywhere from $650 billion, 
$650 billion to $750 billion.
    Mr. Cummings. So ICE also explained that discretionary 
releases typically occur with individuals associated with less-
serious offenses. Based on your experience as a prosecutor--and 
you were a former U.S. attorney?
    Ms. Saldana. Yes, sir.
    Mr. Cummings. I have tremendous respect for our U.S. 
attorneys. Why is it important for law enforcement agencies in 
general to have the discretion to release individuals? What is 
that about?
    Ms. Saldana. Well, again, it's important for us because we 
have to manage the money that this Congress has given us. But I 
want to repeat, the bond procedure, the decisions to detain are 
all--or not detain are all outlined in here. We must look at 
flight risk, threat to public safety when we make those 
decisions. But you have given us that authority, and it's 
important for us because we've got to manage the number of beds 
we have and obviously the entire fund that you have given us in 
order to remove people from the country.
    Mr. Cummings. I only have a minute left on my time. I 
understand that these determinations are based on risk 
evaluations giving consideration to factors like age, physical 
and mental health, risk of harm to public safety, risk of 
flight, and whether any mandatory detention factors apply. 
Director, can you please explain why is important that these 
evaluations are conducted on a case-by-case basis?
    And then, knowing what you know and hearing what you know 
you are going to hear, I want you to tell us things that we 
could do as Congress folk to help you do the job that you are 
trying to do.
    Ms. Saldana. Okay. If I may start with the last part of 
that question first, I would love to sit down with this 
committee or a group of this committee to go through this 
statute and talk about comprehensive immigration reform, what 
we can do with respect to some of the very complicated parts of 
this. And let's not forget, this is just the statute. We have 
rulings left and right from all over the country literally 
going left and right that we have to abide by, even though we 
may be appealing them.
    But with respect to your overall question with--regarding 
discretion, we can--we have committed to deal with each 
immigrant on a case-by-case basis because we don't have--I 
don't think we have the will, nor do we have the funds to 
deport 11.2 million people. We have to make decisions on a 
case-by-case basis. Bright-line rules don't work here. If we 
had a bright-line rule that we're going to deport anybody who 
comes into our custody, we don't have time to do what we've 
been trying to do and very successfully done, and that is focus 
on criminal aliens. So this is why we need to have that 
discretion and ability to make the decisions that we do.
    And I will tell you, sir, are we perfect? I have great 
faith in the judgments of our law enforcement officers in 
making these determinations. They're experienced, well-trained, 
and they care about the safety of our community. Are we 
perfect? I can say firsthand I am not, and neither are our 
officers, but we do the very best we can.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Chairman Chaffetz. I now recognize the gentleman from 
Florida, Mr. Mica, for 5 minutes.
    Mr. Mica. Well, thank you. And I do want to echo the 
director's remarks that our Customs and Border Patrol are some 
of the most professional, accomplish, hardworking individuals 
in the Federal Government. They work day in and day out to do 
their job and protecting our borders. But we do hear that 
things have affected their ability to control our borders. 
First of all, the number of deportations total is down fairly 
dramatically in this administration. Is that correct, Director?
    Ms. Saldana. The numbers are lower ----
    Mr. Mica. We have a chart there. Can you guys put the chart 
up?
    [Slide.]
    Mr. Mica. So in the end of the Bush administration, we were 
deporting about a quarter of a million. We are down to about 
100,000; 2014 may be even lower than that. That is total, total 
deportations, right?
    Ms. Saldana. No, sir. I think you say up there ----
    Mr. Mica. It is total deportations. And then if we turn to 
----
    Ms. Saldana. Sir, I'm--your chart says interior 
deportations ----
    Mr. Mica. Yes.
    Ms. Saldana.--not total.
    Mr. Mica. Yes.
    Ms. Saldana. Interior--there's also on the border--the 
border ----
    Mr. Mica. Right.
    Ms. Saldana.--of removals.
    Mr. Mica. Right. Well, in this case I am taking--they are 
in the United States in the interior, not at the border. In any 
event, criminal deportations were 110,000 in 2013 and now they 
are down to 63,000. I don't have a chart on that. Those are 
numbers provided by you, is that correct? Sixty-three thousand 
in 2014. I don't know what 2015 is. I am sorry, 2015 is 63,000. 
I don't have 2014. And 2013 was 110,000. In any event, it is 
down ----
    Ms. Saldana. Those are not the numbers I have.
    Mr. Mica. Well, again, all I can go by is what we got from 
you all. And you have said that the law prohibits some of your 
actions to deport, but actually, the agents tell us, well, two 
things. First, they say they are hamstrung by the President's 
Executive order that has granted some amnesty to millions of 
illegal aliens. That is what the agents say. Have you heard 
that?
    Ms. Saldana. From our agents or from border patrol?
    Mr. Mica. From your agents and ----
    Ms. Saldana. I've heard reports of that ----
    Mr. Mica. Yes.
    Ms. Saldana.--sir.
    Mr. Mica. Okay.
    Ms. Saldana. Nobody ----
    Mr. Mica. Again, they are telling us that. They also say 
that some of those people even--again, that there was a court 
decision and ICE has admitted, however, that of the 2,457 of 
the 30,000 releases, that that would the number affected by the 
court decision, which is Zadvydas v. Davis so that 57 percent 
were actually released at ICE's discretion, at your discretion. 
So we have more than half of those at your discretion. We have 
had hearings we have had your folks in, and this is what they 
are telling us.
    The other thing, too, is you have the right to deport 
people, and again, the discretion is given to you. Again, your 
agents have told us. But in more than half the cases, you 
haven't exercised that discretion.
    Then you also have when--the courts do let some folks out 
on appeal, these criminal aliens have committed an act. How 
many times have you appealed the bonds?
    Ms. Saldana. Bonds, some occasions--I don't have the 
precise number.
    Mr. Mica. Could you provide that for the record because --
--
    Ms. Saldana. I ----
    Mr. Mica.--I think it is fairly limited.
    Ms. Saldana. I can provide it.
    Mr. Mica. But you have that discretion, too. So 57 percent 
of the time where you have discretion, you haven't exercised 
it. Then, where people have committed it, they are out on bond, 
and you could appeal and go after those folks, you don't do it.
    One of the other things that was brought to my attention is 
we have lost total control of the border, and this is most 
disturbing. I got this yesterday. This is the Customs and 
Border Patrol system, the entire system that deals with 
passport control. This is just the last 2 months from March 4, 
2016, to April 17. The system has been down almost two total 
days, and this is a record of the time the system has down. The 
system that we have to control our border and who is coming in 
is imploding. I don't know what it going on here, and I would 
ask maybe the chairman of Government Operations or whoever is 
in charge of this area in our subcommittee to look at this.
    We have lost control of our borders, and your system that 
protects us and the main computer system has been down, down, 
and down, and I think this is something that needs to be looked 
at. I am going to hand you a copy of this, and I would like you 
to respond to these statistics.
    Ms. Saldana. Are these ICE statistics or Customs and Border 
Protection?
    Mr. Mica. Customs and Border but ----
    Ms. Saldana. That's another agency, sir.
    Mr. Mica. Yes, but this is the system that controls the 
passports and entry into the United States. And you are also in 
DHS. I would like to have a response for the record.
    Ms. Saldana. We should get the witness best able to answer 
----
    Mr. Mica. Okay.
    Ms. Saldana.--the questions ----
    Mr. Mica. And you will help me with that, and I appreciate 
it.
    Ms. Saldana.--regarding CBP, yes.
    Mr. Mica. Thank you.
    Chairman Chaffetz. The gentleman's time is expired.
    I will now recognize the gentlewoman from New York, Mrs. 
Maloney, for 5 minutes.
    Mrs. Maloney. Thank you. First of all, I would like to 
thank Director Saldana for your public service first as a U.S. 
attorney in Texas and now as director of ICE.
    And I would like to understand the challenges that you and 
ICE face in trying to deport criminal aliens back to their 
countries and the countries refuse to take them. I want to 
understand what the challenges are, and more importantly, what 
can we do to force a country to take back their own citizen 
when we are deporting them for serious criminal crimes.
    Now, as you know, the Chadwick family is here. They lost 
their beloved child, and they rightfully want to know why a 
convicted--really a convicted, threatening, terrible felon was 
not deported when he served his conviction in the United 
States, he was out on release, the law said we can deport him, 
we should deport him, and as I understand it his home country 
Haiti refused to take him. And I want to understand how this 
happens, and I want to understand what we can do about it. In 
this case, the guy's name was Jean Jacques of Haiti.
    And as we reviewed the record in this particular case, it 
is stunning and shocking how many times the Haitian officials 
approved his return to Haiti and then reversed themselves and 
essentially pulled the rug out from under U.S. officials and 
would not let him come home to his own country.
    To give a specific example, on October 1, 2012, U.S. 
officials submitted a request to Haiti to deport him. Haitian 
officials gave their verbal confirmation that he was approved 
to go back to Haiti, and are you aware that Haitian officials 
approved his removal to Haiti on October 1, 2012?
    Ms. Saldana. Yes. And you have cited--I don't know if 
you're done ----
    Mrs. Maloney. Yes, yes, yes. And then they changed their 
minds. They told you, U.S. officials that he was denied for 
removal. They pointed out that he was approved 3 days earlier. 
And do you know why the Haitian officials decided on a whim 
that he would not be allowed to come back to his country of 
origin?
    Ms. Saldana. We have not been given a response. It is 
tremendously frustrating. We want to send this person back. We 
wanted to. And there are others, unfortunately others in that 
same position.
    As I said, with respect to Haiti ----
    Mrs. Maloney. Yes, yes. I want to go on. And this is really 
critical because if we had succeeded in removing him and 
deporting him, we would have saved an American life, we would 
have saved an American family, and it was the right thing to 
do.
    So one week later, unbelievably, on October 10 Haitian 
officials acknowledged to U.S. officials that they had actually 
approved a flight to Haiti that includes Mr. Jacques. He was 
supposed to go. But then on the very same day they reversed 
themselves again. They said that he could not board the plane. 
What in the world was going on with these Haitian officials? 
Were they just playing games with us? I mean, this is the 
second time they denied the deportation request of the United 
States Government. And by treaty, they had approved that 
illegal aliens and certainly criminal aliens would be accepted 
back in their country.
    Ms. Saldana. And what's extraordinary, Congresswoman, is 
that actually the Haitian Government has worked with us in many 
instances before. So it is a very arbitrary granting and then 
denial and then granting and denial. It's extraordinarily 
frustrating. Just like the United States requires people to 
have travel documents when they come through the United Sates, 
all these other governments require that, too.
    Mrs. Maloney. My time is almost up. Now, this is almost 
unbelievable. Then again on February 2 of 2016 of this year, 
U.S. officials tried again to send him back to Haiti, and on 
this day Haitian officials informed us the U.S. that Mr. 
Jacques was once again approved for removal and then again on 
the very same day these Haitian officials withdrew their 
approval.
    Now, what I want to know is what can we do about it? This 
is something I would like to work with the majority party on 
accomplishing. I personally support universal reform on 
immigration, but if we can't reach a quick approval on that, we 
should get a quick approval on how we can deport someone back 
to their country, especially when they are ``allies,'' when we 
have treaties, when you are literally giving this country aid. 
And yet, three times they really made fun of the American 
Government and said, no, we are not taking him back, reversing 
a verbal confirmation that they would take this criminal back.
    Now, I feel very strongly about this. I have my own two 
daughters. I can't imagine the grief that this family is 
facing. And this is such an injustice not only to this American 
family and to this young girl but also to our whole country 
that they will not abide by the treaty, they will not take 
their felon back that came here illegally.
    And my question is, and it is a serious one, how can we 
enforce this and how can we stop this type of abuse of the 
American Government?
    Ms. Saldana. Well, we have a system in place and we have an 
understanding with the Department of State, a Memorandum of 
Understanding where ----
    Mrs. Maloney. But if they refuse to take him, which is what 
they are doing ----
    Ms. Saldana. Exactly.
    Mrs. Maloney.--what do we do about it?
    Ms. Saldana. Exactly. And what we need to do is have 
Department of State at the table, but we need to talk about how 
we accelerate the process because right now, it is very, very 
slow. We have ----
    Mrs. Maloney. But you accelerated it. You achieved it.
    Mr. DeSantis. [Presiding] The gentlewoman's time is 
expired.
    Mrs. Maloney. He was ready to be deported.
    Mr. DeSantis. Yes.
    Mrs. Maloney. And the country said no. We have got to get a 
system ----
    Mr. DeSantis. The gentlewoman's ----
    Mrs. Maloney.--where we can force these countries to be 
responsible.
    Ms. Saldana. I agree.
    Mr. DeSantis. The gentlewoman's time is expired.
    The chair notes the presence of Mr. Courtney from 
Connecticut, and I ask unanimous consent that he be allowed to 
fully participate in today's hearing.
    And without objection, so ordered.
    I would also like to introduce for the record a CBP system 
down-times log.
    Without objection, so ordered.
    Mr. DeSantis. And the chair will now recognize the 
gentleman from Michigan for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman.
    And, Director Saldana, thank you for being here, but let me 
reiterate the fact that, number one, we support the proud 
enforcement officials that you work with and that you lead. We 
expect that the overwhelming majority of them are as frustrated 
as we are in trying to deal with the problem, but our 
frustration goes up to leadership aspects even above you and 
concerns in making sure that our citizens are safe.
    We are also concerned with the fact that there are plenty 
of desiring immigrants who want to come to this country for all 
the right reasons, but it is more difficult for them to come 
because of what is going on with these illegals, and especially 
the ones perpetrating the crimes and the murders in our 
society.
    And to get to the accomplishment of having comprehensive 
immigration reform take place, we have to make sure that our 
systems are working to keep this terrible, cruel element out of 
our society.
    And so let me ask you a question. Information that I have, 
statistics say that as of August 2014, the administration 
indicated that over 375,000 aliens and 121,000 level-one 
convicted criminal aliens who the Obama administration deems 
``the worst of the worst'' were removed as a result of the 
Secure Communities. Instead of continuing to utilize that 
successful existing system, the Obama administration ended it 
and implemented the Priorities Enforcement Program that we are 
under right now. Why did the administration end the successful 
program that flags criminal aliens once they are booked into 
jails?
    Ms. Saldana. Sir, we may have to have a discussion on what 
successful actually means. I think you are aware of the fact 
that ----
    Mr. Walberg. People living and not dying.
    Ms. Saldana. I think you're aware of the fact that we, the 
United States, have been sued many times because of Secure 
Communities, and the fact that there are people that had claims 
that they served in Federal court, some ended up being 
successful even though we challenged them.
    With respect to the implementation of the program, many 
people are concerned that, as a result of Secure Communities 
and the way it was implemented, something that was in place 
before-- I was actually gone--before I got there, that there 
was a tremendous controversy about it. Well ----
    Mr. Walberg. Let me jump on here. During the Secure 
Communities program that has been ended, how many detainers 
were issued by ICE but ignored by local law enforcement?
    Ms. Saldana. I don't have that number in front of me.
    Mr. Walberg. Do you have a number of how many of those 
ignored detainers resulted in an alien being released and 
subsequently committing a crime?
    Ms. Saldana. No, sir.
    Mr. Walberg. Do you have ----
    Ms. Saldana. For Secure Communities you're asking?
    Mr. Walberg. Secure Communities.
    Ms. Saldana. Yes.
    Mr. Walberg. How many of those ignore detainers resulted in 
additional crimes being committed? Do you have that number?
    Ms. Saldana. I don't have it.
    Mr. Walberg. Well, you have indicated you want solutions, 
but it seems like you would want these numbers in order to get 
to those solutions, wouldn't it?
    Ms. Saldana. I just don't have them on the top of my head, 
sir. They're available. We can probably find them. It may take 
a manual search of our records, but--and some time, but we can. 
I--the fact that I can't answer that right now shouldn't 
undermine my point about wanting to do something positive in 
this area.
    Mr. Walberg. Well, I would like to have those numbers 
provided for our committee, and whether it is the week that you 
initiated--you said about the letters or not, we would like it 
as quickly as possible.
    Mr. Walberg. Why is the Federal Government satisfied with 
localities coming in contact with removable aliens and then not 
collecting sufficient information, records, fingerprints, et 
cetera?
    Ms. Saldana. Well, that is happening, and when you say 
removal of aliens, no alien is removable until we have a court 
order. So they go through a very--sometimes years-in-the-making 
process, a very long process to make that determination.
    I will tell you, though, you know that Secure Communities, 
that program was replaced by the Priority Enforcement Program 
where we work with all of these State and local jurisdictions. 
That's what I did as a United States attorney. We relied on 
local law enforcement, not only police departments but 
Sheriff's departments, to assist us, and we do that. We ----
    Mr. Walberg. And aren't there stipulations for them to 
provide the information to you such as fingerprints on these 
people?
    Ms. Saldana. There's a provision in the statute that talks 
about cooperation from them, not specifically fingerprints, but 
cooperation.
    Mr. Walberg. So cooperation would include information that 
is necessary for protecting our citizens, correct?
    Ms. Saldana. It could.
    Mr. Walberg. It could? Well, maybe that is why this hearing 
is being held today, and hopefully, information will come out 
so that families won't be seated in the room again because 
there is indication that we have not done what is necessary to 
protect them. And that is my concern.
    And again, it is not the ICE agents. It is the 
administration that isn't doing what is necessary or at least 
pushing for the funds, the resources, the systems in place to 
make sure that we have that capability. And that is my concern. 
That is not a charge. That is a request. Help us to do the 
right thing. But in turn, don't give us excuses.
    And I yield back.
    Ms. Saldana. Another party, though, is the Congress, sir, 
and you could help us by ----
    Mr. Walberg. I think we have helped you with plenty of 
things. We have asked questions today about why you haven't 
used some of those resources, why there hasn't been the 
pushback on other countries, why there hasn't been a request 
for dollars to put toward the programs that keep these people 
off the streets as opposed to other entities.
    And I yield back my time.
    Mr. DeSantis. The gentleman's time is expired.
    The chair now recognizes Mr. Cartwright for 5 minutes.
    Mr. Cartwright. Thank you, Mr. Chairman.
    And thank you, Director Saldana, for being here, but I also 
want to take time to acknowledge and thank everyone for the 
presence of the families here today, starting with you, Mrs. 
Hartling. Your daughter's case has been discussed a bit and we 
will talk more about it, but our hearts go out to you. And I 
know I speak for everyone here and everyone in the United 
States Congress in expressing our most profound condolences.
    Also, we have Chief Ralph Martin here taking up the cause 
of Marilyn Pharis. And I know she is not family to you, but she 
is starting to seem like it, I am sure. So condolences to you 
as well, and thank you for taking up that cause.
    But we also have Michelle and Scott Root here today, and 
thank you.
    Mr. Root. My wife is not here today.
    Mr. Cartwright. Oh, okay. We have Scott Root here today, 
and I thank you for being here. An ineffable, unspeakable 
tragedy. I mean, we are talking about your daughter who just 
graduated college the day before with a 4.0 in, of all things, 
criminal justice. And then the next day in a drunken-driving 
drag-racing incident, an undocumented illegal struck her from 
behind with such force that she died within about 24 hours. 
Unbelievable.
    And this is a situation that I want to talk to you about, 
Director Saldana. We had this 19-year-old illegal, a young man 
named Mejia from Honduras, and really what happened after the 
crime was even more shocking because he got out on bail. There 
was a judge--this is in Nebraska, I think. A judge let Mejia 
out on $50,000 bail. And if you know how bail works, if you 
post 10 percent, then you are out on bail. Well, 10 percent of 
$50,000 is $5,000. Mejia's brother came up with the money, and 
as soon as he got out, he was gone. And are you familiar with 
the case, Director Saldana?
    Ms. Saldana. Oh, yes.
    Mr. Cartwright. Okay. So I want to look into that a little 
bit because the thing--I was a lawyer for 25 years, and I know 
a little bit about how bail is set. And one of the 
considerations is when the judge decides to set bail, is this 
person a flight risk? Is this person likely to be somebody who 
would plunk down the 10 percent and skedaddle out and never be 
heard from again?
    In fact, Mejia had a history of brushes with the law before 
this horrible drunk-driving incident. He had had a history of 
skipping out on other charges when the judge considered bail. 
But what I read, and I want you guys to disabuse me of this if 
it is wrong, but what I read was that the trial court judge 
never--the one charged with setting bail never even heard that 
this was an illegal immigrant, never even heard of his history 
with the law, and most importantly, never even knew that he had 
skipped out on other charges before. This was the poster child 
for somebody that ought to have a very, very high bail set. And 
the judge never even knew it, and it was because the 
prosecution, which knew all these things, never informed the 
judge.
    Now, that is what I got from news accounts, and if it is 
wrong, that is why I am asking that I want you to tell me if it 
is wrong. But we saw on the news accounts that the Douglas 
County attorney acknowledged that his office could have handled 
the matter better. And we will talk about it later, but if you 
are familiar with the case, Director Saldana, am I getting the 
facts right there?
    Ms. Saldana. More or less, although I can't speak to 
exactly what the judge had in his mind when he made the 
decision to release Mr. Mejia.
    Mr. Cartwright. And let me interrupt you. In a case like 
that, does it require an ICE detainer for a local judge to set 
a high bail in a case of probable flight risk?
    Ms. Saldana. No, sir. He just needs to know the facts. And 
we obviously were not in the courtroom at that time. It was a--
it's a distinct matter, as you all know, when it comes to this 
kind of activity. And I want to tell Mr. Root, express my 
sympathies as well with respect to this.
    I think you said earlier that the DA had said that things 
could have been done better. There's a lot--unfortunately, 
there's a lot of different things that could have been done 
better, and I'm--I am going to use this as a--when I said I was 
revisiting our criminal review process, I am going to use this 
as an example of what could we have done differently in this 
case because I don't want this to happen again obviously, and 
neither does the officer or the agents involved in this case.
    Mr. Cartwright. Well, thank you, Director. And I do look 
forward to hearing from the families later today.
    I yield back.
    Mr. Walberg. [Presiding] I thank the gentleman.
    I recognize the gentleman from Arizona, Mr. Gosar.
    Mr. Gosar. Thank you, Mr. Chairman.
    Ms. Saldana, you have reached out to the families, but I 
want to make sure it is for the record that you reached out to 
the families around April 22 only upon finding out about this 
hearing and their testimony. So I want to make sure that is for 
the record.
    Ms. Saldana. And I want to be sure for the record ----
    Mr. Gosar. You know, I understand. I made a statement ----
    Ms. Saldana. You don't want me to ----
    Mr. Gosar. I made a statement, ma'am, so let me--this is my 
time, not yours.
    Ms. Saldana. Okay. You ----
    Mr. Gosar. Okay.
    Ms. Saldana.--understand that they are ----
    Mr. Gosar. Once again, it is my time.
    Ms. Saldana. And you understand that I would like the 
record to be clear, sir. I am meeting with Ms. Hartling this 
afternoon. I don't want to ----
    Mr. Gosar. I find it--I am going on. I don't think you 
ought to be picking a fight with Arizona. Of all places, you 
better not go there. Operation Streamline goes away, 
incarcerations over and over again, told them to release them. 
It is not the men and women in ICE and Border Patrol; it is 
leadership just like you, like the President, like the attorney 
general all the way across the board.
    So let's put a face on this. Are you aware in January 2015 
of a young man in my home State of Arizona who was shot and 
killed by an illegal alien who was facing deportation 
proceedings but was out on bond? Are you familiar with the 
murder of Grant Ronnebeck by an illegal alien in Mesa, Arizona?
    Ms. Saldana. Yes.
    Mr. Gosar. This is important because I want to make sure 
you and your agency know about the numbers that you cite and 
all these reckless, lawless policies, Director, have real 
consequences, murderous consequences for real people and their 
families. One life lost in this manner is way too many, 
wouldn't you agree?
    Ms. Saldana. Absolutely.
    Mr. Gosar. So the man who murdered Grant Ronnebeck was an 
illegal alien who, instead of being detained or deported, was 
out on bond. In fact, Apolinar Altamirano, a self-proclaimed 
drug cartel member, had deportation proceedings dragging on 
more than 2 years after he was released on bond following a 
conviction, a conviction on a burglary charge. While out on 
bond, this illegal alien had two harassment charges--very 
similar to what my colleague on the other side was talking 
about in the previous case--against him in which one of the 
victims said that she feared for her life several times in 
claiming to the court he pointed a gun at her and her 
boyfriend. Yet this man remained on the streets.
    Now, here is this thing you have talked about, this 
discretionary issue. So then on January 19, 2015, Mr. 
Altamirano walked into a convenience store, demanded a pack of 
cigarettes in exchange for a jar of change. When the clerk, 
young Grant Ronnebeck hesitated, Altamirano pointed a gun at 
Grant and shot him, fatally shooting him, 21 years old.
    Now, Director Saldana, Grant Ronnebeck's murder is a direct 
result of your agency's failed policies. Why do you let 
murderous people like this free into our communities? Once 
again, all the discretion, I pointed out he has got a history 
and a rap sheet. Tell me why.
    Ms. Saldana. I can tell you, sir, what I said earlier with 
respect to the fact that our officers ----
    Mr. Gosar. It is not that code, and you keep pointing to 
that code. It is not that code. There was no reason why this 
man should have been on the street.
    Ms. Saldana. I'm sorry, what did you just say?
    Mr. Gosar. It is not about that code.
    Ms. Saldana. The code?
    Mr. Gosar. The code that you keep referring to ----
    Ms. Saldana. Oh, statute.
    Mr. Gosar. Yes. It is not about that. This man, the whole 
rap sheet, this guy should have been incarcerated. 
Unfortunately, Grant's murder is not unique, and this 
murderer's situation is not an isolated case, is it, Director? 
It is not an isolated case, is it?
    Ms. Saldana. What is? The specific facts ----
    Mr. Gosar. Yes.
    Ms. Saldana.--of that case?
    Mr. Gosar. Yes.
    Ms. Saldana. Well ----
    Mr. Gosar. There are lots of them. We heard one from Mr. 
Cartwright.
    Ms. Saldana. Yes--we--I think the numbers are in the 
record.
    Mr. Gosar. So how many aliens entered the United States 
illegally were charged with felonies in fiscal year 2015?
    Ms. Saldana. I'll have to look up that number, sir.
    Mr. Gosar. How many in 2016?
    Ms. Saldana. How many aliens who were in the system or who 
are out there in the public?
    Mr. Gosar. How many aliens who entered the United States 
illegally were charged with felonies? If you don't have those 
numbers, I would like them for the record ----
    Ms. Saldana. Well, sir ----
    Mr. Gosar.--2015 and 2016.
    Ms. Saldana.--as I said earlier, there are 11.2 million 
aliens in the United States illegally ----
    Mr. Gosar. I don't care about the 11 million. I am asking 
about those that come in with felonies, that were charged with 
felonies. I want ----
    Ms. Saldana. Some we haven't encountered. There's no way we 
can have information on them.
    Mr. Gosar. How many aliens who entered the United States 
illegally were charged with felonies in fiscal year 2015? You 
have those numbers. I want them.
    Ms. Saldana. We don't have those numbers.
    Mr. Gosar. After they got here. Don't you get it? I mean, 
you were a U.S. attorney ----
    Ms. Saldana. Many of them are not trying to be found, sir. 
We don't have any record that they're here in the country. The 
11.2 is an estimate.
    Mr. Gosar. Yes, they are illegally here and they were 
charged with a felony here. You got those numbers.
    Ms. Saldana. No, sir. They wouldn't ----
    Mr. Gosar. You have got to be kidding me.
    Ms. Saldana. They wouldn't be complete.
    Mr. Gosar. You have got to be kidding. These are illegals--
so they come into this country, they are illegal, they have 
been charged with a felony. What are those numbers in this 
country?
    Ms. Saldana. Sir ----
    Mr. Gosar. Are you kidding me?
    Ms. Saldana. No, I'm not kidding you. I ask you to listen 
to my answer. There are 11.2 million people in the country 
illegally.
    Mr. Gosar. I am not asking about the 11.2.
    Ms. Saldana. It's ----
    Mr. Gosar. I am asking about those that are here illegally 
----
    Mr. Walberg. The gentleman's time is expired.
    Mr. Gosar. Thank you.
    Mr. Walberg. I now recognize the gentleman ----
    Mr. Gosar. Unbelievable.
    Mr. Walberg.--from California, Mr. Lieu.
    Mr. Lieu. Thank you, Mr. Chair.
    Mr. Gosar. Unbelievable.
    Mr. Lieu. And let me first say to the families, thank you 
for being here, and I apologize for your loss.
    I would like to follow up on Representative Maloney's line 
of questioning about Haiti and Mr. Jacques. No one disputes 
that he had a legitimate court order for deportation and that 
the Haitian Government three times rejected accepting him back 
to their country. Are you aware that the U.S. has been the 
largest Federal aid donor to Haiti since 1973?
    Ms. Saldana. No, sir. I ----
    Mr. Lieu. Okay.
    Ms. Saldana.--don't follow that.
    Mr. Lieu. So we are the largest Federal aid donor in 
history to Haiti. And are you frustrated that countries such as 
Haiti don't take back their citizens after they commit crimes 
in the United States and have a valid order for deportation?
    Ms. Saldana. Absolutely. If we can remove somebody and we 
have that order we want to remove that person.
    Mr. Lieu. Right. Would you support a law or an amendment 
that says countries like Haiti should no longer get foreign aid 
or get a reduction in foreign aid if they do not accept their 
citizens back that have committed crimes in the United States?
    Ms. Saldana. I would support looking at that question, sir, 
and working with the Department of State to see if that's a 
reasonable and logical thing to do.
    Mr. Lieu. Has the Government of Haiti apologized to ICE or 
to the victim's family at all?
    Ms. Saldana. I don't know about the family. I don't know --
--
    Mr. Lieu. Have they apologized to the U.S. Government or 
ICE for their actions?
    Ms. Saldana. Not to ICE at least that I'm aware of.
    Mr. Lieu. So I hope someone from the Haitian Government 
watches this hearing because now they have got bipartisan 
outrage about the Government of Haiti. That is not a good place 
for the Government of Haiti to be in. They could lose Federal 
aid, and I would like to know if ICE, since you have already 
gotten a letter from U.S. Senators to look into this, if 
perhaps you could communicate to either the Department of State 
or the Government of Haiti and say that their behavior was 
unacceptable, and we need them to change?
    Ms. Saldana. I'll certainly raise that subject again this 
afternoon.
    Mr. Lieu. So I would like to talk a little bit about the 
case of Sarah Root and how the person that killed her fled by 
posting bond. It is my belief that the bond system is in 
drastic need of reform in the United States. Only two major 
civilized countries have a major bail bond industry, a for-
profit industry. It is the U.S., and the Philippines is the 
other one. Many other countries actually banned money bond, and 
that is because there is very little relationship between how 
much money someone can have posted or the cash in hand they 
happen to have and how dangerous they are. And in this case, it 
is a good example where someone posted money and then fled.
    It seems to me it would make a lot more sense if we 
eliminated money bond and instead when to a risk-assessment 
system, which is what the District of Columbia has done for 
many years. And basically, they say, look, if you are at risk 
of fleeing or if you are dangerous, we are just not going to 
release you. But if you are not and you are poor and you can't 
post a bail, we are going to release you. We are going to do it 
based on a risk assessment.
    And I think what happens often is these judges and the 
whole system tends to look at the money factor and say, oh, if 
they can post $50,000, we are just going to release them. In 
real life, there is very little relationship between money and 
how dangerous the person is or whether they can flee. Often, it 
just depends can you get someone to post that 10 percent for 
the rest of the bond.
    And so I would appreciate if you could look at how the bond 
system in the Federal Government may actually be helping to 
release people that are quite dangerous or at risk of fleeing 
and maybe we should reverse that and look at a risk assessment 
system.
    I note this is not a partisan issue. The State of Kentucky 
is looking at moving towards a risk assessment system. And so 
could you look into that issue and let us know?
    Ms. Saldana. Well, actually, sir, it's supposed to be a 
risk assessment. I don't know the specifics ----
    Mr. Lieu. Well, here is the problem. When you attach for-
profit money to that system, it warps it so that judges, I 
think, don't do their proper risk assessment. I think judges 
would do a much better risk assessment if they thought, hey, it 
is on me now. It is not really how much money this person can 
post. It is my decision whether to release them and it is 
totally on the judge and the factors. So would you at least 
look at that issue?
    Ms. Saldana. I certainly can.
    Mr. Lieu. Great. Thank you. And with that, I yield back.
    Mr. Walberg. I now recognize Mr. Grothman for his 5 
minutes.
    Mr. Grothman. Right. You right now are supposed to fill an 
average number of beds of 34,000 a day, is that correct?
    Ms. Saldana. That's what we've been authorized for, yes, 
sir.
    Mr. Grothman. Right. And of those, are they filled now 
about?
    Ms. Saldana. Excuse me?
    Mr. Grothman. Are they filled now about?
    Ms. Saldana. We're about at 32,000 I think the last time I 
checked average daily population, and right around that number 
in terms of like the last time I looked that day.
    Mr. Grothman. And of those 32,000, how many are people who 
have been found guilty of a crime and how many are people who 
are maybe for just whatever reason grabbed at the border?
    Ms. Saldana. There would be some that are there because of 
having been charged with a crime and others that are recent 
border entrants, some that came into the country after January 
1 ----
    Mr. Grothman. Right, right, right. About how much of each?
    Ms. Saldana. I can get you that--those percentages.
    Mr. Grothman. Like about half-half, 80/20, 90/10?
    Ms. Saldana. I hate to pull something out of the air, sir, 
but I certainly can look at that.
    Mr. Grothman. Okay. So you have extra bed space available 
now?
    Ms. Saldana. About 200 if I'm right, and of course that 
number varies from one day to the next because ----
    Mr. Grothman. I thought you said you had about 32,000 in 
there and you're authorized for 34,000.
    Ms. Saldana. I'm sorry. You're--did I say 200?
    Mr. Grothman. Yes.
    Ms. Saldana. Let me add an extra zero. I'm sorry, sir.
    Mr. Grothman. Okay. Right now, what percentage of criminals 
who could be deported you think are being deported?
    Ms. Saldana. Every criminal who has a final order of 
removal and a travel document is in the process of being 
removed.
    Mr. Grothman. Right, but there are criminals right now who 
are arrested for crimes who are not removed, correct?
    Ms. Saldana. Yes.
    Mr. Grothman. And do you know percentagewise the number of 
people we could remove, what percentage are being removed?
    Ms. Saldana. Any given year, no, I don't, not right now.
    Mr. Grothman. Could you guess wildly, half, a third, 90 
percent?
    Ms. Saldana. It's a portion of it. I would think it'd be--I 
don't want to guess, sir. I'll give you a proper percentage.
    Mr. Grothman. Okay. Could you tell us what types of crimes 
we don't remove people for now?
    Ms. Saldana. Oh, traffic tickets ----
    Mr. Grothman. Drunk driving, do you ----
    Ms. Saldana. I'm sorry, that's not a crime obviously, it's 
a civil matter.
    Mr. Grothman. Right, right, right, right.
    Ms. Saldana. It could be for minor offenses. Gosh, the list 
is long and depends on a ----
    Mr. Grothman. Well ----
    Ms. Saldana.--State by State ----
    Mr. Grothman. Well ----
    Ms. Saldana. Where the--let me put it this way. Where the 
offense has a sentence of--possible sentence of less than a 
year probably. Those are often misdemeanors.
    Mr. Grothman. And you wouldn't remove somebody for that?
    Ms. Saldana. It depends. Our priorities do allow us to move 
people with multiple misdemeanors. They are a priority. We just 
have to look at every case on a case-by-case basis and the 
facts relating to that case.
    Mr. Grothman. Do you have a databank of all the people who 
have been convicted of a crime who are here illegally?
    Ms. Saldana. We have the criminal history on anybody we've 
touched who's in the removal process.
    Mr. Grothman. Okay. Okay. This is kind of difficult. I am 
going to ask the chairman if we would have another follow-up 
hearing so you can come back with more answers.
    But right now, if somebody is charged with two burglaries 
in the State of Wisconsin and convicted, are they going to be 
part of your database?
    Ms. Saldana. The offenses they're charged with?
    Mr. Grothman. Yes.
    Ms. Saldana. Yes, probably so because we'll be drawing the 
criminal history of each one of them.
    Mr. Grothman. Okay. So you have a databank somewhere in 
which you are trying to keep track of all illegal immigrants 
here who are convicted of crimes?
    Ms. Saldana. Those that we know about.
    Mr. Grothman. Okay. Okay. And do you feel that there are a 
lot you don't know about?
    Ms. Saldana. Pardon?
    Mr. Grothman. Do you feel there are a lot you don't know 
about?
    Ms. Saldana. Well, about--I said there are about 2 million 
people in the process, and the guesses are that there are about 
11.2 million here who we--who may--we may or may not know 
about. So one could draw a conclusion from that that there's 9 
million or so who we don't know about that are in the shadows.
    Mr. Grothman. But the question is did they commit crimes? 
You feel there are ----
    Ms. Saldana. About people I don't know, we don't know--if 
we don't know who that person is here, we don't know what their 
criminal history is.
    Mr. Grothman. Okay. This is the question I am going to try 
to get at. If an illegal immigrant commits two burglaries in 
this country, will you find out about it?
    Ms. Saldana. Yes, we may. It depends on how ----
    Mr. Grothman. Every one of your answers is not quite on 
point. Yes, we may? I mean, will you or won't you?
    Ms. Saldana. Sir, it depends on the local jurisdiction. I 
mean, if the local jurisdiction keeps records well and we're--
and they input into the system that we are a part of, I can't 
give you an unequivocal answer. It's not a simple matter.
    Mr. Grothman. Can you give us any public policy reason why, 
say, if somebody commits a burglary why they should not be 
deported?
    Ms. Saldana. No. It depends on the cases and the facts 
relating to that case. If it's a burglary that was--if the 
person's been here for 25 years, they have three U.S. citizen 
children, and the burglary was 24 years ago, that, looking at 
it on a case-by-case basis, we may make a decision not to 
remove them but not to detain them.
    Mr. Grothman. I have no more time.
    Mr. Walberg. The gentleman's time is expired.
    The chair now recognizes the gentleman from Massachusetts, 
the ranking member on the National Security Subcommittee, Mr. 
Lynch.
    Mr. Lynch. Thank you, Mr. Chairman. I want to thank you and 
the ranking member for holding this hearing.
    I want to associate myself with the remarks of the 
gentleman from Pennsylvania, Mr. Cartwright, and also the 
written comments of the gentleman from Connecticut, Mr. 
Courtney.
    And I want to express my condolences to the families as 
well, and thank you for turning your tragedy into something 
that may eventually help other families from the same tragedy 
that has befallen your families. So thank you for taking 
something very, very bad, something very painful and trying to 
make something positive out of it. And I appreciate your 
courage and your willingness to do that.
    I just want to make a couple of observations here. Ms. 
Saldana, you are aware of the Zadvydas v. Davis case where the 
Supreme Court back in 2001 said that if you are holding a 
person, an illegal alien charged with a crime that has a 
deportation order but there is no foreseeable opportunity for 
that person to be deported, you have got to release him?
    Ms. Saldana. Painfully away.
    Mr. Lynch. Yes. So I am just pointing back to Congress, you 
know, we have got a responsibility here. You have got to 
recognize the context in which all this is happening, and it is 
happening in the absence of a coherent and workable immigration 
policy.
    And I have had a chance, with my colleagues on the other 
side of the aisle, to go down to Central America, went down to 
Honduras, went down to Guatemala, went down to El Salvador. And 
like it or not, because of the Executive orders that are out 
there, these human traffickers--they call them coyotes but I 
think that is too romantic a term--these are human traffickers 
capitalizing on that. And for $7,000 they will give you three 
shots to get into the United States. And we visited some of the 
centers where, if they get caught trying to cross the border, 
they get sent back. And ----
    Ms. Saldana. And we're targeting those, Congressman.
    Mr. Lynch. Yes, I know, I am just trying to make a point 
here. Every one of those kids that was returned, and there were 
hundreds that got caught at the border and were returned 
because in Mexico they support that sometimes, every one of 
those kids was picked up by their family within a couple of 
hours. So this is an organized attempt. It is not something 
that is just, you know, people are desperate. You know, they 
are economic refugees and they are trying to have a better 
life.
    The point I am trying to make is the last numbers we have 
for South and Central America, there are 61 million people 
living on less than $1 a day. They are desperate, extreme 
poverty, less than $1 a day. So if we have a system, if we are 
going to treat North and South America as a borderless region, 
then I think if we want an idea of what might happen, I think 
we look at Germany and we look at Europe because in that case--
and I have spent a fair amount of time in Germany and in the 
Middle East and at refugee camps in the Middle East. We are 
asking for the exact same problems where people are in 
desperate situations, and we do not have control of our border. 
We do not.
    And it is not the fault of Immigration and Customs 
Enforcement that we don't have control of our border. It is a 
problem of a willingness here in Congress to grapple with that 
problem.
    And we have a serious, serious problem. We can't have a 
Schengen zone here in the Western Hemisphere. We just can't 
sustain that. That is not a system that is going to provide for 
the safety of our citizens, and it is not going to be a system 
that will adequately address our need for legitimate and legal 
immigration.
    And I think it is--At one point you were pointing back at 
Congress and saying, you know, you have got a responsibility 
here, too, and I think you are absolutely right, Ms. Saldana. 
Congress is responsible. We are responsible.
    And I think there is a solution out there. And, you know, I 
think we have got to just, you know, let cooler heads prevail 
despite the vitriolic language we hear elsewhere about, you 
know, painting every single person south of the border with the 
same brush. That is not helpful. It is not right.
    But at the same token, we have a prime responsibility of 
protecting our people. And this is a national security issue. 
We have got to get control of our borders, north and south. And 
the faster we do that, the better our opportunity we will have 
to come up with a cogent and sustainable and responsible 
immigration system.
    So I thank you for your attendance here today. I see I have 
exceeded my time, and I thank the chairman for his indulgence. 
I yield back.
    Mr. DeSantis. [Presiding] The gentleman's time is expired.
    The chair now recognizes the gentleman from Ohio, Mr. 
Jordan, for 5 minutes.
    Mr. Jordan. I thank the chairman and thank him for his hard 
work on this issue and a number of other members of the 
committee.
    I was struck by the director's statement. In fact, she was 
looking directly at Congressman DeSantis, now the acting chair, 
when she talked about Republicans making this political. It is 
not about politics. It is about enforcing the law. It is about 
following ----
    Ms. Saldana. I didn't say Republicans.
    Mr. Jordan. Well, your comments were obviously directed to 
Mr. DeSantis. The entire time I was here you were looking at 
Mr. DeSantis and following his opening statement and Mr. 
Chaffetz's opening statement. But that is fine. You can say 
Republican, so that is fine. You did say, I think political 
bantering was the term you used.
    So I wanted to try to dissect these numbers. And again, 
from my perspective, following the law is not politics, it is 
the rule of law, it is what American is supposed to do and what 
American is supposed to be about. So let's look at some of 
these. It seems to me there are four categories of individuals 
that ICE probably interacts with. You have people who are here 
on a visa and they overstay or they violate their visa. I think 
the law says if someone does that, they are supposed to head 
back to their native country as well.
    Then you have someone who is an illegal entrant. They 
didn't come here on a visa; they just illegally entered the 
country. If that comes to your attention, you have them, they 
are also supposed to be deported is my understanding of the way 
the law is supposed to work.
    And then you have the categories that we are talking about 
today, a subset of this bigger universe if I am getting this 
all right. You have got people who overstay their visas or are 
here illegally, illegal entrant who commit a crime and they are 
in your custody. They are supposed to be deported.
    And then it seems to me you have maybe the most important 
category, overstayed their visas or illegal entrant who commit 
a violent crime and then are in your custody and are supposed 
to be deported.
    So we have got four categories where the law says they are 
supposed to be deported, but we are really only focusing on the 
last two, actually, even a smaller subset, illegal entrants who 
commit a crime who then you have in custody. And my 
understanding is you have released 86,000 of just that subset 
over the last few years. And over half of that 86,000 were 
released at your discretion, what is commonly called 
prosecutorial discretion. Is that accurate, Director?
    Ms. Saldana. That's correct.
    Mr. Jordan. That is all correct. So again, when you break 
it down, people came here illegally, did a crime, many cases 
violent crime, were in your custody, the law says they are 
supposed to be deported, and at your discretion, not because 
their country wouldn't take them back, you couldn't get travel 
documents, or notwithstanding other reasons, but over half of 
those 86,000 were you just decided you were just going to not 
follow the law. You were going to release them.
    Ms. Saldana. I disagree with that. We do follow the law. 
The law that Congress has provided says that for those--other 
than those that are subject to mandatory detention, a bond 
decision must be made and cite some of the factors that we 
consider, very much what you're familiar with in the penal 
system.
    Mr. Jordan. But the fact remains you release them.
    Ms. Saldana. After a careful analysis of each case.
    Mr. Jordan. Careful analysis. My guess is the families who 
are here, who I also want to express my condolences to, would 
disagree with your careful analysis.
    Ms. Saldana. Are we 100 percent accurate every time, 
looking back, sir, your--we--as I said earlier, we strive for 
perfection, but we are human and we do fall short sometimes.
    Mr. Jordan. Half of the 86,000 were the way I described. Is 
that accurate, Director, over half?
    Ms. Saldana. I think so. I think that is right.
    Mr. Jordan. What are the other reasons? What are the other 
40 percent, 45 percent, whatever it is?
    Ms. Saldana. Someone who's on their deathbed and is going 
to--you know, we have something from a doctor says there's no 
purpose in putting this person in detention, they're going to 
die in a few months, someone who is too ill to board a flight 
and they have to be transported by air, someone who is 
pregnant, those are some of the reasons.
    Mr. Jordan. Well, I mean, again, I am struck by the four 
different categories, we are focused on what I think American 
citizens would say the most dangerous category and the fact 
that over half of them are released just because you can do it, 
that ----
    Ms. Saldana. You provided--Congress has said we can do it. 
We wouldn't do it if we--if Congress hadn't provided that you 
consider bond for those that are not subject to mandatory 
detention.
    Mr. Jordan. But my understanding is you have the capability 
to hold more and you are not doing that.
    Ms. Saldana. We do, but I'm telling you that ----
    Mr. Jordan. So ----
    Ms. Saldana.--we exercise ----
    Mr. Jordan. So ----
    Ms. Saldana.--our judgment, sir, on ----
    Mr. Jordan. Oh ----
    Ms. Saldana.--based on what you have told us.
    Mr. Jordan.--well, you can't have it both ways. It can't be 
your judgment and you have the capability to hold more and then 
you blame it on Congress.
    Ms. Saldana. I'm not blaming it on Congress. I'm telling 
you what the law ----
    Mr. Jordan. Well, I think you just did.
    Ms. Saldana. Well, that's what the law says, sir, if that's 
what you ----
    Mr. Jordan. But then it can't ----
    Ms. Saldana.--how you interpret ----
    Mr. Jordan. Then it can't be your judgment. So you can't 
have it both ----
    Ms. Saldana. No, you've given us that judgment. You've said 
there are things that are mandatory and everything else ----
    Mr. Jordan. And you have the ----
    Ms. Saldana.--is discretionary.
    Mr. Jordan.--capability to hold more people in that final 
category, illegal entrant, committed a violent crime and they 
are in your custody, you have the capability, the facilities to 
hold more, and you are exercising your judgment to release 
them. And some of those people you release did violent crimes 
and actually took the life of American citizens.
    Ms. Saldana. Today, we have about 2,000 beds available ----
    Mr. Jordan. Right.
    Ms. Saldana.--based on what you authorized, this Congress 
authorized for us to do.
    Mr. Jordan. Yes. So I think we are saying let's use them.
    Ms. Saldana. Okay. And tomorrow, it may be 34. It may be 36 
tomorrow. That number fluctuates.
    Mr. Jordan. I am over. I yield back, Mr. Chairman.
    Mr. DeSantis. The gentleman's time is expired.
    The chair now recognizes Mr. Connolly from Virginia for 5 
minutes.
    Mr. Connolly. Thank you, Mr. Chairman.
    Welcome, Ms. Saldana, and my heart also goes out to the 
Hartling family and the Root family. I am a dad with a 
daughter. I cannot imagine. And it was a failure of the system 
that made you victims. It made your daughters victims.
    And we have got a problem with immigration, and I think 
Director Saldana has been trying to point to that tome in front 
of her saying I need your help in fixing that because there are 
problems in the current system that affect American citizens 
who count on it to protect them, but also immigrant families 
who want to make sure that they are treated with respect and 
dignity, because overwhelmingly, most of them are not 
criminals.
    I want to enter into the record, Mr. Chairman, two pieces 
of correspondence. One is from the Southern Poverty Law Center 
about some of the problems with the Atlanta immigration raids, 
and another one from my part of the country, northern Virginia, 
from the Arlington Public Schools, direction given by the 
superintendent of schools to all families and staff because of 
growing anxiety about these raids in northern Virginia.
    Mr. DeSantis. Without objection.
    Mr. Connolly. I thank the chair.
    Ms. Saldana, I added those letters into the record, and one 
of those letters states that ICE ``trampled legal rights, 
subjected mothers and children to terrifying and unnecessary 
police encounters, and tore families apart.'' It also says 
``these raids have turned to schools, including students on 
their way to schools.'' Are there indeed ICE raids on students 
on their way to schools?
    Ms. Saldana. No, there are not raids. We conduct 
operations, sir, and I really work very hard in the community. 
I've met with lots of organizations that simply do not 
understand what ICE does. And when the term raid is thrown 
around, it implies a thoughtless sweeping of people. The people 
we targeted in this--in both these operations that occurred 
earlier this year, Operation Border Resolve, Operation Border 
Guardian, were specifically targeted to people who had--whose 
status was determined to be illegal, who had the whole--had run 
their gamut of appeals and rights and the processes afforded 
them by the Immigration and Naturalization statute, who had a 
final order of removal and who were ready to be removed.
    Mr. Connolly. Director Saldana ----
    Ms. Saldana. That's not what I call a raid.
    Mr. Connolly. All right. You don't call that a raid. They 
do. And it is leading to the superintended of schools feeling 
he needs to provide counsel and reassurance to an entire school 
system based on the actions of ICE. Now, maybe that is 
justified, maybe it isn't, but maybe you want to talk to the 
superintendent of our schools in northern Virginia.
    Ms. Saldana. I'm happy to. In fact, sir, let--if I can just 
brag a minute, we have set up a network--we're setting up a 
network of community relations officers, people who will meet 
with law enforcement, with school superintendents, with rotary 
clubs, whoever will listen to us so that we can lay out for 
them exactly how we go about our business. The taxpayer is 
entitled to know that ----
    Mr. Connolly. Yes.
    Ms. Saldana.--and that's why we want to do that.
    Mr. Connolly. Fair enough. But let me go back to a student. 
So a student on the way to school, Supreme Court has ruled 
that, irrespective of status, if you are a student, you show 
up, you are entitled to a public education, correct?
    Ms. Saldana. I am not sure. I take your word for it. I ----
    Mr. Connolly. Well, that is a matter of case law.
    Ms. Saldana. Yes.
    Mr. Connolly. You were a U.S. ----
    Ms. Saldana. Whatever it is ----
    Mr. Connolly.--attorney. I mean, that was a Supreme Court 
ruling. I am not making that up. And that is why local 
governments throughout American have to educate children, 
irrespective of status. So whether they are documented or not 
is immaterial to a local public school. And is ICE targeting 
children based on their documentation on the way to what is a 
constitutionally protected education?
    Ms. Saldana. No, just adults. Unaccompanied children ----
    Mr. Connolly. Just ----
    Ms. Saldana.--who have aged out are eligible ----
    Mr. Connolly. Okay.
    Ms. Saldana.--if they're over 17, I believe, or older. So, 
no, we don't target children.
    Mr. Connolly. Okay. I have got a few seconds left. Just 
while you are doing your outreach, I urge you to do it with 
Members of Congress as well. I can tell you in my district 
probably my number-one subject now is immigration, given the 
demographics of my district. And we need a partner in your 
agency. We are not trying to make your life more difficult, but 
we are trying sometimes to solve through difficult problems 
that are family-related and confusion and all kinds of other 
things ----
    Ms. Saldana. I'd like to follow up with you ----
    Mr. Connolly. I would love to do that ----
    Ms. Saldana.--and get ----
    Mr. Connolly.--because ----
    Ms. Saldana.--and get that arranged.
    Mr. Connolly.--if we don't have your cooperation, we can't 
resolve some problems. And trying to make sure that from the 
top down caseworkers cooperate with Members of Congress as they 
are trying to do their jobs, too, on behalf of their 
constituents is always welcome.
    I wish I had more time. I thank the chair for the hearing. 
And again, my profound sympathies go with the families. There 
aren't words to describe how we feel.
    Mr. DeSantis. The gentleman's time is expired.
    The chair now recognizes the gentleman from South Carolina, 
Mr. Gowdy, for 5 minutes.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Director, I appreciate your service in a previous life, and 
I have got to confess to you, I was surprised when you used the 
phrase ``political bantering'' in your opening. I was not only 
surprised, I was disappointed because you seemed to direct that 
towards the Republicans. It was the solicitor general of this 
administration not 2 weeks ago before the Supreme Court who 
talked about the damage wreaked by the separation of families. 
Of course, he wasn't talking about Sarah Root's family and he 
wasn't talking about Joshua Wilkerson's family and he wasn't 
talking about Casey Chadwick's family or Kate Steinle's family. 
He was talking about the families of people who were not here 
legally.
    And that just struck me as a political comment that he 
made, and of course it is not us on our side that advocate for 
sanctuary cities, which is quintessentially a political 
analysis that we are going to allow State and local officials 
to decline to follow Federal process, but at the same time we 
don't trust State and local cops enough to actually enforce 
immigration laws. That is a political calculus. That is not 
done by folks on our side of the aisle.
    My friend from Maryland, Mr. Cummings, went to great 
lengths to quote episodically from a single Republican. I have 
never heard him quote Secretary Castro, who has come before 
committees of this Congress and advocated for citizenship for 
all 12 million aspiring Americans, like all 12 million can pass 
a background check, all 12 million, not a single one of them 
can't pass a background check.
    So if we are going to talk about political bantering and if 
we are going to use your phrase, and you are the one who used 
it, I think we ought to at least acknowledge there is plenty of 
political bantering going on on your side as well.
    Ms. Saldana. Let me make myself very clear, very clear. I 
was not referring to one party or the other. I asked for 
everyone to drop the political banter and fighting and help me 
get a system that works.
    Mr. Gowdy. All right. Well, then ----
    Ms. Saldana. I want the record to be clear on that.
    Mr. Gowdy. The record is clear. Let's let the record be 
clear about one other thing because I am vexed as to why Mr. 
Mejia was not detained. Can you tell me as a former prosecutor 
why the killer of Sarah Root was not detained?
    Ms. Saldana. An individual from ICE looked at the specific 
facts and circumstances related to that matter, had--the 
individual had no criminal convictions, previous criminal 
convictions, and made a determination based on his judgment 
that he did not need to be detained.
    Mr. Gowdy. And ----
    Ms. Saldana. Could you and I disagree with that decision --
--
    Mr. Gowdy. No, no, no, it is more than that you and I 
disagree with that. That individual was in fact wrong because 
Mejia has failed to appear for court, has he not? Has he 
absconded?
    Ms. Saldana. It is very easy to look back, sir ----
    Mr. Gowdy. Well ----
    Ms. Saldana.--very easy to look back, and yes, he has 
absconded.
    Mr. Gowdy. Well, I am looking back so we can look forward 
and prevent the next one ----
    Ms. Saldana. Exactly what I'd like to do.
    Mr. Gowdy.--and that is about all we can do unless we have 
a crystal ball is look back and see what facts we were given. 
And Mr. Mejia--the only two things you look at in a bond 
analysis are danger to the community and flight risk. Those are 
the only two things you look at. So help me understand why 
someone driving three times the legal rate of impairment who is 
not here legally, did he have any criminal history at all, any 
arrests at all?
    Ms. Saldana. We did not find criminal history. I think I've 
been advised by Senator Ernst that he had some traffic 
violations previously, but criminal convictions, our records 
didn't indicate that he had.
    Mr. Gowdy. Has he failed to appear subsequently for court 
appearances?
    Ms. Saldana. Subsequent to what?
    Mr. Gowdy. Subsequent to his killing of Sarah Root?
    Ms. Saldana. Oh, no, he did not appear for his ----
    Mr. Gowdy. Right. So he has ----
    Ms. Saldana.--immigration court hearing.
    Mr. Gowdy. He has failed to appear, that was my question.
    Ms. Saldana. Absolutely.
    Mr. Gowdy. So the discretion exercised was wrong.
    Ms. Saldana. These are tough decisions, sir, and ----
    Mr. Gowdy. This one actually is not that tough to me ----
    Ms. Saldana. Well ----
    Mr. Gowdy.--Director. With all due respect, it is not that 
tough.
    Ms. Saldana. Okay. Federal judges make these ----
    Mr. Gowdy. Would you have granted a $5,000 for that 
defendant?
    Ms. Saldana. I don't think the bond was set at $5,000 ----
    Mr. Gowdy. No, it was $50,000, which means he had to post 
$5,000.
    Ms. Saldana. Yes. I ----
    Mr. Gowdy. Would you have set that bond?
    Ms. Saldana. I would not if I were a judge in that State 
court, and I believe that was a judge of the State court system 
who made that decision, another factor that the officer from 
ICE might have looked at in making his decision. I will tell 
you, judges make tough decisions every day. And we can point to 
judges--I was on the receiving end of many of these as a 
prosecutor asking for bond--asking for detention and a Federal 
judge said no, and later, that person absconded. 
Unfortunately--it irks me every time of course. Unfortunately, 
it happens a lot.
    Mr. Gowdy. Well, it does happen, and sometimes with tragic 
consequences.
    I am out of time so I will close up with this. I believe in 
a previous life I am sure you worked with State and local law 
enforcement in addition to Federal law enforcement ----
    Ms. Saldana. Absolutely.
    Mr. Gowdy.--and it has always struck me as unusual that we 
trust State and local law enforcement with the enforcement of 
every category of crime. I am sure you had them on some task 
forces, whether it be narcotics, whether it be human 
trafficking. We trust them in child pornography cases. We trust 
them in all categories of cases, including traffic enforcement. 
So why don't we trust them in immigration cases?
    Ms. Saldana. Well, we do actually. We have a 287(g) program 
that we enlist the help of local law enforcement in helping us 
with immigration enforcement. There are a number of 
jurisdictions, and I've asked our people to expand that 
program.
    Mr. Gowdy. You have asked them to expand it? Because it 
seems like it is shrinking.
    Ms. Saldana. No, sir, it's not shrinking other than maybe a 
jurisdiction withdrawing. That I can't control. We beg them to 
stay, but sometimes they withdraw based on whatever 
considerations ----
    Mr. Gowdy. So you do trust State and local law enforcement 
to enforce immigration laws, and you do not buy into the 
Democrat mantra that somehow racial profiling prevents them 
from being able to enforce that category of crime but not any 
other category of crime?
    Ms. Saldana. Well, that's a fully loaded question, which 
I'd like to break down because there is racial profiling, sir. 
I'm not saying that it happens every day, but there is. And so 
for me to agree with your general proposition would require me 
to agree with parts of it that I don't agree with.
    Mr. Gowdy. Well, I would like to have this conversation 
more because there would be racial profiling in narcotics 
cases, there is racial profiling in traffic stop cases, and 
that doesn't stop feds and State and locals from partnering. So 
I am just trying to understand why immigration cases are 
different.
    Ms. Saldana. And think I said they're not different. We 
have a ----
    Mr. Gowdy. You may have said it, but my Democrat colleagues 
have not. You may have.
    Mr. DeSantis. The gentleman's time is expired.
    The chair now recognizes Delegate Norton for 5 minutes.
    Ms. Norton. Thank you very much, Mr. Chairman.
    I am less interested in the racial profiling than I am in 
the racial sensitivities raised by this issue. I want to thank 
you, Director Saldana, for being here.
    Like those who have spoken before me, I don't have the 
words to offer to parents who have lost their children, 
particularly when they consider that it could perhaps have been 
prevented. I have only the deepest condolences.
    I would like to get beyond recrimination and into how you 
do law enforcement when the rhetoric is steeped with racial 
overtones. Look, I grew up in the District of Columbia as a 
minority group. It was a deeply segregated city. I went to 
segregated schools. I couldn't go in public accommodations 
because I was black. And even the newspapers, the best 
newspapers would say John Jones, black, committed X crime in 
northeast Washington. This had an effect on me and how I felt 
about criminals to tell you the truth because John Jones, 
black--sorry, they didn't say back then. John Jones, negro, I 
don't know whether he was guilty or not. All I know is that by 
pointing out his race, my community, minority group in the 
city, felt that law enforcement was pointed at all of us.
    So I want to ask about the delicate task of law enforcement 
when those that are chiefly involved do happen to be from a 
minority group. For example, Donald Trump, when he announced he 
was running for President, said something that--if I put black 
where Mexicans are, I think people would know how I and others 
who are from minority groups felt. When Mexico sent its people, 
they are not sending their best; they are bringing drugs, they 
are bringing crime, rapists.
    Now, I want to ask about the effect on law enforcement 
where you have a delicate task of in fact going mostly after 
perhaps Mexican-American, Central Americans who are coming into 
this country and operating under the specter not of racial 
profiling but from the highest levels on television every day 
hearing ethnicity called out in relation to your work. How does 
that affect law enforcement from the point of view of those 
charged with carrying it out, with carrying out law enforcement 
that will in fact mostly involve the very people whose names 
have been called out? We are cheering from the grandstands. How 
does that affect law enforcement?
    Ms. Saldana. Well, we go about our business without regard 
to race. I--it's--I will tell you this, though, Congresswoman. 
Immigration enforcement is a little different in the sense that 
the very definition of who we're after is determined by their 
country of origin, the fact that they're not from the United 
States and they're illegal.
    Ms. Norton. Their country of origin will be where people of 
color are chiefly located. I understand where they are coming 
from. But the point is that they have many relatives in this 
country, too, and somehow the other--law enforcement has to 
handle the delicate task of--you heard talk about the raids, 
perfectly legitimate to do, and somehow making sure it is not 
caught in the rhetoric we hear.
    We heard also from Mr. Trump that we should close up--I 
would close up our borders to people, and he named who he was 
talking about, in this case not Mexicans but Muslims. Apart 
from the ignorance of that statement, is completely sealing our 
borders to any group possible, and is it an effective way to 
combat terrorism?
    Ms. Saldana. Well, that's a huge issue, but I would say no. 
That's why everything we do, starting with the Secretary and 
his priorities, is based on a case-by-case basis. You've got to 
look at every individual. It doesn't matter ----
    Ms. Norton. So sealing the borders would involve what?
    Ms. Saldana. I can't imagine how you'd go about that. I 
think there have been some discussion about building a wall and 
that kind of thing. That doesn't sound like it would secure 
anything actually because I've seen the videos of a ----
    Ms. Norton. Well, could you issue something for people 
coming overseas saying if you are a Muslim, don't travel to the 
United States; you will not be accepted?
    Ms. Saldana. We would not do that.
    Ms. Norton. From the highest point of leadership, somebody 
has to make the American people understand the delicacy of this 
task. So while first I think of the relatives who have lost, my 
second thought is with those who have to carry out this 
difficult mission.
    Thank you very much.
    Mr. DeSantis. The gentlewoman's time is expired.
    The chair now recognizes himself for 5 minutes.
    Thank you for coming. I would just echo some of my 
colleagues. You know, I appreciate your service and what you 
are trying to do, but to dismiss what we are trying to get to 
the bottom of as political banter, that is not what we are 
doing. I mean, when we see reports where--and many of these 
releases were before you were even in ICE. But when we see 124 
people who had been in custody and were here illegally and then 
end up getting charged with murder, when you see things like 
Kate Steinle who was just going about her business and then she 
got killed by somebody who had no business being in the 
country, that is something that concerns people here in the 
Congress and the American people.
    And our government is involved in a lot of different 
things, you know, the type of health insurance you have to buy, 
how much water our toilet can flush, all these different 
things, and yet a core function of the government is to ensure 
the safety and security of the American people. And it is 
frustrating when government is involved in all these other 
things and then fails at its core function. So we are 
absolutely serious about it. And it is not political theater. 
It is just the frustration to have families who have to go 
through this.
    Now, you said something earlier in your testimony. You said 
you that you need a removal order to deport someone. Without 
that, they can't be deported, is that correct?
    Ms. Saldana. A final order of removal.
    Mr. DeSantis. Well, because aren't there administrative 
removals?
    Ms. Saldana. Yes, there ----
    Mr. DeSantis. There are stipulated removals?
    Ms. Saldana. Yes, absolutely.
    Mr. DeSantis. And then there are expedited removals, 
correct?
    Ms. Saldana. Yes, a person can volunteer to go back, a 
person who's caught at the border at ports of entry, we can 
move through that process little quicker.
    Mr. DeSantis. So there are ways to do it. And I think that 
part of the frustration as we have gone through the numbers, a 
lot about the numbers that were discretionary versus what ICE 
would say because of the Supreme Court's precedent in the 
Zadvydas case, but even there, that is a 6-month window.
    So you have somebody in custody, let's say, who got out of 
prison after committing a sexual assault against a child, and 
that individual is being held, you do have time to be able to 
repatriate that individual back to their own country. And what 
we are a lot of times told by DHS is, well, they don't get the 
paperwork to us in time, they don't do all this, and so then 
the 6 months elapse and then this individual is released when 
they are clearly a danger to society.
    So you guys can work through this quicker, and some of 
these other countries--and I get that they are not always going 
to comply immediately--we have not used any of our leverage 
against them. The State Department has not suspended a single 
visa for any of these countries at all.
    We have the ability to do that. They depend on us more than 
we depend on their visa, and so what can you do to be able to 
move through the process quicker so that people who are clearly 
dangerous, have been convicted, don't have any legal right to 
be here, can be repatriated before that time limit expires?
    Ms. Saldana. I'm all about procedures and 
institutionalizing a process to make sure it works. My interest 
is not in second-guessing all our officers. It's in setting up 
a process and procedure that would get to that.
    Mr. DeSantis. So what do you need to do, though, to do 
that?
    Ms. Saldana. I ----
    Mr. DeSantis. What do we need to do? Because Mr. Gowdy, he 
has a legislative fix for this Zadvydas issue. Is that 
something that you are familiar with?
    Ms. Saldana. I am not.
    Mr. DeSantis. Would that be something you would be open to 
learning about?
    Ms. Saldana. Absolutely, sir, and working with you on that 
total subject.
    Mr. DeSantis. Because here is, I guess, the issue, and you 
have raised the statute books and you have said, look, they are 
not mandated to be deported even if they have been convicted of 
some of these bad crimes because Congress has made these 
decisions. And while some of those crimes, it is true, may not 
be mandatory, that doesn't mean that the law does not provide 
you at least authority to detain them. In other words, just 
because it is not in that book does not mean that they have to 
be released. That does not follow that that is the case. Now, 
do you agree with that?
    Ms. Saldana. That is true.
    Mr. DeSantis. Okay. And then in terms of the immigration 
courts, you have mentioned those. Just so that the American 
people understand, the immigration courts, they are not article 
III courts, correct?
    Ms. Saldana. They're not. They're within ----
    Mr. DeSantis. They are ----
    Ms. Saldana. They are in ----
    Mr. DeSantis. They are article II courts, correct?
    Ms. Saldana. Yes.
    Mr. DeSantis. So they are within the executive branch?
    Ms. Saldana. Within the Department of Justice.
    Mr. DeSantis. And so if an immigration judge orders 
somebody has got to be released and you feel very strongly that 
that is bad for the safety of our country, you can then go to 
the higher up in the executive branch and try to change that, 
correct?
    Ms. Saldana. You have immigration appeals and then circuit 
courts after that.
    Mr. DeSantis. Okay. Great. Do you know when we first did 
this issue in fiscal year 2013 there had been 36,000 
individuals who had been released who had been convicted of 
crimes who are here illegally, and as of last year there had 
been 1,000 of those people who had already been convicted of 
new crimes?
    Do you guys have the figures on anybody from fiscal year 
2013 through fiscal year 2015 who has been in ICE custody, 
previously been convicted of a crime, and then got released and 
then got convicted of a new crime?
    Ms. Saldana. I don't know about '15 precisely. We may have 
'15, but yes, we do have those numbers generally.
    Mr. DeSantis. Okay. Well, if you can provide those for us, 
I think that would be important. And then also back from 'FY 
2013, because I know that has obviously probably changed since 
the last time we had it.
    Mr. DeSantis. My time is up, and the chair now recognizes 
Mr. Hice for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    All right. Bottom line when we all come to this, everybody 
involved, when it comes to the issue of criminal aliens, the 
public safety is paramount for past victims, as well as 
potential future victims. We agree on that?
    Ms. Saldana. Yes, sir.
    Mr. Hice. With these criminals under the custody of ICE, 
are there convicted sex criminals?
    Ms. Saldana. Yes.
    Mr. Hice. Okay. Do you have any idea how many?
    Ms. Saldana. I think that number is available, but I don't 
have it in front of me.
    Mr. Hice. Okay. If you could provide that, I would 
appreciate it.
    Ms. Saldana. In ----
    Mr. Hice. But to that specific ----
    Ms. Saldana. In 2015, sir?
    Mr. Hice. From my understanding in '15 there were almost 
1,000 sex criminals released.
    Ms. Saldana. That may be right.
    Mr. Hice. Okay. Let me go on from there. Of these sex 
offenders who are released back into society, does your agency 
notify law enforcement?
    Ms. Saldana. We do. And this is something I think I 
testified about the last time I was here. I'm very proud of the 
fact that we have stood up the law enforcement notification 
system whereby when we are releasing actually more than just 
sexual offenders but other criminals into a State that we 
believe they are going to--they have indicated and they're 
going to a specific State, we notify them that there are ----
    Mr. Hice. You notify who?
    Ms. Saldana. The State database. Usually, it's the State 
office and, for example, in my State of Texas, in Austin, the 
----
    Mr. Hice. Because you promised last time you were here that 
by the end of 2015 that the States would--law enforcement would 
be notified. I spoke with the sheriff of Gwinnett County this 
week, which is the second-largest county in America next to 
Harris County, Texas, where criminal aliens are being released, 
and he says he does not hear from you.
    Ms. Saldana. I did exactly as I promised. We did get the 
notification system up and running by the end of last year to 
the States. What we're working now is phase 2 ----
    Mr. Hice. So let's just cut to the quick of this. So you 
are saying that when an illegal alien sex offender or any other 
is released into a community, you are assuring me that law 
enforcement is notified?
    Ms. Saldana. The State law enforcement, yes, the State that 
is responsible for all the local jurisdictions within.
    Mr. Hice. But not the specific counties?
    Ms. Saldana. No. We have 254 counties in the State of 
Texas. It would be very difficult to do that. But we are trying 
----
    Mr. Hice. But isn't that where the rubber hits the road?
    Ms. Saldana. Absolutely, and that's why we're in phase 2, 
Congressman. We're in phase 2, which is trying--we're going to 
be communicating with the specific local jurisdiction ----
    Mr. Hice. All right. What about victim notification? Are 
they notified when the criminal is released? Say you have 
someone who was raped, the rapist is released ----
    Ms. Saldana. We ----
    Mr. Hice.--in their community. Is that victim notified?
    Ms. Saldana. We have a criminal notification system just 
like the Department of Justice does with respect to the penal 
system, and people sign up for that, and we do issue notices.
    Mr. Hice. So let's suppose a rapist is released, they do 
not register, as we know many of them do not do on the sex 
offender registry. How does a previous victim know that that 
predator is released?
    Ms. Saldana. They sign up. I think Mr. Root did this also 
with respect to his situation. He wanted to be advised about 
the proceedings with respect to that particular illegal 
immigrant. That they sign up for the victim notification 
system, and that's how we get them that information.
    Mr. Hice. And all of them sign up?
    Ms. Saldana. I can't say that all of them sign up.
    Mr. Hice. Well, I guess, really my question has to do with 
the predators themselves who are released. Now, I have actually 
introduced a bill, and I think that it closes this loophole, 
H.R. 2793. It is called TRAC. It would require ICE to register 
these sex offenders on the national registry when they are 
released.
    Right now, that is required of every citizen in the United 
States who commits a sex crime. They are put on the National 
Sex Offender Registry. That is not the case with illegal aliens 
who commit sex crimes. And I don't understand that. For one 
reason, it seems very commonsensical to me that if an illegal 
individual in this country commits a sex crime, they need to be 
put on the National Sex Offender Registry when they are 
released. Would you have a problem with supporting that bill?
    Ms. Saldana. Well, I understand that's what happens with 
respect to any person that's ----
    Mr. Hice. It does not happen with respect to illegals.
    Ms. Saldana. Well ----
    Mr. Hice. That is the point.
    Ms. Saldana. And my concern is they--we expect the person 
to ----
    Mr. Hice. Do you really expect a person to put themselves 
on a National Sex Offender Registry?
    Ms. Saldana. That's ----
    Mr. Hice. It doesn't happen.
    Ms. Saldana. Well, that's what you all have provided for 
with respect to sex offenders ----
    Mr. Hice. Would you have a problem with ICE being required 
to make sure that they are put on the National Sex Offender 
Registry?
    Ms. Saldana. I'd certainly like to look at that and study 
it, sir, yes.
    Mr. Hice. I would like, Mr. Chairman, to encourage all our 
colleagues to get on board with H.R. 2793. This is a 
commonsense approach to close an enormous loophole by requiring 
these people to be put on the National Sex Offender Registry. I 
yield back.
    Ms. Saldana. Twenty-seven ninety-three?
    Mr. Hice. Twenty-seven ninety-three.
    Ms. Saldana. Thank you, sir.
    Mr. Meadows. [Presiding] I thank the gentleman.
    The chair recognizes himself for 5 minutes for questions.
    Ms. Saldana, you know, I am going to come to you because 
throughout this testimony this morning you have made a point to 
pat the large book in terms of the law that you need help with, 
you have said it is somebody else's fault. You continue to 
focus on everyone else that has a stake in this, and yet some 
of the blame actually rests directly with you. And so that is 
where I want to go with this because you have been 
equivocating, in my opinion, with some of the questions that 
have been answered.
    And you know I think specifically the ones that I had issue 
with when you were talking with Mr. Grothman, when you talked 
about the fact do you know the entire universe of those who 
have committed crimes that get detained, do you know who they 
are, yes or no?
    Ms. Saldana. Who are in the country illegally?
    Mr. Meadows. No, who get arrested by local law enforcement, 
do you get notified of all of those under the new system, which 
would be the Priorities Enforcement Program?
    Ms. Saldana. We have the ability to check the system.
    Mr. Meadows. Do you know, yes or no, all of the people that 
are there? Do they ping DHS and you know it?
    Ms. Saldana. Not necessarily.
    Mr. Meadows. Okay. And is that a change?
    Ms. Saldana. Is what a change?
    Mr. Meadows. Where they don't ping DHS anymore, is that a 
change in the way that you have been notified over the last 18 
months?
    Ms. Saldana. It's a database ----
    Mr. Meadows. Yes or no. I know the answer, so yes or no, is 
it a change?
    Ms. Saldana. I don't understand the question.
    Mr. Meadows. Okay. Let me be a little bit--under the Secure 
Communities Act, they were required to actually come and ping 
you and let you know that they had someone who has committed a 
crime and they would actually let you know that. Is that not 
correct?
    Ms. Saldana. I don't know that specific ----
    Mr. Meadows. You are the head of the agency. How would you 
not know that?
    Ms. Saldana. That program has never been ----
    Mr. Meadows. I am a Congressman and I don't even know and I 
have had to read up on it. So ----
    Ms. Saldana. That program has never been in effect since I 
have been director ----
    Mr. Meadows. Okay. So the ----
    Ms. Saldana. I am generally familiar with Secure 
Communities.
    Mr. Meadows. So the PEP program, let's look at it. You are 
saying that they are all participating. What would you classify 
as participating by someone under the PEP program?
    Ms. Saldana. I didn't say they were all participating, all 
the jurisdictions, 3,000 plus in the country are participating. 
I wouldn't have said that because that's not correct.
    Mr. Meadows. Well, you had said that--okay. Well, what ----
    Ms. Saldana. We've made progress.
    Mr. Meadows. Made progress. So if someone has committed a 
violent act under the PEP program, are they required to let you 
know that they have been incarcerated, yes or no?
    Ms. Saldana. No.
    Mr. Meadows. All right. So we could have an illegal alien 
that has had a violent crime, and local law enforcement does 
not have to let ICE know?
    Ms. Saldana. Doesn't have to, but many jurisdictions ----
    Mr. Meadows. I know many do, but they don't have to let you 
know. Do you not see a problem with that?
    Ms. Saldana. That's why I'm working so hard to change the 
minds and hearts of ----
    Mr. Meadows. Well, but you are not working hard. So let me 
go on a little bit further. Why would ICE be arresting and 
detaining 40 percent fewer people than they did in the previous 
year?
    Ms. Saldana. Apprehensions. Apprehension numbers are down.
    Mr. Meadows. So is it your testimony here today that there 
are fewer people that are actually committing the crimes?
    Ms. Saldana. Well, I didn't get to finish my answer.
    Mr. Meadows. No, I am all ears.
    Ms. Saldana. Okay.
    Mr. Meadows. Because I want to understand how all of a 
sudden there has been this 40 percent reduction in crimes by 
illegal aliens according to your stats because you are not 40 
percent less on detainers, 40 percent less on administrative 
removals. How all of a sudden did that happen this year?
    Ms. Saldana. What happened, sir?
    Mr. Meadows. Forty percent less detainers, 40 percent less 
removals.
    Ms. Saldana. Well, I'll tell you, we have less people in 
the system. I mean, that's going to be ----
    Mr. Meadows. By design because you have changed the system 
to make sure there are less people in the system, and that is 
the frustration of the parents is what happens is you have made 
the universe lower so you can report fewer people that you let 
out of jail free.
    Ms. Saldana. I ----
    Mr. Meadows. Do you not see a problem?
    Ms. Saldana. That's not correct.
    Mr. Meadows. Listen, if you want to go over the numbers 
privately after this hearing, I will be glad to go over the 
numbers. I am a numbers guy.
    Ms. Saldana. Yes.
    Mr. Meadows. So you tell me how it could be 40 percent 
fewer.
    Ms. Saldana. As I started, part of it is the apprehensions, 
the number of people in the system. We are going about our 
apprehensions--all our decisions on a very informed ----
    Mr. Meadows. No, no, not informed ----
    Ms. Saldana.--basis ----
    Mr. Meadows.--because you have to know the whole universe 
of the people in order for it to be informed. So how many drug 
dealers, how many rapists, how many kidnappers do you let a 
get-out-of-jail-free card?
    Ms. Saldana. None that have a final order of removal and we 
are able to ----
    Mr. Meadows. No, no, no ----
    Ms. Saldana.--remove them.
    Mr. Meadows.--you are equivocating again. The ----
    Ms. Saldana. I am not equivocating. There's not simplistic 
answers ----
    Mr. Meadows. Okay. Out of ----
    Ms. Saldana.--to you, sir.
    Mr. Meadows.--the 7,000 plus that you had the discretion to 
let go, were any of those violent that you had total discretion 
over letting go? I am saying--they weren't traffic offenses, 
out of those discretion, were any of those violent?
    Ms. Saldana. Yes, there were some that had been ----
    Mr. Meadows. So ----
    Ms. Saldana.--convicted of homicide ----
    Mr. Meadows. So don't blame it on everybody else. So it was 
your ----
    Ms. Saldana. I'm not blaming it on everybody else.
    Mr. Meadows. So violent criminals at your discretion have 
been let go?
    Ms. Saldana. Yes. Some are by order of the court ----
    Mr. Meadows. Do you not see a problem with that?
    Ms. Saldana. Sir, it's all--it's all based on the statutes.
    Mr. Meadows. No, no, no, no, don't go there because I can 
go further ----
    Ms. Saldana. How can I leave the statute out?
    Mr. Meadows.--it is prosecutorial discretion. And that is 
your discretion, ma'am, and that is my problem.
    Ms. Saldana. And I can't ----
    Mr. Meadows. And I am ----
    Ms. Saldana.--ignore the statute.
    Mr. Meadows. I am out of time. I am out of time. Are you 
willing to take me up and go through all these numbers after 
the hearing? Because I am ----
    Ms. Saldana. I am always ----
    Mr. Meadows.--perfectly willing, and then we will ----
    Ms. Saldana.--always ----
    Mr. Meadows.--go public with them, right?
    Ms. Saldana.--happy to meet with you.
    Mr. Meadows. All right.
    The chair recognizes the gentleman from Texas, Mr. 
Farenthold.
    Mr. Farenthold. Thank you, Mr. Chairman.
    I have got a couple of lines of questions, but I want to 
start with this discretion stuff that everybody is talking 
about. Congress has given you guys the discretion to not deport 
people. You know, I give my children discretion to spend their 
allowance as they see fit. I would probably have to come back 
and revisit that if I thought they were being stupid about how 
they were exercising that discretion. And to me it seems like 
you are exercising your discretion in a way that is coming up 
with tragic results.
    Listen, I can understand you have got a violent criminal 
who is hospitalized and isn't expected to live 6 months, of 
course you use the discretion there. It is not worth the money 
or it is probably not even possible to safely transport that 
person to their country of origin. But, you know, that is the 
far extreme. I think you are too far towards we are just going 
to let them go. And I think that is the criticism that you are 
hearing from the Members of Congress here.
    Even though we have given you the ability to do something 
doesn't mean you should do it. And I just wanted to clear that 
up because I think in all the back-and-forth here, that hasn't 
entirely been made clear. I think the whole point of this 
hearing is there are a good many members on this panel who have 
you up here because we think that discretion isn't being 
exercised wisely.
    Ms. Saldana. I got that impression.
    Mr. Farenthold. All right. I just wanted to make sure that 
everybody was clear on that.
    I want to talk a minute about the Priority Enforcement 
Program. I meet and hear quite a bit from my local sheriffs in 
Texas, and as a Texan, you know, everybody loves the sheriffs 
and they all have an opinion. And what I hear from them is that 
they are having problems in getting you guys to determine about 
detainers. And sometimes, they will arrest somebody and it will 
be 3, 4, 5 days before they hear back from you guys as to 
whether or not to issue a detainer. And by that time, the 
person is already bonded out. So how can we improve that 
process to where they get, let's say, pick a number, 24-hour 
response there?
    Ms. Saldana. Okay. You know, I don't have to tell you that 
there are 254 counties in the State of Texas, and it is wide 
and long.
    Mr. Farenthold. Right. But everybody has got a computer. I 
mean ----
    Ms. Saldana. Oh, yes. Yes, yes. So--but the problem is 
getting to the specific local jurisdiction within a timely 
manner. You know, so we try to get people there as quickly as 
possible.
    Mr. Farenthold. Right, but what they want is a 
determination of whether or not to keep them. Most of the 
sheriffs I know, they will drive them to you. They will be 
happy to deliver them.
    Ms. Saldana. Congressman, oh my goodness, thank you so 
much. Would you give me the names of those ----
    Mr. Farenthold. Yes, I will.
    Ms. Saldana.--sheriffs? No, I am not only half-kidding. I 
would like to know any sheriff that is having any difficulty in 
hearing back from ICE. I want to know that.
    Mr. Farenthold. Okay. We will get you that information.
    Ms. Saldana. Thank you, sir.
    Mr. Farenthold. We have actually worked with some of your 
local people and have seen that improve some. I also ----
    Ms. Saldana. And I've got to say the great State of Texas 
does a very good job of cooperating with us.
    Mr. Farenthold. Well, we are spending an awful lot of money 
doing the job that the Federal Government can do. We could do a 
whole other hearing on whether or not and how much Texas should 
be reimbursed for doing the Federal Government's job.
    But I also want to talk about the 287(g) program. And what 
the sheriffs have found is that if they have the revenue to pay 
for somebody, and a lot of these small counties--you know, you 
look at Brooks County, small county, very little property 
value, they don't have the ability to pay for a person to--you 
all will give them the training for free, but they have got to 
pay the salary for the person.
    But what has been found effective in that program in 
addition is you get a jailer in that program where they can 
actually access the computer and information database directly, 
and then they are able to determine. So I would encourage you 
to work on growing that program. I am working with the 
appropriations to make sure you all have the money to continue 
to make that work.
    My final question is, we talked--I am going to get back to 
discretion for a second. And you don't make the decision for 
everybody there. I mean, it is delegated down the line. How do 
you ensure that it is consistent, and how do you ensure that 
the person who has the discretion isn't of a disposition to 
say, oh, let's just let them all go?
    Ms. Saldana. No. No, sir. They all know my background, and 
they know that that would be fully unacceptable.
    What we do is we train, we issue directives on policies, 
make things clear, give guidance. We revisit. I have myself at 
least once, maybe twice got on the phone with each one of the 
24 field office directors with responsibility across the 
country to say my expectations and to make sure that people 
have the message of how we go about our business with respect 
to detention and those decisions and the exercise of 
prosecutorial discretion in general.
    So--but it is a challenge when you have 6,000 officers out 
there who are involved in this. We just stay on--need to stay 
on top of it. I've got my field leadership coming in next week. 
We're going to go through this item by item and talk about the 
general subject of is the word getting down all the way. So I--
that's what I do. We're--it's a constant vigilance.
    Mr. Farenthold. Well, I have plenty more to talk about but 
my time is expired.
    Chairman Chaffetz. I thank the gentleman.
    I will now recognize the gentleman from Georgia, Mr. 
Carter, for 5 minutes.
    Mr. Carter. Thank you, Mr. Chairman. And thank you, Ms. 
Saldana, for being here.
    Ms. Saldana, last year, it is my understanding that you 
released 19,723 illegal aliens with criminal records, 19,723. 
That is the number I have been given ----
    Ms. Saldana. Illegal ----
    Mr. Carter.--19,723.
    Ms. Saldana. That number is correct by, remember, court 
order or some discretion.
    Mr. Carter. And these are illegal aliens with criminal 
records such as kidnapping, sexual assault, DUI, and homicide?
    Ms. Saldana. That's correct.
    Mr. Carter. You say that somewhat matter-of-factly as if it 
is okay.
    Ms. Saldana. Well, it's not okay, but that's what the 
statute tells me, sir. It tells me we need to--that we need to 
abide ----
    Mr. Carter. You know, it is just unbelievable to me that we 
have released 19,723 illegal aliens with criminal records such 
as kidnapping, sexual assault, DUI, and homicide.
    Ms. Saldana. I ----
    Mr. Carter. That is appalling. No wonder America is in an 
uproar right now.
    Ms. Saldana. It is appalling. I would ----
    Mr. Carter. It is appalling.
    Ms. Saldana.--appreciate you speaking to the Supreme Court 
of Texas with ----
    Mr. Carter. Well ----
    Ms. Saldana.--the United States with respect to some of it. 
The immigration courts have another ----
    Mr. Carter. So tell me when you can detain them. What is a 
priority 1? Explain to me what a priority 1 is very succinctly, 
very quickly.
    Ms. Saldana. Threats, generally, to national security and 
----
    Mr. Carter. So kidnapping, sexual assault, DUI, and 
homicide are not priority 1?
    Ms. Saldana. Yes, they are in that priority if they're 
convicted.
    Mr. Carter. If they are convicted?
    Ms. Saldana. Yes.
    Mr. Carter. Now, you have got me confused here. We 
established the fact that you have released 19,723 illegal 
aliens with criminal records, including those with kidnapping, 
sexual assault, DUI, and homicide, and you are telling me you 
shouldn't have released them?
    Ms. Saldana. If--no, I'm telling you--you just asked about 
priority 1. There's another priority they might be included in. 
And let me just remind you, sir ----
    Mr. Carter. There is another priority so there is more than 
just priority 1.
    Ms. Saldana. There are three priorities. There's three 
priorities.
    Mr. Carter. There are two priorities. And the second ----
    Ms. Saldana. Three.
    Mr. Carter.--priority includes kidnapping, sexual assault, 
DUI, and homicide?
    Ms. Saldana. Well, the first could also. The first could 
because it is persons convicted of crimes. We don't--in the 
United States we don't assume somebody is going to be convicted 
until they've actually been tried. I'm just saying a simple 
matter of fact. I think that's fairly obvious.
    Mr. Carter. So you just go ahead and release them?
    Ms. Saldana. And I should remind you that you all determine 
----
    Mr. Carter. So please answer my questions. So you go ahead 
and release them?
    Ms. Saldana. If we'd been ordered by a court or if we've 
exercised discretion in looking at the entire case ----
    Mr. Carter. So why ----
    Ms. Saldana.--we may make efforts ----
    Mr. Carter.--are you releasing them instead of deporting 
them?
    Ms. Saldana. Because of all the strictures in this statue, 
sir. I am not going to go outside the law in what I do. I 
cannot deport somebody without a final order of removal who's 
had the entire framework--been allowed to follow the entire 
framework you have provided, including appeals and 
consideration by the courts with respect to their claims of 
asylum or torture or whatever it is.
    Mr. Carter. So you are just releasing them right here in 
America, not deporting them at all, they are staying here, and 
then we have had numerous examples of where they have gone and 
committed these crimes again? Don't you find that to be 
somewhat appalling?
    Ms. Saldana. That's horrible. I wish we were--I wish there 
were no crime committed by anyone ----
    Mr. Carter. Let me ask you something else. Let me ask you, 
and since fiscal year 2012 the annual budget has increased more 
than $680 million. Is that correct? That is the figure I have 
been given. Since 2012, your budget has increased more than 
$680 million.
    Ms. Saldana. ICE's?
    Mr. Carter. Yes.
    Ms. Saldana. Yes.
    Mr. Carter. But at the same time the number of aliens 
removed has decreased, decreased by 174,000, 174,000. Can you 
tell me what the reason for that is?
    Ms. Saldana. Because we can only remove those people that 
have a final order of removal and travel--the appropriate 
travel documents.
    Mr. Carter. Well, if we cut your budget, would you stop 
releasing them? Because we are giving you money and you are 
releasing them.
    Ms. Saldana. Sir, you know, you are misrepresenting the 
facts when you say you release them ----
    Mr. Carter. I am not misrepresenting the facts or ----
    Ms. Saldana. Well, we ----
    Mr. Carter. We have increased your budget over $680 
million, and you have decreased the number of people that you 
have deported by 174,000.
    Ms. Saldana. Let's make it clear that these releases, only 
7,000 plus have been entirely discretionary, but it's not 
willy-nilly. It's made on a case-by-case analysis of the record 
that we have in front of us and on flight risk analysis.
    Mr. Carter. Let me ask you this. DHS leadership took $113 
million that Congress appropriated to ICE detention and 
reprogrammed for use by Secret Service and FEMA. Why was that? 
Are you familiar with that?
    Ms. Saldana. That is a secretarial-level decision.
    Mr. Carter. Oh, secretarial-level decision.
    Ms. Saldana. Well, it it's the Department of Homeland 
Security, sir.
    Mr. Carter. Okay. Okay. So you wouldn't have been involved 
in that, and you wouldn't have known about that?
    Ms. Saldana. In the decision?
    Mr. Carter. Or even in the process.
    Ms. Saldana. Am I informed about it? I'm informed about the 
process, but the decision is the Secretary's.
    Mr. Carter. So we are giving you money and here we are 
releasing less than 174,000--you know, I am just appalled by 
this. This does not make any sense at all what we are doing. No 
wonder America is upset. They should be upset.
    Chairman Chaffetz. The gentleman's time ----
    Mr. Carter. Mr. Chairman, I apologize and I appreciate 
this, but Ms. Saldana, we have got to do--this is ridiculous. 
This is ludicrous.
    Chairman Chaffetz. The gentleman's time is expired.
    Mr. Carter. I yield, Mr. Chairman.
    Chairman Chaffetz. Thank you.
    I now recognize the gentleman from Alabama, Mr. Palmer, for 
5 minutes.
    Mr. Palmer. Thank you, Mr. Chairman.
    Director Saldana, critics have argued that one factor 
encouraging illegal immigrants to enter the U.S. is the belief 
that, once they enter the country, they will not be removed. I 
think that has been pretty well established here. Secretary Jeh 
Johnson recently stated that the 11 million illegal immigrants 
in this country are not going away and that are in effect--and 
I find this absolutely astonishing--United States citizens. 
Does that include those who have criminal records? It is a yes 
or no. I am just asking, is that a yes or no?
    Ms. Saldana. Sorry. I'm just a--if you won't mind repeating 
me, what was your question specifically? Did ----
    Mr. Palmer. Jeh Johnson stated that there are 11 million 
illegal immigrants in the country who are not going away. They 
are in effect United States citizens. Does that include those 
who are here who have criminal records? That is a yes or no.
    Ms. Saldana. I don't think he said they are United States 
citizens, sir.
    Mr. Palmer. He said ``in effect'' United States citizens. 
But we are not debating what he said. I am asking you, do you 
believe that that includes those who are here with criminal 
records? Are they ----
    Ms. Saldana. They are not ----
    Mr. Palmer.--staying? Are they ----
    Ms. Saldana.--United States citizens.
    Mr. Palmer. No, are they staying?
    Ms. Saldana. We're doing our best to remove them.
    Mr. Palmer. Well, I don't know about that because let me 
tell you what just happened in Alabama just earlier this month. 
Authorities in Oxford, Alabama, which is not in my district, 
arrested three men, two who are from Honduras and one from 
Mexico. One of the men, Camilo Antonio Espinoza-Medrano, had 
been ordered removed from the United States in absentia by an 
immigration judge on or about January 7, 2014. According to the 
affidavit, it appears Medrano failed to voluntarily deport 
himself.
    Another guy, one of the other guys, Enrique Benitez of 
Mexico, an immigration history check confirmed Benitez was 
illegally present in the United States. His criminal check 
showed that he has prior convictions for possession of cocaine 
in 2011 and evading arrest in 2008 in the District Court of 
Dallas County, Texas.
    Now, let me tell you why they were here. They were working 
for a security group out of Honduras who is a front for a drug 
cartel, and they were here, and here is what the affidavit 
says. They were here through a deal arranged through a security 
company owned by the friend's boss, who Benegas, another one of 
the guys, new as an enforcer and the collector for drug 
organizations. They were going into a private residence to 
steal a safe and kidnap the occupants, and Benegas further 
stated that he and the other individuals traveled to Oxford, 
Alabama, and were provided firearms, bulletproof vests, 
camouflage clothing, and other gear to do the job. And the 
group was instructed to assault the resident and take its 
occupants captive.
    Now, here is the point. Two of these men had criminal 
records. One goes back to 2008. But they are still here. Now, 
because of the excellent work of the Oxford Police Department, 
who stopped them on a traffic stop but realized that something 
was awry when they saw them in camouflage and had weapons. And 
by the way, one of the weapons was a Smith & Wesson pistol that 
was confirmed stolen by the Arlington, Texas, Police 
Department.
    Can you all imagine what would have happened if they had 
carried out this and kidnapped those people? And let me tell 
you what Benegas said. He planned to use the handgun to shoot 
the occupants of the house if they presented a firearm during 
the home invasion. I want to remind you, this is Alabama. Just 
about every house has a gun, and for good reason. I won't get 
into this administration's policy on gun control, but this, let 
me tell you. Can you imagine what would have happened if they 
had shot that police officer?
    This is insane. You let people in here, you do criminal 
background checks, they commit crimes. I have got a deal here 
where one guy rapes a 10-year-old girl in Alabama. Here is 
another one. Sofyan Eldani had 34 arrests over 12 years, he is 
a Palestinian. When he was arrested by the Hueytown Police 
Department, which is in my district, ICE told them they 
couldn't deport him because the U.S. doesn't recognize 
Palestine.
    Director Saldana, it has been reported that ICE recently 
proposed changing current policy to require that fingerprints 
be taken from all people claiming custody of children who have 
entered the United States illegally without an adult relative. 
Let me ask you this. Among the many policy suggestions that 
have been made, do you think this would be an effective policy 
to actually implement for illegal immigrants who are repeat 
criminal offenders that are not consider priority 1 in 
accordance with current DHS policy?
    Ms. Saldana. I would consider that. I don't--that--we have 
not proposed that, but I would consider it.
    Mr. Palmer. Well, why haven't you?
    Ms. Saldana. Done what, sir, proposed that?
    Mr. Palmer. Why have you not proposed that? Why haven't you 
taken that action?
    Ms. Saldana. It's a--I'll tell you, sir, there's a lot of 
things I need to get to, and I'm pedaling as fast as I can. But 
I--we are--we all have it under advisement right now and we're 
looking at it.
    Mr. Palmer. Well, pedaling as fast as you can won't do much 
good for people who are at a funeral.
    Ms. Saldana. That's the best I can do.
    Mr. Palmer. I yield back.
    Chairman Chaffetz. And that is what is pathetic.
    Mr. Walker of North Carolina is now recognized for 5 
minutes.
    Mr. Walker. Thank you, Mr. Chairman.
    I want to start by recognizing two groups of people. The 
first one is Sarah Ann Root, age 21. Mr. Root, I am proud of 
you for representing her today, and I am also proud of your 
service to our country.
    Casey Chadwick, Ms. Hartling, as a former minister, I can 
only imagine what your family has gone through and losing this 
25-year-old beautiful daughter here.
    There is Marilyn Pharis. Chief Martin, thank you for coming 
all the way to represent her today.
    There is also another group of people that I want to talk 
about, three people: again, Eswin Mejia, Jean Jacques, and 
Victor Ramirez. They also have something in common today in the 
fact that all three of them were arrested on previous charges 
before they ultimately committed this heinous crime. Victor 
Ramirez was an illegal from Mexico. The chief did his part. 
Over a 15-month time, he arrested this gentleman six times, six 
times over 15 months. This is the guy, along with his partner, 
that beat Mrs. Pharis's face in with a hammer. Somehow she 
fought back, survived 8 days. See, this is huge.
    And then we hear today from my colleagues that the way we 
justify this is that criminal aliens, according to one 
statistic, commit less crimes than the general public, of which 
you had a sweet chat with him about. But what if they weren't 
here to begin with? Would they have committed these crimes? It 
is not rhetorical. If they were never here, would they have 
committed these crimes?
    Ms. Saldana. No.
    Mr. Walker. And then we talk about the challenge of 
returning these people to their country. And then I believe 
if--I want to make sure that you were on record saying this. As 
the director of U.S. Immigration and Customs Enforcement, did I 
hear you say correctly that sealing our borders or building a 
wall or even finishing the wall of 2006 from the former George 
Bush as President, you said that that would not help us prevent 
illegals from coming in our country? Did you say that?
    Ms. Saldana. I said--yes, sir.
    Mr. Walker. Okay.
    Ms. Saldana. Yes, because I've seen many videos where 
people scale those walls very easily. I--you know, that's just 
not the only answer. There's lots of things we have to do to 
secure the border.
    Mr. Walker. So it is easier to not have a wall at all 
instead of making somebody go and scale a wall in your opinion? 
I don't understand that a bit.
    Here is the data--and let me start with the question here. 
Do you believe that the sexual assault, abuse, and exploitation 
are heinous crimes? You would agree with that, wouldn't you?
    Ms. Saldana. Yes.
    Mr. Walker. Okay. And a little earlier my colleague, Mr. 
Carter, talked about charges. These 19,000 are not charges; 
they are convictions?
    Ms. Saldana. Yes.
    Mr. Walker. Okay. And according to this, including 1,614 
convictions of sexual offense--my wife is a sexual assault 
nurse examiner. She works in this world. She understands that 
she is reaching out to the people who are going the very 
darkest point of life. Three hundred and fifty-two convictions 
involve commercial sex trade. My State is number nine in the 
country. Yet for some reason these are listed as priority 2 
instead of priority 1. Why is that?
    Ms. Saldana. Sir, because the most serious offenses are 
listed in priority 1. The most serious offenses, terrorism, 
it's just a matter of directing resources in the place that 
will hurt the country the most.
    Mr. Walker. So you are telling me that sexual offenses or 
the rape of a 6- or 7-year-old child is not as important an 
offense as some other?
    Ms. Saldana. I was a United States attorney. Do you--you 
know the answer to that question.
    Mr. Walker. Well ----
    Ms. Saldana. Of course it's a serious offense.
    Mr. Walker. But I am just going by what you just told me, 
that you said no, that is not, that is priority 2 ----
    Ms. Saldana. It is.
    Mr. Walker.--because it was more concerned with other ones.
    Ms. Saldana. Sir, in your authorization, you directed us, 
you have directed us to prioritize--you directed the--``the 
Secretary of Homeland security shall prioritize the 
identification and removal of aliens convicted of a crime by 
severity of that crime.'' And that is exactly what we've done. 
You may disagree with the three categories or the way they were 
placed, but you directed us to do that, and the Secretary did 
that.
    Mr. Walker. Well, here is what I hope we agree on is that 
we have a major problem, and we have illegal aliens in this 
country committing heinous crimes who are not being deported.
    I also want to add one more thing in closing here in my 30 
seconds that I have left. There was a statement made earlier 
that law enforcement needs to be concerned about the delicate 
task of not putting some of the nation of origin into the 
definition of the criminal activity. Do you believe that law 
enforcement should stop being--I look at Chief Martin, who 
worked 30 years in gang-related activities with El Salvador and 
did some great work there. Do you believe that we should stop 
or drop the race part of describing some of the crimes that are 
going on?
    Ms. Saldana. We have to look at whether someone's in the 
country who's not a citizen, so we have to look at the country 
of their origin.
    Mr. Walker. Okay. I don't know whether that was a yes or 
no, but with that, I yield back, Mr. Chairman.
    Mr. Mulvaney. [Presiding] I thank the gentleman.
    The chair recognizes himself for 5 minutes.
    Ms. Saldana, you got a little bit of attention at your 
outset when you encouraged us this morning in your opening 
statement to drop the political banter, and I think you have 
pointed to the rules and regs and the statues that are in front 
of you, and you invited us to help you develop a system that 
works. And I would like to talk about that. In fact, you and I 
have talked about that in the past.
    So let's go back to something you and I have talked about 
before, which would it help you develop a system that worked if 
we figured out a way to require local law enforcement to 
cooperate with your retainer requests?
    Ms. Saldana. Well, we need to figure out a way to get law 
enforcement to work with us just like this individual from law 
enforcement works with us. And I don't think he would take 
kindly to us browbeating him ----
    Mr. Mulvaney. Not browbeating ----
    Ms. Saldana.--and forcing him to do things ----
    Mr. Mulvaney. Let's stay on topic. You know where I am 
getting at, which is, would it help you develop a system that 
works if we required local law enforcement to cooperate with 
ICE?
    Ms. Saldana. Compulsory?
    Mr. Mulvaney. Yes.
    Ms. Saldana. It would help me to some extent, but that's 
what I'm doing in PEP is I am trying to get everybody ----
    Mr. Mulvaney. All right. Let's talk about that.
    Ms. Saldana.--to the table.
    Mr. Mulvaney. To what extent? Because that is the third 
answer I have gotten now ----
    Ms. Saldana. Well ----
    Mr. Mulvaney.--because I asked you the exact same question 
in June of 2015. I asked you ``Would it help if we clarify the 
law to make it clear that it was mandatory that those local 
communities cooperate with your detainer requests?'' And you 
answered, ``Thank you, amen, yes.'' The next day however, you 
released a statement that read in relevant part a different 
answer: ``Any effort at Federal legislation now to mandate 
State and local law enforcement's compliance with ICE detainers 
will, in our view, be a highly counterproductive step.'' Now, 
today, you just gave me a third answer, which is, ``In a way, 
it would actually help.'' So let's talk about how requiring 
local law enforcement to cooperate with ICE would help you.
    Ms. Saldana. In enforcing the 4,000 laws that the 
Department of Justice had to enforce and I had to enforce as 
United States attorney, I found that the best way to work with 
State and locals is through cooperation and agreement and 
standing by--side by side.
    Mr. Mulvaney. Well, that is fair, but if I am in a city 
that has said, you know what, we want to be a sanctuary city, 
we don't want to cooperate with ICE, my guess is that chance 
for cooperation is probably gone at that point. Wouldn't it 
help you do your job if we went to these so-called sanctuary 
cities and say, you know what, you can't do that. You have to 
cooperate with ICE when it comes to dealing with the sorts of 
people who kill their children?
    Ms. Saldana. I am working with the--with all the cities 
whether they want to ----
    Mr. Mulvaney. How is that working in San Francisco?
    Ms. Saldana. We're making some inroads.
    Mr. Mulvaney. Some inroads?
    Ms. Saldana. I believe we've gotten--yes.
    Mr. Mulvaney. Would it help you more if we required them to 
do it?
    Ms. Saldana. I don't think the government would be--the 
local government would be more cooperative if you browbeat them 
over the head by saying the feds ----
    Mr. Mulvaney. How about if we required them by law to do it 
or deny them some type of Federal money?
    Ms. Saldana. I think that they are--at least I've heard, 
sir, and read that State and local government don't want the 
Federal Government to tell them what to do.
    Mr. Mulvaney. Do you think that a State and local 
government should have the right to tell the Federal Government 
that they are not going to cooperate with an immigration issue?
    Ms. Saldana. No.
    Mr. Mulvaney. Okay. So they don't have a right to do it, 
but they are doing it anyway, and you don't want us to bring 
them into line? You don't want to require ----
    Ms. Saldana. I am telling you the realities of the real 
world, and that is in trying to get people to work with us for 
the bottom line, and that is the public safety ----
    Mr. Mulvaney. I hate to be melodramatic because it is not 
usually what I am very good at. Turn around and tell the people 
behind you about the real world.
    Ms. Saldana. I have been, and I hope they've been hearing 
me.
    Mr. Mulvaney. Let me ask you this. Does the sanctuary city 
program put your field personnel at more risk than they would 
be otherwise?
    Ms. Saldana. Having to--yes, having to go into a 
jurisdiction when--into somebody's home when we could have 
gotten them at a local sheriff's or police department, yes, it 
does put them at risk.
    Mr. Mulvaney. So you don't want us to take steps to lower 
the risk for your own people?
    Ms. Saldana. I'm saying give me an opportunity to get this 
done with--PEP has only been in effect since last July. It's 
not even been a year. So give me some time to work with State 
and local jurisdictions. I have made tremendous headway. Of the 
top 25 jurisdictions that did not honor detainers, we've got 17 
back at the table. I ----
    Mr. Mulvaney. It has been a year since you were here last 
time. Let me ask you this. Does the sanctuary city program put 
the public at risk?
    Ms. Saldana. I don't know what the sanctuary city program 
is, sir.
    Mr. Mulvaney. Well, no, then let's use the terminology we 
have been using for the last couple of minutes, which is the 
programs whereby cities say, you know what, we are not going to 
cooperate with ICE. ICE calls us and says detain that person 
that you just picked up, and the city says, you know what, no, 
we don't want to do that. Does that put the public at more 
risk?
    Ms. Saldana. I want every jurisdiction to cooperate with 
ICE.
    Mr. Mulvaney. Good. We could help you with that. Would you 
like us to help you?
    Ms. Saldana. I need all the help I can get.
    Mr. Mulvaney. Okay.
    Ms. Saldana. And I will work with you to try to come up 
with a rational system by which we can improve that situation.
    Mr. Mulvaney. Which is the third answer you have given, so 
I thank you for that.
    And I will yield back the balance of my time to the chair, 
and I will recognize the gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan. Well, thank you, Mr. Chairman.
    And, you know, all over this country people have read 
headlines and stories similar to the ones, some that I have 
here, and this one story has been mentioned a few times already 
today, but I was presiding over that House earlier and I didn't 
get in on all of this. And I know there are some people 
watching now who probably didn't hear some of these things 
earlier.
    But the Washington Examiner had a headline that said ``ICE 
releases 19,723 criminal aliens, 208 convicted of murder, 900 
of sex crimes.'' And before that, there was a story from the 
Washington Times which the headline says ``3,700 illegal 
immigrant threat level 1 criminals were released into the U.S. 
by the Department of Homeland Security,'' and that story said 
most of the illegal immigrant criminals Homeland Security 
officials released from custody last year were discretionary, 
meaning the Department could have kept them in detention but 
chose instead to let them onto the streets. Some of those 
released where the worst of the worst. More than 3,700 threat 
level 1 criminals who are deemed the top priority for 
deportation were still released out into the community. That is 
why people are so upset. That is why people are so angry about 
all of this.
    And then earlier, we had testimony in this committee from 
Jessica Vaughan from the Center for Immigration Studies, and 
she testified that ICE officials have told her that, since the 
administration's policies on prosecutorial discretion were 
expanded, they are processing a small fraction of the number of 
aliens that they used to process, and one recently told me that 
his office used to process as many as 100 aliens per day, but 
since the President's executive actions when into effect, now 
they are processing closer to 5 aliens per day with the same 
staff and budget.
    And it seems to me that this is a shameful record, and the 
people at the top should be embarrassed about this. As Mr. 
Carter pointed out about how the funds have gone up so much and 
yet the prosecutions have gone way down, and I doubt that there 
is another agency in the entire Federal Government that has 
gotten the percentage increases, Director Saldana, that your 
agency has percentagewise. I mean, we just keep pouring more 
and more and more money into your agency, and we are getting 
less and less and less for that money. And I can tell you that 
people all over this country are angry about that and upset 
about that.
    Are you embarrassed about this in any way? Are you ashamed, 
disappointed? Surely, you are not happy about all this that we 
talked about here this morning.
    Ms. Saldana. No, sir. And I will tell you, I think you may 
have missed when I spoke earlier about the fact that I would 
like not to see one person injured or one person certainly 
killed at the hands of someone who's in the country illegally.
    Mr. Duncan. That is a ----
    Ms. Saldana. But when people say ----
    Mr. Duncan. That feeling is ----
    Ms. Saldana. But, Congressman, when people say that we have 
released 19,723 people, it failed to point out the fact that 
two-thirds of that were by court order or an instruction of the 
Supreme Court of the United States. And that is a 
misrepresentation of the picture. That is what I have to have 
to.
    Mr. Duncan. Well, I tell you, it is a terrible thing. I 
mean, I have got stories up here from the Texas Tribune, and 
they tell about one man who was passed through Webb County four 
times on more than a half a dozen charges before allegedly 
beating his wife to death with a hammer. Another man spent 3 
months in the Hidalgo County jail, 4 months in State custody, 
and 6 years in Federal prison for multiple felony offenses at 
the time he went on a random shooting spree in Houston, killing 
two people and injuring three more. And then of course you have 
the famous case of this man in San Francisco who shot Kate 
Steinle to death after he had racked up a criminal record, 
including seven felonies, mostly drug-related.
    People are really angry about these sanctuary cities that 
the administration has gone along with. The American people are 
the kindest, most generous, most sympathetic people in this 
world, and we have allowed far more immigration, many, many 
millions more than any other country, and the American people 
have gone along with that. But they are sick and tired and 
angered about reading about all of these criminals being 
released, and you or somebody is going to have to do a lot 
better job on this.
    I yield back.
    Mr. Mulvaney. The gentleman yields back. The chair now 
recognizes the gentleman from Connecticut, Mr. Courtney, for 5 
minutes.
    Mr. Courtney. Thank you, Mr. Mulvaney.
    And I want to thank the committee, both majority and 
minority, for waiving my appearance here today and having the 
opportunity to participate in this hearing.
    To Chief Martin and Mr. Root, thank you for your presence 
here. Again, your stories are incredibly powerful and really 
demonstrate that this discussion today is not academic. It has 
profound, real-life impact, and it takes a lot of persistence 
on your part to really be here to remind us of that fact.
    I am here because one of my constituents is here, Ms. Wendy 
Hartling. She is joined by attorney Chester Fairlie, whose 
story has been mentioned by other members here this morning.
    Again, just a little less than a year ago just a horrific 
crime took her child Casey Chadwick from her, and I can 
personally attest to the fact that southeastern Connecticut and 
the whole State, you know, has, you know, been just part of the 
grief and pain that followed. And the admiration that folks 
have for Ms. Hartling, as Mr. Lynch said, trying to get some 
good to come out of this horrific event, it just has drawn 
admiration from all quarters. So thank you for being here, Ms. 
Hartling.
    And I think I am the last one here, so all your patience is 
going to be paid off shortly and give you an opportunity to 
talk.
    Director Saldana, you know, the one thing about the Casey 
Chadwick case is that, you know, really, there is just no 
ambiguity in this instance in terms of, you know, whether or 
not some charges were pending or whether or not the individual 
was convicted of an aggravated versus, you know, serious 
offense.
    Jean Jacques, you know, came into the country without 
documentation, he was convicted by the State of Connecticut of 
the homicide, he served over 15 years in prison. At the 
completion of his sentence, the Department of Corrections 
surrendered him to the custody of ICE, again, the government 
had run the traps in terms of getting a deportation order 
completed at that point. Any appeal that he tried to pose had 
been exhausted. So there was just, you know, again, no sort of 
glitches that anyone could point to that would interfere with 
that process going to the next step, which is obviously removal 
from the country.
    As we heard from Mrs. Maloney, the Government of Haiti, 
again, played this very frustrating exercise in terms of 
verbally granting and then refusing on a number of occasions.
    So a year ago you were before this committee and this 
question of uncooperative other nations was raised with you, 
and at the time, your testimony stated that ``Bolstering ICE's 
ability to obtain travel documents from recalcitrant countries 
is an important priority, and I will continue to work closely 
with the Department of State to achieve better cooperation from 
countries in accepting the return of their nationals.''
    Again, this morning, you have talked about your efforts 
within the PEP program in the last year or so. Can you just 
tell us with some specificity what is going on between ICE and 
State in the intervening time since you testified to fix this, 
you know, glaring problem?
    Ms. Saldana. I think I said earlier I've met with the 
Assistant Secretary for Consular Affairs, Ms. Bond, and 
actually, I'm going to see her this afternoon about Guinea in 
particular. So we meet periodically, and we made a commitment 
to continue to do that because I want to keep her posted on the 
countries we're having trouble with.
    So this Memorandum of Understanding we have, we make--we 
give her--we meet to discuss what can be done with a particular 
country, and right now, you know, countries like Syria and Iraq 
and Afghanistan, we're just having tremendous difficulties 
with.
    So she has listened, she has promised to follow up. She 
sent a cable out to our ambassadors across the world last March 
to say please be mindful of this. Help ICE and other agencies 
that are seeking to get cooperation from the jurisdiction and 
assist them in their efforts to remove people that ----
    Mr. Courtney. But what levers--I mean, we have levers.
    Ms. Saldana. Yes.
    Mr. Courtney. Members have mentioned it, you know, that 
visas that we grant to citizens from these nations coming into 
the U.S., foreign aid, I mean what ----
    Ms. Saldana. Sanctions, there are sanctions that we can 
impose ----
    Mr. Courtney. But give me an example of where they have 
actually, you know, done more than just meet to discuss this?
    Ms. Saldana. Where Department of State has? I'm not 
familiar with the specifics of what they've done.
    Mr. Courtney. Okay. And I guess, you know, Mr. Chairman, 
you know, that is sort of the crux of the frustration that 
myself and Senator Blumenthal and Murphy have experience, which 
is that, you know, this just screams out for the fact that we 
know, the agencies in the U.S., ICE and the State Department 
are not getting this done, and that is why we requested an 
inspector general's report. That process is underway right now. 
We are going to be receiving the results of that.
    But frankly, I would just say, Director, you know, that 
response is just really not acceptable given the fact that, you 
know, we have instances where somebody--again, there was just 
no question about their status in terms of being deported, and 
to have other countries stonewall our efforts and to say that 
the State Department's best efforts right now is just simply to 
meet with ICE and to send out warning telegrams ----
    Ms. Saldana. I ----
    Mr. Courtney.--to embassies, there are other options that 
we have available to us, and we need to exercise those.
    Ms. Saldana. Withholding aid and the sanctions, I 
mentioned, but I just want to be sure, sir, I am doing the best 
I can to try to persuade State. State is the most appropriate 
witness to explain to you why they make the decisions they do 
because ----
    Mr. Courtney. Well ----
    Ms. Saldana.--I can't speak for the Department of State.
    Mr. Courtney. If I could just have another 30 seconds, 
again, we experienced in this case where the Government of 
Haiti, again, for paperwork reasons, stonewalled Mr. Jacques' 
deportation. ICE can do more in terms of creating a record of 
country of origin in terms of interviewing witnesses in the 
U.S. I mean, this guy had been here for over 20 years. There 
were other ways that verification of country of origin could 
have taken place stateside, in addition to having the State 
Department apply levers of pressure, which, again, I think 
should have been exercised at the greatest and highest level.
    So this discussion, Mr. Chairman, again, I want to continue 
with you and the members here about the fact that, you know, 
the response so far just, frankly, has not been satisfactory. I 
would ask that my letter to you and Mr. Cummings setting forth 
the IG request ----
    Chairman Chaffetz. It has already been submitted to the 
record.
    Mr. Courtney. Thank you. Okay.
    Chairman Chaffetz. And, Mr. Courtney ----
    Mr. Courtney. Yes.
    Chairman Chaffetz.--I appreciate your commitment on this 
issue. The director has agreed within a week's time to give us 
all the letters of correspondence that she has had with State 
Department making these requests because the statute is clear. 
Once the Secretary receives that, it says the Secretary 
``shall.'' And I would be fascinated, and I think you are 
right, I think another hearing would be most appropriate, and I 
hope you can join us for that.
    Mr. Courtney. Thank you, Mr. Chairman.
    Chairman Chaffetz. The gentleman's time is expired.
    Director, we thank you for your being with us here today. 
The committee is going to stand in recess until 12:30, and then 
we will convene the second panel. We stand in recess. Thank 
you.
    [Recess.]
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order, and we will continue with 
the second panel of the hearing today.
    I would ask unanimous consent that Congressman Young of 
Iowa be allowed to participate and fully participate in today's 
hearing.
    Without objection, so ordered.
    I am glad that you can join us, as well as Mr. Courtney of 
Connecticut, who can also come join us.
    The second panel is probably the most important people that 
we can hear from, and we are pleased to welcome Mr. Ralph 
Martin, who is the chief of police at the Santa Maria, 
California, Police Department, has an important perspective for 
us. And, Chief, we are pleased and honored that you would join 
with us here today.
    I would also like to allow Mr. Courtney to help introduce 
Ms. Wendy Hartling.
    Mr. Courtney. Thank you, Chairman Chaffetz and Ranking 
Member Cummings.
    Again, we are honored today to have Ms. Wendy Hartling from 
Gales Ferry, Connecticut, join us here today. Gales Ferry is 
sort of the quintessential sort of small-town America, and she 
was, again, the devoted mother of Casey Chadwick, who has been 
mentioned many times this morning, lost her life almost a year 
ago in Norwich, Connecticut, to a brutal homicide, which 
roughly a couple weeks ago came to a legal conclusion with a 
conviction of Jean Jacques.
    And all I would say, Mr. Chairman, is that Wendy Hartling 
was leading a very private life and, you know, with strong 
family connections in the community. That changed radically. 
She has been thrust into the public eye as someone who has, 
again, faithfully attended all the court proceedings and has 
spoken out about really what was, I think, just a horrendous 
flaw and wonder by the government in terms of really following 
through on what, as I said earlier, was just a totally 
unambiguous deportation case.
    She is joined here today by attorney Chester Fairlie from 
New London, Connecticut, who participates in the Survivors of 
Homicide group in the State of Connecticut; and Crysta Wydra, 
who was Casey's best friend, who is also from Gales Ferry that 
is here. Again, I think all the members will be, again, deeply 
moved by Ms. Hartley's testimony here today. And again, it is 
an honor to have the opportunity to introduce her.
    And I yield back.
    Chairman Chaffetz. I thank the gentleman.
    So, again, Ms. Wendy Hartling is the mother of Casey 
Chadwick, who was killed by an illegal immigrant on June 15 of 
2015. And we are beyond sad for your loss. And you woke up one 
morning and your life changed, and I am sure you never expected 
this. You certainly didn't ever ask for this, but we appreciate 
your bravery for stepping forward and sharing your candid 
thoughts and perspective. It is important that we all hear 
that, see it, and feel it, and so thank you for being here 
today.
    We also are pleased to have Mr. Scott Root, who is here 
with us today, but I would like to have Congressman Young of 
Iowa help introduce him and give a little background and 
perspective.
    Congressman Young, you are recognized.
    Mr. Young. Thank you, Mr. Chairman. Thank you, Ranking 
Member Cummings and the colleagues here that share this room 
today for this hearing, which is very important obviously. 
Thanks for allowing me to participate in today's hearing to 
introduce Scott Root, a fellow Iowan. He is from Council 
Bluffs, which is on the western end of the 3rd District nestled 
up against the Missouri River. And our mantra there is just to 
work hard and treat others right, a lot of patriotism there, 
fear and love of the Lord. Thank you for being here today.
    Earlier this year, Scott lost his daughter Sarah, a 
beautiful girl, to a drunk driver, a criminal who took 
advantage of this administration's immigration policies, jumped 
bail, and may never be brought to justice for his crime.
    Scott, thank you for being here today to share your story. 
And, Ms. Hartling, thank you for coming as well.
    As I am sure Scott and my colleagues from Iowa can attest 
to Iowans have a unique sense of community, as well do other 
members and the folks from their district and State, a unique 
sense of community. We are all in this together. When something 
happens to one of us or our neighbors, it really gives levity 
to the situation. It hits us hard. It puts an impact on us 
personally because it is like it is happening to all of us. 
Though we cannot fathom his grief, Mr. Root, we are left with a 
deep sense of loss, and we want to see justice.
    What happened to Sarah was a tragedy and a horrible crime, 
and now the Root family and the community are left waiting to 
see if Eswin Mejia will ever be found, will ever stand trial 
because of failures of the court and failures of the Federal 
Government to enforce our laws.
    I had the chance to question Director Saldana early this 
year and she shared when I failed to follow through on a 
detainer that kept Eswin Mejia from facing justice. She also 
said ICE will be looking at this case to make sure this doesn't 
happen again. As the chairman knows, this is something we hear 
too often without seeing actual results.
    From ICE, not accurately reviewing the request of the local 
police to the Department of Health and Human Services, placing 
Eswin Mejia as an unaccompanied minor with his brother, who was 
also here illegally, I am astounded this administration not 
only continues to restrict the enforcement of our immigration 
laws, but they don't seem to understand them at all in the 
first place.
    Nothing can bring Sarah back, but we can honor her and 
preserve Sarah's memory with justice in making sure this never 
happens again.
    Scott, thank you for being here today. May God give you 
courage, wisdom, peace, and strength in your fight for Sarah 
and her memory and for justice. Thank you for being here today.
    Mr. Chairman, I yield. Thank you.
    Chairman Chaffetz. Thank you.
    Mr. Root, we appreciate your strength in being here today 
and offering your perspective and look forward to hearing your 
testimony and grieve for your loss as well. So thank you.
    We are also pleased to have Mr. Chris Burbank. He is the 
director of law enforcement engagement at the Center for 
Policing Equity. He is also the former chief of police, I 
believe 9 years in Salt Lake City. I have had the pleasure of 
interacting with him on a number of occasions. And, Mr. 
Burbank, we are pleased to have you here and participating and 
giving a perspective as well. So thank you for being here.
    Pursuant to committee rules, all witnesses are to be sworn 
before they testify. So if you will please each rise and raise 
your right hand.
    [Witnesses sworn.]
    Chairman Chaffetz. Thank you. You may be seated. Let the 
record reflect that the witnesses all answered in the 
affirmative.
    We would appreciate your limiting your verbal comments to 5 
minutes, but your entire written statement will be entered into 
the record.
    Chief Martin, we will start with you. You are now 
recognized for 5 minutes. And please know in advance, you need 
to bring that microphone up close and just make sure it is on. 
And thank you. That will help us all.
    Chief Martin.

                   STATEMENT OF RALPH MARTIN

    Chief Martin. Mr. Chairman and committee members, good 
afternoon. My name is Ralph Martin and I am the police chief 
for the city of Santa Maria, California. Santa Maria is the 
largest city in Santa Barbara County and one of the largest 
cities on California's Central Coast. It has a population of 
over 100,000, is a few minutes from the coastline, and is 
surrounded by agriculture. We are about halfway between Los 
Angeles and San Francisco.
    I am here today to share with you an event that occurred 
just 9 months ago. It's about the brutal and vicious attack of 
64-year-old Santa Maria resident, Marilyn Pharis. At the time 
of this attack, Ms. Pharis was gainfully employed at nearby 
Vandenberg Air Force Base, where she worked the night shift as 
a satellite tracker civilian contractor. She's been doing this 
since 1974. Prior to that, she spent 4 years in the United 
States Air Force.
    On the morning of July 24, 2015, at approximately 9:45 in 
the morning, while Ms. Pharis was sleeping, two suspects broke 
into her home, sexually assaulted her, strangled her, and beat 
her about her head and face with a hammer. But despite the 
incredible beating, Marilyn would not give up. She fought back 
with all the strength she could muster, even while receiving 
repeated blows. The suspects left her for dead. But somehow, 
with her eye socket shattered and her broken--neck bone broken, 
she dialed 911.
    As the suspects made their escape, one of them, identified 
as Victor Martinez-Ramirez, broke into another home on West 
Donovan Street, entering through a sliding door. There, he 
encountered three young children and their mother. However, she 
managed to dial 911 and the suspect fled again.
    As officers were responding to Ms. Pharis's home, 
additional officers were now responding to the West Donovan 
home. Suspect Martinez starts jumping backyard fences, but the 
patrol officers set up a solid perimeter around him. And within 
minutes, one of our K-9 officers finds Martinez hiding 
underneath a tarp on a patio of a nearby home on Cox Street. 
Now, that's three blocks from Ms. Pharis's home and one block 
from the Donovan Street home.
    He was arrested for burglary, sexual assault, and attempted 
murder. During the fourth day of the investigation, detectives 
identified and arrested a second suspect, Jose Villagomez. He 
was subsequently charged with the same crimes.
    Eight days after Ms. Pharis was attacked, she died in her 
hospital bed, unable to recover from her brutal injuries.
    Victor Martinez is an illegal alien from Mexico. He had 
been arrested by the Santa Maria Police Department six times in 
the previous 15 months. He was released from the Santa Barbara 
County Jail 96 hours before he attacked Ms. Pharis. Villagomez 
is a U.S. citizen, although he spent much of his life in 
Mexico. He had one previous arrest. Both are currently in 
custody awaiting trial.
    I believe that when the Federal and the State government 
fails to do its job, it falls on the shoulders of local 
government, and we are not equipped to deal with these issues 
financially or with personnel.
    The arrest sheet on Martinez is a glaring example of 
Federal and State failures. On one occasion in 2014, ICE filed 
a form I-247 immigration detainer. However, the Santa Barbara 
County Sheriff's Department does not recognize the hold--the 
lawful hold based on the Miranda-Olivares v. Clackamas County 
decision, which is a Federal court ruling. Two weeks before the 
attack, Martinez was cited as opposed to arrested for 
possession of methamphetamine, because recently, California 
passed prop 47, which I'll address in just a moment.
    On July 16, 2015, eight days before assaulting Ms. Pharis, 
Martinez was arrested again for felony possession of a dirk or 
dagger, as well as possession of drug paraphernalia. He was 
additionally charged at that time with two additional 
misdemeanors because he had two outstanding warrants for 
$10,000 a piece, one for failure to appear, and the other was--
failure to appear in court, and the other one was a probation 
violation. He was released that day. Four days later, he 
attacks Ms. Pharis.
    Now, the State of California passed prop 47 in November of 
'14. It was a complete con job pulled on the people. It was 
titled ``Safe Schools and Safe Neighborhoods,'' but in reality 
it was just nothing more than a title. What it did was in the 
fine print reduce felony drug possession like possession of 
heroin, possession of cocaine, possession of methamphetamine to 
a misdemeanor citable offense.
    So now thousands of arrestees are petitioning the courts to 
reduce their convictions, as did Martinez. And the reason I 
bring this up is that if the convictions are then reduced to 
misdemeanors, ICE will look at those later on and see the 
felonies are now misdemeanors.
    The city of Santa Maria, as well as other cities throughout 
California, are seeing an increase in homeless persons that 
been high--with high drug dependency. And many of these persons 
would have been removed from our streets, been required to 
appear in court, and referred to drug rehabilitation and 
treatment programs. But the numbers have substantially 
decreased because of prop 47, so it's a combination of Federal 
issues and State issues.
    You know, I can't help but think our U.S. marine makes a 
wrong turn at the border and he's locked up for months and 
months at a time, and yet we in the U.S. seem to be running a 
catch-and-release program for criminal aliens.
    And I've been in this business for 40 years, and when I 
hear of incidents, whether it's the Root case or others and 
people say it's a tragedy or some kind of senseless tragedy, 
you know, I just shake my head and say no because when we do 
not enforce our Federal and our State laws, all we truly have 
is predicable consequences.
    Thank you for your time.
    [Prepared statement of Chief Martin follows:]
    [GRAPHIC] [TIFF OMITTED] T3480.011
    
    [GRAPHIC] [TIFF OMITTED] T3480.012
    
    [GRAPHIC] [TIFF OMITTED] T3480.013
    
    Chairman Chaffetz. Thank you.
    Ms. Hartling, you are now recognized.

                  STATEMENT OF WENDY HARTLING

    Ms. Hartling. Hi. Hi. My name is Wendy Hartling, and my 
life will never be the same after June 15, 2015.
    I am here on behalf of my daughter Casey who was stabbed to 
death over 15 times and stuffed into a closet by a criminal 
alien, Jean Jacques. He was found guilty of attempted murder in 
1996 and served 16 years in Connecticut Prison. He should have 
automatically deported by Immigration and Customs Enforcement 
when he was released from prison. Instead, he killed Casey on 
June 15, 2015, and was found guilty of her murder after a 
trial. My hope is that he never gets out of prison.
    According to laws passed by Congress, Jacques should have 
been deported. ICE had him in custody and detention three 
times. Tragically, ICE released him three times, and he killed 
my--killed Casey just a few months after his last release by 
ICE.
    From defensive wounds, we know that Casey fought 
courageously and that she suffered greatly before her death. If 
ICE and Homeland Security had done their job, Casey would not 
have died, and I would not be here as part of the club of 
Homicide Survivors, which no parent ever wants to join.
    My Attorney Chester Fairlie has written an article on the 
failure of deportation of criminal aliens. I would like to 
submit a copy of deportations process contributed to the--oh, 
wait a minute. No. I've got to go back.
    Mr. Fairlie states ``This miscarriage of the deportation 
process contributed to the death of Casey Chadwick and caused 
grief and suffering to her parents and friends.''
    I understand that the Inspector General of Homeland 
Security has undertaken a full investigation of the Jacques 
failed deportation case, and we are awaiting the report.
    My daughter was loved so many family and friends. Over 300 
came to her wake. Casey and I were very close. She called or 
texted me every day. I can no longer talk to my daughter, hold 
her, hug her, or simply just hang out with her or go out to 
eat, which was one of her favorite things to do. This breaks my 
heart of every second of every day
    Her best friend Crysta of 13 years plus, who came with me 
on this trip in support, is devastated, as is Casey's 
boyfriend.
    This is what I have lost. I can't watch her walk down the 
aisle on the arm of her father. She will never have the chance 
of becoming a mom, something she was thinking of before her 
death. She will never see her two nephews grow up or go to her 
siblings' weddings. She will never again be at our family 
functions and holidays.
    The tragedy of Casey's death is not an isolated case and is 
occurring frighteningly around the country. Something has to be 
done to fix this horrible problem. I would never want any 
family to have to go through this. The pain is always with me. 
My heart is broken.
    I go to a Survivors of Homicide group, which is very 
helpful. An important thing I learned was that the pain will 
never go away. I have to learn to live with it. I am trying, 
but it is the hardest thing for me in my entire life. Still, I 
must find the courage and strength to advocate for Casey, who 
cannot speak for herself.
    Thank you for listening.
    [Prepared statement of Ms. Hartling follows:]
    [GRAPHIC] [TIFF OMITTED] T3480.014
    
    [GRAPHIC] [TIFF OMITTED] T3480.015
    
    [GRAPHIC] [TIFF OMITTED] T3480.016
    
    [GRAPHIC] [TIFF OMITTED] T3480.017
    
    [GRAPHIC] [TIFF OMITTED] T3480.018
    
    Chairman Chaffetz. Thank you. And of course we will include 
that letter into the record.
    [The information follows:]
    Chairman Chaffetz. And you did great. Thank you.
    Mr. Root, you are now recognized for 5 minutes.

                    STATEMENT OF SCOTT ROOT

    Mr. Root. Chairman Chaffetz, Ranking Member Cummings, and 
respected members of House Committee on Oversight and 
Government. My name is Scott Root, and I thank you for the 
opportunity to be the voice of my murdered daughter, Sarah Rae-
Ann Root, murdered on Sunday, January 31, at approximately 2:00 
a.m. by a drunk driver and illegal immigrant, Edwin G. Mejia.
    Less than 24 hours, Sarah walked with a 4.0 grade point 
average at--bachelor's in criminal investigations from Bellevue 
University.
    I would also like to take this to thank Officer Bowes, 
Rizzo, Adam and Dawn Turnbull and Swanson of the Omaha Police 
Department. We would also like to thank Congressmen and staff 
of Steve King, Robert Goodlatte, also take Senators Ernst, 
Fischer, Grassley, Sasse, Sessions, and the doctors and nurses 
at the University of Nebraska Medical Center.
    As a 30-year member of Steamfitters Local 464, it is ironic 
that I find myself thanking a Republican House and a Senate 
member who reached out to us within weeks of Sarah's death. My 
ex-wife were not contacted by any Democrats or ICE until April 
22, after I learned I would testify and the days--and 82 days 
after my daughter was murdered. They were told ICE had a 
victim's unit and they would be reaching out.
    I am an Army veteran. I served with the 1st Cav. My father 
was a World War II medic and was a recipient of the Purple 
Heart, Silver Star, and a French medal, Croix de Guerre. I 
don't share this to talk about ourselves, rather to point out 
that the Root family has served their country when called upon. 
Now, they're asking for your help in getting answers and 
justice.
    My mother and sister legally immigrated to the United 
States after World War II and--to become American citizens. In 
my opinion, the Obama administration with open-borders policy 
has changed us. We no longer ask for immigrants to assimilate 
to our way of life; rather, schools, governments are required 
to accommodate to their needs of their country.
    My mother and sister took pride in becoming Americans and 
learning the language and culture. By allowing illegal 
immigrants to take custody of illegal immigrants with no 
controls in place for a person like Edwin Mejia, the man who 
killed my daughter, were to break our laws.
    Sarah was a daughter, sister, granddaughter, cousin, niece, 
and friend. She was bright, smart, loving, caring, respectful, 
and strong. Like her brother and mom, she stood up for her 
beliefs. My son Scott lost his best friend, confidante, when 
I--when Sarah died. Her mother lost her best friend, daughter, 
and fellow Kansas City Chief.
    I would like to take this opportunity to walk my daughter 
down the aisle on her wedding day and spoil her grandchildren 
she wanted. She loved to fish and her--and this year, she 
wanted to try deer hunting.
    In the early morning of January 31, I received no call a 
parent should ever have to change. My family was summoned to 
the hospital at approximately 4:00 a.m. I thought we had a deal 
with a broken leg or a broken arm. I didn't get--dare think the 
worst. I was awaiting something that no father should have to 
go through. That was identify their child. Her spinal cord was 
snapped, her skull fractured in two places, her face was 
swollen beyond recognition. We identified her by her tattoo on 
her ribcage, ``Live, Laugh, Love'' and a crucifix.
    The neurosurgeon said on a scale from 1 to 10 that her 
chance of recovery was zero. No parent should have to deal with 
that, especially when the situation could have been prevented 
if the laws had been followed and enforced.
    Sarah was an organ donor. Her mother and I kept her on life 
support 3 days to allow the organ recipients and their doctors 
to prepare themselves for harvesting. Sarah, through her 
unselfish act, was able to save six individuals. She also 
helped five--four to five dozen more through donation of tissue 
and tendons, bones.
    Since the accident, I learned Edwin had been apprehended in 
Arizona at 16-year-old minor, yet our government allowed him to 
be turned over to his brother, another illegal immigrant. Due 
to pressure being applied to the mentioned Congressman and 
Senators, Edwin is now on the ICE's top-10 most-wanted list. 
This is ironic, on the Web page it says ``unlawful,'' 
``illegal.'' When apprehended in Arizona, he was released to 
another illegal.
    When the Omaha police approached ICE five times requesting 
a detainer we were reached each time with unlawful illegal. 
Edwin was released 4 days in jail and his brother posted 10 
percent of $50,000, which is $5,000. It cost more to bury my 
daughter than--and her family and friends have been given a 
death sentence and a denial of her love, companionship.
    My family understands that our questions have not been 
answered, but I would like to go on for record with the 
following:
    At a local level, my friends are collecting signatures 
against Jeffrey Marcuzzo to remove him from the bench. He 
failed to for minor traffic infractions and presented a flight 
risk. Our question at the Federal level, who is accountable? 
Sarah Saldana? Jeh Johnson? Barack Obama? Harry Truman used to 
say, ``The buck stops here.'' This is not only a case of 
administration.
    Marcuzzo recently set bail for another illegal immigrant 
accused of vehicle homicide in Omaha, $2 million for--the local 
ICE set a detainer on him.
    Congressman Goodlatte, Senator Grassley, in a joint letter 
to Jeh Johnson demanding answers for our case. The Senator 
has--Senator Sasse has demanded answers from Sarah Saldana. If 
they cannot get answers from a family from Iowa--Iowa--sorry--
accountable. Yes. Sorry. Has anyone been held accountable for 
the local level? It's been 2-1/2 months since the Senators and 
Congressman have asked answers from ICE. When can we expect to 
get the answers?
    The Omaha Police Department did their jobs. How is it that 
his illegal brother was able to bail him out and disappeared? 
Do I get a choice which laws to follow? If now, which does an 
unlawful or illegal immigrant mean? Sarah's family and friends 
are punished.
    When officials of ICE Edwin's crime in the criteria for 
level. I would like--would someone please explain to me how a 
daughter had a spinal cord and a skull fractured in 2,000 
places by a 6,000 pound pickup with 1,000 of roofing equipment 
traveling at 70 to 80 miles per hour and an underage person 
three times over the legal limit drag racing from Honduras not 
violent? Explain that to me.
    What information do we have on Edwin's family and friends? 
Who owned the vehicle that Edwin was driving that killed my 
daughter? I understand it's another illegal from Wichita, 
Kansas. He was driving the streets of Omaha with no driver's 
license, no registration, no insurance. He did not show up for 
obligations for minor traffic violations. It was assumed he 
would show up for motor vehicular homicide?
    On intentional level, has a red pool notice been issued? 
Are those steps in place? Does he have a cellular card? What is 
being done as the country of Honduras? Edwin was apprehended in 
Arizona. Was a file created? If so, what information has been 
communicated?
    If the Obama administration position on this is not to 
enforce immigration law, what is the purpose of ICE and our tax 
dollars being wasted? The only incentive to capture him is 
$5,000 reward through the Omaha Crime Stoppers. What other 
tools and means are available to the national law enforcement 
and people in Honduras, Mexico, or United States to turn Edwin 
into the authorities?
    In my closing, my family and friends will not stop until 
people at the local and Federal level are held accountable to 
her killer and brought to justice. When Edwin is caught, he 
will face a 20-year prison sentence and 8 to 10 years with good 
behavior, but my family is facing a sentence without her. Her 
sentence is avoidable and would not--occurred if the failed 
policies of the Obama administration and the laws that allowed 
be ignored and an incompetent local judicial system.
    This was--the last time I saw Sarah was January 31. She 
graduated from Bellevue University. Now, I carry a cross on my 
heart with a crucifix around my neck.
    I want to leave you with a personal story. When Sarah was 
young, she had a patch of hair on her back. I would tease her 
by calling her Monkey Girl. She hated it, but she knew it came 
from a father's love. I love you forever, Monkey Girl.
    Thank you for this opportunity to share Sarah's story and 
my family's story. Scott Root.
    [Prepared statement of Mr. Root follows:]
    [GRAPHIC] [TIFF OMITTED] T3480.019
    
    [GRAPHIC] [TIFF OMITTED] T3480.020
    
    [GRAPHIC] [TIFF OMITTED] T3480.021
    
    [GRAPHIC] [TIFF OMITTED] T3480.022
    
    Chairman Chaffetz. Mr. Root, thank you. Thank you for your 
personal service to this country ----
    Mr. Root. Thank you.
    Chairman Chaffetz.--and for the strength to be able to 
offer that statement and be here today. And God bless you. 
Between yourself and Ms. Hartling ----
    Ms. Hartling. Thank you.
    Chairman Chaffetz.--thank you for sharing your stories.
    We will now recognize Chief Burbank for 5 minutes.

                   STATEMENT OF CHRIS BURBANK

    Mr. Burbank. To begin, I would like to say to the Hartling 
family and the Root family that I am sincerely sorry for your 
loss. You deserve much better, the tireless effort of law 
enforcement and the love of your communities.
    Committee members, we are experiencing a modern 
transformation of our world and especially of our nation. 
Demographics, cultures, economies, and public expectation are 
evolving rapidly. Interconnection of the globe through 
technology and the migration of people is a dynamic driver of 
change.
    Modern immigration has introduced cultural, religious, and 
intellectual diversity creating avenues for multicultural 
competitiveness. Robust scientific evidence indicates that 
immigrants contribute economically, improve the local tax base, 
stabilize the economy, and drive down crime whether they move 
lawfully or unlawfully into new communities.
    Some of the highest immigrant-populated cities have 
experienced the steepest declines in crime. Coincidentally, 
this dramatic change has also marked an increase in bias, 
inequality, vitriol, and fear. Immigrants are ever-increasingly 
stereotyped and demonized inappropriately for their involvement 
in criminal activity.
    Research conducted over the past 30 years has consistently 
shown that immigrants are less likely to commit serious crimes 
or to be incarcerated. This holds true whether documented or 
undocumented and regardless of their country of origin. It is a 
fact, as undocumented immigration has increased, crime has 
decreased dramatically. There's no demonstrable correlation 
between immigrants and crime. Additionally, there is no 
documented relationship between enhanced immigration 
enforcement and reduced crime. Public policy must be driven by 
evidence and not anecdotes.
    We have demonstrated that enforcement, arrest, 
incarceration, and force are not the most effective tools to 
prevent crime. A case in point, as incarceration rates soared 
in the 1990s, so did police officers, search warrants, and 
other enforcement activities. We were at war against drugs, 
against gangs, and yet violent crime increased.
    The lasting legacy of this period was not crime reduction, 
but rather historically high national incarceration rates, 
zero-tolerance approaches, stop-and-frisk practices, and the 
over-incarceration of individuals of color for misdemeanor 
violations, harming our communities far more than helping.
    In fact, the mistrust in communities of color that we face 
today is a result of hard-on-crime, indifferent enforcement 
tactics perpetrated on neighborhoods labeled ``high crime.''
    People experience their lives within neighborhoods, rarely 
at a national, State, or even city level. This is especially 
evident in socioeconomically depressed communities. Effective 
and appropriate policy and practices must understand and 
address life issues, education, health, housing, safety, and 
transportation. Public safety, as exercised through community 
policing, is best accomplished at a local level capable of a 
nimble, small-government approach to addressing these life 
issues.
    Immigration enforcement has created a double standard 
wrought with constitutional concerns. Immigrants not only face 
potential criminal penalty but excessive detention without due 
process and ultimately deportation. Immigration enforcement can 
only be accomplished through racial profiling. Immigrants have 
been stopped for pretext traffic violations, questioned about 
their status, detained for numerous days without probable 
cause, transferred to the custody of ICE and deported without 
notification to their families. This most certainly does not 
represent equal treatment under the law.
    Recidivism rates hover around 67 percent for individuals 
incarcerated. Conversely, persons adjudicated within a 
restorative justice model, designed to be an alternative to 
incarceration, reoffend at a rate less than 40 percent. 
Education or knowledge about society, social norms, laws and 
traffic codes gained through participation and inclusion is the 
way out of addiction, substance abuse, and misdemeanor crime.
    When communities or groups of people are afraid to 
participate, we systematically isolate them, creating a 
negative environment where success is difficult, if not 
impossible. Studies have shown that immigration enforcement is 
not viewed as a legitimate public safety tool. It does not 
serve to enhance community well-being but further divides 
communities and undermines the already-difficult job law 
enforcement has of maintaining public trust.
    Throughout history, law enforcement has been an efficient 
tool of social oppression directed to protect certain races 
against the symbolic threats of others. We are still working to 
repair the mistrust, resentment, and rage that many in our 
communities continue to feel.
    It is not surprising that law enforcement officials across 
the Nation are troubled at the proposition of mandatory 
immigration enforcement practices that appear motivated by 
prejudice and are likely to result in increased crime.
    The time has come to accomplish comprehensive immigration 
reform. We must bring millions of people residing in our 
neighborhoods, contributing to our economy, adding value to our 
lives out of the shadows and into mainstream. Crime prevention 
is best accomplished when we are partners in the effort with 
all members of society. Just as we have been unable to 
incarcerate our way out of crime, we will never solve 
immigration issues through deportation.
    Thank you.
    [Prepared statement of Mr. Burbank follows:]
    [GRAPHIC] [TIFF OMITTED] T3480.023
    
    [GRAPHIC] [TIFF OMITTED] T3480.024
    
    [GRAPHIC] [TIFF OMITTED] T3480.025
    
    Chairman Chaffetz. We have got a lot to talk about, Mr. 
Burbank, because I think you are in totally the wrong planet. 
But we are going to get after that. There is a vote on the 
Floor, and so our apologies for this, panel, but the committee 
is going to recess. We have three votes, and then we will come 
back and resume the questioning portion of this.
    So the committee will stand in recess and we will reconvene 
no sooner than 1:30. Thank you.
    [Recess.]
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will return to order, and we will start the 
questioning portion. We have excused Ms. Hartling, but we will 
continue now with the questioning part, and we will start with 
the gentleman from Georgia, Mr. Hice, for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman. I would like to thank 
each of you for being here. And your stories are extremely 
moving, and our hearts go out to you.
    I spoke yesterday with the sheriff of Gwinnett County, 
which is number two in terms of criminal aliens being dropped 
off, second only to Harris County, Texas. And he heads law 
enforcement, of course, in the country. In fact, he informed me 
that, as I just mentioned, that it is number two.
    Chief Martin, as a 40-year veteran of law enforcement, I am 
hoping you might be able to shed some light on some of the 
questions from your own experience, your knowledge. When an 
illegal alien is released, are you notified?
    Chief Martin. No, sir.
    Mr. Hice. By anyone?
    Chief Martin. We are not notified by anyone.
    Mr. Hice. Okay. So we heard testimony this morning that ICE 
notifies the States of all those who are released, and then 
that information filters down. And you are saying that that is 
not the case?
    Chief Martin. We do not receive any direct communication 
from ICE. The only way we would know if somebody was released 
is if--what they talked about earlier, the victim would be 
notified, and if they filled out a form, then the local 
sheriff's department is supposed to notify us if they're 
released so that we can talk to the victim.
    Mr. Hice. Okay. So the law enforcement notification system, 
is it working?
    Chief Martin. No, sir.
    Mr. Hice. What is it doing? If it is not working, what is 
the value, if any?
    Chief Martin. Well, I have to take you back years ago when 
INS or ICE used to have their agents in all the county jails. I 
think by reason--I'd like to preface my remarks by saying that 
most municipal police departments don't hold their prisoners at 
the police departments. They book them into the county jails so 
the sheriffs would have the authority to keep them.
    Now, Santa Maria, we arrested 6,000 people last year, and 
we'd keep them, we would book them into our custody, and then 
within about 6 to 8 hours we would transfer them to the 
sheriff's department. And what we do at that point is we do 
fill out a pretrial service, and about three-quarters of the 
bottom of the page it says ``Does the police officer request an 
immigration review?'' And in the case of Victor Martinez, we 
checked yes. So that's about the only time that we have the 
ability to communicate with ICE to have a review done.
    Now, that the ICE doesn't have officers in the county jails 
full time, they just show up in the morning, they'll look at 
the scrolls or the gate book if you will. But that really 
doesn't serve any purpose because many times they'll bail out 
the night before. So it's not working.
    Mr. Hice. Is it true that when a criminal alien is released 
from prison on parole that local law enforcement have to be 
assigned to check on them?
    Chief Martin. No. We're not assigned to check on them at 
all. In fact, when they're released from either the county jail 
or, say, a State prison, they're taken by ICE to a processing 
center and then down to Los Angeles where they're supposed to 
be released. They never release them from the prisons. They 
always do it down in Los Angeles.
    Mr. Hice. So how does the parole work? I mean, does the 
State assign someone to watch over them?
    Chief Martin. Well, pretty much the State of California has 
gotten rid of almost all of their parole. It's all become 
localized for the probation department, which is really not 
equipped to deal with it. So the State has gotten rid of their 
funding for parole and pushed it down to the local level much 
like ----
    Mr. Hice. But you are saying local level is not handling 
it?
    Chief Martin. No, we're not being notified of any of it.
    Mr. Hice. So what is happening to these people? There is no 
parole, no accountability? They are not watched at all?
    Chief Martin. I think if they're watched, it's--in our 
county, in Santa Barbara County, it'd be by the local probation 
department.
    Mr. Hice. Okay. So how do they get involved? In other 
words, when these people are released and put on parole, who is 
looking after them and how does that process work?
    Chief Martin. It would just be a county probation officer 
who is assigned the case, and he may or she may see them once a 
month or maybe never.
    Mr. Hice. Okay. Well, then who is paying for it? The local 
parole officers--who is paying?
    Chief Martin. Yes, Congressman, in the county it's actually 
the probation departments, county probation.
    Mr. Hice. So the taxpayers are paying this?
    Chief Martin. Yes, sir.
    Mr. Hice. All right. So we have ICE that is responsible for 
releasing these people that should be deported, but in many 
cases no one is looking out for them. But when there are cases 
that a parole officer--in other words, your local county is 
having to pick up the tab for the lack of work being done by 
ICE? Is that a fair assessment?
    Chief Martin. That would be a fair assessment. And not only 
that, we're having to pay for all of the investigations that 
result of us arresting these people. And the local district 
attorney's office is also having to pay to prosecute. And then 
once they are found guilty, they have to go to a State prison 
if it's a State crime. So either the local, the county, or the 
State is paying for all of that.
    Mr. Hice. Well, thank you very much.
    Mr. Chairman, I appreciate this, but I am shocked we have a 
conflict in testimony from what we heard earlier from Ms. 
Saldana saying that all the States are being notified, and it 
is filtering down, and that obviously is not taking place, at 
least in your case. And I think this needs some further 
research and investigation.
    Thank you. I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I will recognize the gentleman from Massachusetts, Mr. 
Lynch, for 5 minutes.
    Mr. Lynch. Thank you very much, Mr. Chairman. Thanks for 
holding this hearing. I thank the ranking member as well.
    Like all of the other members before me, I just want to say 
to the victims' families, thank you for your courage and your 
willingness to come forward and try to make sure that this does 
not happen again. And Mr. Martin and Mr. Burbank, thank you as 
well for your participation.
    Ms. Hartling, can I ask you, the contact that you have had 
with any Federal law enforcement or--can you tell me if they 
have been--I am trying to explore the communication between 
Federal agencies and victims such as yourself and families. 
Could you tell me a little bit about that? Has any of that gone 
on?
    Ms. Hartling. No. My--I have not heard from the Federal 
Government or Homeland Security or ----
    Mr. Lynch. ICE?
    Ms. Hartling. ICE, nothing, no.
    Mr. Lynch. No.
    Ms. Hartling. But--no, not Congressman--Blumenthal, he had 
got things rolling pretty good for Casey's case when I saw him 
in Hartford last year that--so I know for a fact that Homeland 
Security is investigating Jean Jacques' case, my daughter's 
case.
    Mr. Lynch. Right. Right.
    Ms. Hartling. And we're just waiting for the report.
    Mr. Lynch. Okay. Mr. Martin, could you tell me about the 
contact that your department has on a regular basis with ICE? 
Do they inform you when there could be somebody in your 
jurisdiction that is, you know, under a deportation order or is 
there any communication going on between your department?
    Chief Martin. We do have some limited communication with 
ICE. Recently, Homeland Security did build an ICE facility in 
Santa Maria, and it was ----
    Mr. Lynch. And you are north of L.A., between L.A. and ----
    Chief Martin. Yes, we're between Los Angeles and San 
Francisco.
    Mr. Lynch. Okay. Yes.
    Chief Martin. However, it is not a detention center. It is 
simply a processing center. So when they go--and I'm referring 
to ICE--when they pick up people maybe who have done their time 
in a State prison or a county jail, they will take them to that 
processing center for a few hours and then by van take them 
down to either Oxnard or to Los Angeles. So the center is 
there, but it's only open during the day, and it's just simply 
a processing center.
    Mr. Lynch. That is it?
    Chief Martin. Yes, sir.
    Mr. Lynch. And tell me a little bit--I know in some of your 
testimony, you know, there is a description of 
decriminalization of possession of heroin ----
    Chief Martin. Yes.
    Mr. Lynch.--meth, others. How has that played into your 
ability to do your job in this respect?
    Chief Martin. All across California it has increased 
property crimes over 20 percent, so we're seeing an increase 
there. We're seeing an increase in homelessness. So--and many 
of these--some of these people are illegal aliens who are 
living on the streets. So when they passed that law, prop 47, 
it really took our ability away to force them into a court or 
to force them even into rehabilitation or probation.
    Mr. Lynch. I see. All right. Well, again, Ms. Hartling, Mr. 
Root, very sorry for you--Mr. Root, do you have anything else 
you want to add to that in terms of any contact with ICE or 
Federal authorities or their inability or unwillingness to do 
so?
    Mr. Root. I had one gentleman from ICE when we were dealing 
with the Omaha Fugitive Task Force by the name of Jake, and he 
was 100 percent great, you know, trying to give me some 
information. He had--if they catch this killer of my daughter, 
the sheet where they--if they tell where he has hearings, that 
type of stuff. And he was going to hand-carry it out and have 
me fill it out, and whoever his superior is did not that want 
to happen and it came in the mail. And I just asked him, I 
said, are--doesn't he want to deal with me? You know, they 
dropped the ball again.
    Mr. Lynch. Yes.
    Mr. Root. And then probably about a month later I'm trying 
to get some answers. I had some contact numbers from Jake up to 
the Minneapolis-St. Paul area, and a couple of his supervisors 
called back, and basically it was just general information 
about the same thing as Sarah Saldana. And then 2 days before I 
came here, Sarah's advisor had called, said she wanted to reach 
out to me. I told them I wasn't interested, you know, and a day 
or two later wanted to know after the testimony, and I said no. 
I mean, what part of no don't you get? No means no.
    Mr. Lynch. Yes.
    Mr. Root. That's it. Thank you.
    Mr. Lynch. Okay. Thank you for your testimony. I see my 
time is expired. Again, I thank the witnesses.
    Ms. Hartling. Thank you.
    Mr. Lynch. I yield back.
    Chairman Chaffetz. Thank you. We will go to the gentleman 
now from Florida, Mr. DeSantis, the chairman of the 
Subcommittee on National Security. I will recognize him for 5 
minutes.
    Mr. DeSantis. Well, Thank you, Mr. Chairman. And thanks to 
the witnesses. You have my sympathies. This is just a terrible 
thing. And the thing is, is what really gets me, it was 
preventable. Had our government simply done its job, its core 
duties, you guys would have your loved ones here today.
    And I appreciated, Ms. Hartling, in your testimony pointing 
out that this is happening across our country. And I was in law 
enforcement a time as a prosecutor, and if it is just some 
random American commits a crime, we want to prevent it, but 
when you have somebody in custody and you release them, whether 
they are early release as a criminal in the normal justice 
system or here, in this case people were here illegally and 
don't have a right to be here and have committed crimes, you 
are putting the public at risk. And so it is just very, very 
frustrating.
    And I was disappointed in Director Saldana trying to say 
this is just political banter. It is not political banter. 
These are lives that are at stake, and this is a government 
that is not fulfilling its duty.
    What was your view, Ms. Hartling? I mean, when you hear 
that being dismissed as political banter, how did that make you 
feel?
    Ms. Hartling. I couldn't believe it, let's put it that way. 
I found it hard to believe that that came up.
    Mr. DeSantis. Mr. Root, how did you feel about that?
    Mr. Root. I don't know how you can be so incompetent and 
still keep your job.
    Mr. DeSantis. What about the excuses that you hear, well, 
we got a lot of factors to consider or this or that, how does 
that make you feel?
    Ms. Hartling. That's the worst part because I know in my 
heart and my family and everybody that loved Casey that--I 
forgot where I was going with this. What was your question 
again?
    Mr. DeSantis. Well, just when you hear the different 
excuses about why we can't do this or ----
    Ms. Hartling. Oh, yes, that ----
    Mr. DeSantis.--we have to release people, how does that 
make you feel?
    Ms. Hartling. That's the first time I said she was--Casey 
was killed last June. When I heard that he was an illegal alien 
and he was supposed to be deported three times, I said to 
myself, I said out loud, I want to make it to Washington, D.C. 
one day. And I did, and I'm very happy about that because it--I 
don't see anything happening, any changes happening, you know, 
with our deportation rules and enforcement of them, you know, 
so this doesn't happen. I mean, he got--he was supposed to be 
deported three times, and he got let go the same day the last 
time, the--when he--before he killed Casey. He was let go the 
day he got out of prison and ICE had him and let him go that 
exact same day. So it's very frustrating.
    Mr. DeSantis. How about you, Mr. Root?
    Mr. Root. Well, several times I saw her hold the book up. I 
think, you know, it comes down to common sense, you know? I 
mean, in my case you got a homicide, you're going to let that 
person go with priors? Are you nuts? Just common sense.
    Mr. DeSantis. Yes, I agree. I think that showing a statute 
book that says these are mandatory removals does not then mean 
anything not in there means you should let them. You still have 
the authority to hold people, and when the public safety is at 
risk--and the frustrating thing is is that maybe we do need to 
do some reform in the Congress, but a lot of this, there are 
tools available right now that the executive branch isn't 
using. I mean, if some of these countries aren't taking these 
folks who have committed crimes, we have things that we can do 
through the State Department. They have never attempted that 
one time.
    Ms. Hartling. Right.
    Mr. DeSantis. Not once.
    Ms. Hartling. Right.
    Mr. DeSantis. And so basically, we are going to continue to 
see--and the list of criminal offenses that you see--and this 
is what ICE gives us--and it is really startling to see the 
type of things--so these are all, in every instance people that 
are not here lawfully, and you have sex assault, kidnapping, 
homicide, arson. I mean, it is a terrible, terrible list, and I 
feel for you. We on the committee on the subcommittee, on the 
full, we think it is a very important issue. We are going to 
continue to do what we can do. If that means legislative 
changes, we need to do it, but the executive branch has got to 
take this seriously.
    I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I will now recognize the gentleman from Pennsylvania, Mr. 
Cartwright, for 5 minutes.
    Mr. Cartwright. Thank you, Mr. Chairman. And, Mr. Root, 
thank you for your testimony and ----
    Mr. Root. You bet.
    Mr. Cartwright.--I did want to follow up with you because 
we were talking about your daughter's case earlier. And I 
didn't realize that you are passing a petition against the 
judge who set the bail so low ----
    Mr. Root. Yes, sir.
    Mr. Cartwright.--for the killer, and what I read from news 
reports, and I want to get your take on it because ----
    Mr. Root. Sure.
    Mr. Cartwright.--you can't always trust the news, it said 
that the prosecuting attorney, the Douglas County attorney 
admitted that it could have been handled better, and that 
basically we were dealing with an offender who had committed 
previous offenses and who had skipped out on court appearances 
on previous occasions. Am I getting that right?
    Mr. Root. That is correct. I believe he had a--he was going 
the wrong direction on a street before, I think he didn't have 
a child seat-belted in and a couple other--he had two other 
times where he was supposed to show up for court and he did 
not.
    Mr. Cartwright. So my colleague ----
    Mr. Root. Prior to my daughter's death.
    Mr. Cartwright. Right. Right. And my colleague Mr. Gowdy 
pointed out--and he was a prosecutor for many years--is there 
is really only two issues in front of a judge when you are 
setting bail is danger to the community and probability of a 
flight risk. But here is a guy that had exhibited not the 
probability but the certainty that he would be a flight risk, 
and then add to that that he was an undocumented illegal 
immigrant. That is like walking into court with a stamp on your 
forehead that says I am a flight risk. Incarcerate me at a 
very, very high bail.
    And so, you know, I can see being mad at the judge, but it 
sounded like the prosecution didn't lay that out, according to 
the news reports. Were you there for that?
    Mr. Root. I was not. I mean, I don't know what was 
communicated. You know, when he got his bond, we were actually 
burying my daughter, you know, so we didn't go the pretrial. I 
spoke with Officer Swanson. Both of them--a lot of them 
officers I dealt with day and night shift daily, and they took 
it real personal. I mean, they all did their job. To me and my 
family, you know, whatever you do for your job, whether you're 
a judge, ICE, whatever, you should be accountable for what you 
do, you know. If I--I'm a pipefitter. If I put in pipe that 
falls down and kills somebody or leaks, I don't have a job.
    Mr. Cartwright. Right.
    Mr. Root. So from my understanding is they're saying he 
didn't have all the information but he didn't ask for it 
either. But with a name Eswin Mejia and having a homicide, 
maybe--wouldn't you want to do some leg work? He was in jail 
for 4 days. You wouldn't do some research on him before you 
just hurry up and set the bond instead of just running him 
through?
    Mr. Cartwright. Right. Do you fault the county attorney for 
not putting that information in front of the judge?
    Mr. Root. I would say yes, too. Yes. I mean, it's at all 
levels, you know, city level, Federal level, yes.
    Mr. Cartwright. Well, again, thank you for being here and 
----
    Mr. Root. You bet.
    Mr. Cartwright.--hopefully, we do learn something ----
    Mr. Root. You bet.
    Mr. Cartwright.--from all this.
    Mr. Root. I'm sorry. The same judge had a bond of $2 
million, too. It was just last week when my ex-wife Michelle 
was there, same judge.
    Mr. Cartwright. Ms. Hartling, again, thank you as well for 
being here.
    The man who killed your daughter unquestionably should have 
been deported. That is why ICE put him on the deportation list, 
but as we know, that didn't happen. And you deserve an answer 
as to why ----
    Ms. Hartling. Yes, yes ----
    Mr. Cartwright.--it didn't happen.
    Ms. Hartling.--I do.
    Mr. Cartwright. November 24 last year Senator Blumenthal, 
Senator Murphy, and Representative Courtney, who you heard from 
here today, wrote a letter to the Department of Homeland 
Security inspector general--there are inspectors general that 
serve as watchdogs over Federal agencies--asking for an 
investigation. And in that letter the members wrote, ``It 
appears that ICE could and should have taken simple additional 
steps that might have resulted in Jacques being repatriated and 
therefore never given the opportunity to murder Casey 
Chadwick.'' Ms. Hartling, I assume that you support that 
letter?
    Ms. Hartling. Oh, yes.
    Mr. Cartwright. Okay. And on January 12 the inspector 
general sent a memo to ICE announcing that they had agreed to 
this request and were initiating the investigation. Were you 
aware of that?
    Ms. Hartling. I knew that the investigation is still 
ongoing.
    Mr. Cartwright. Okay. So since then, we on the committee 
have obtained some additional details about your case, and the 
information indicates that Haitian officials repeatedly, 
repeatedly said they would accept Mr. Jacques, and then they 
reversed their decisions over and over again at the last 
minute. In fact, in one instance, these Haitian officials even 
approved a manifest that had Mr. Jacques listed to board a 
flight to Haiti, but they pulled it back at the last minute. 
And that happened October 10, 2012.
    Ms. Hartling. Right.
    Mr. Cartwright. And you were familiar with that?
    Ms. Hartling. Yes.
    Mr. Cartwright. Okay. So the letter from Senator 
Blumenthal, Senator Murphy, and Representative Courtney also 
asks the inspector general to examine what could be done ``to 
overcome the objections of the Haitian Government to the 
removal of this individual.'' And I assume you support this 
part of the investigation ----
    Ms. Hartling. Yes.
    Mr. Cartwright.--as well?
    Ms. Hartling. Yes.
    Mr. Cartwright. Well, again, thank you all for being here. 
And my time is up so I have to ----
    Ms. Hartling. Thank you.
    Mr. Cartwright.--yield back.
    Mr. Meadows. [Presiding] The gentleman's time is expired. 
The chair recognizes the gentleman from North Carolina, Mr. 
Walker, for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman.
    Today is about six names, what it boils down to, the name 
of Marilyn Pharis, Sarah Rae-Ann Root, Casey Chadwick, and the 
people who took their lives: Victor Ramirez, Eswin Mejia, and 
Jean Jacques.
    Now, what I am impressed with is, Ms. Hartling, Mr. Root, 
you are willing to relive this situation over and over again, 
many questions, and I am sure you don't want politicized or 
exploited. Yet at the same time, Mr. Root, Ms. Hartling, I have 
got the same question. What is it that drives you to keep 
fighting for you lost loved one? Why are you doing this?
    Mr. Root. Well, if it changes the life of one person, it's 
worth it. You know, I know if you don't say nothing and do 
nothing, nothing gets done. You got to be vocal on what you 
want to do and how you feel. I was brought that--brought up 
that way, and that's how I feel. My whole family's that way.
    Mr. Walker. So whatever the sacrifice is ----
    Mr. Root. It doesn't make a different ----
    Mr. Walker.--you're willing to take on.
    Mr. Root. What do you live for, your kids, don't you?
    Mr. Walker. Absolutely.
    Mr. Root. I have one kid left.
    Mr. Walker. Thank you, Mr. Root.
    Mr. Root. It's my only daughter.
    Mr. Walker. Ms. Hartling?
    Ms. Hartling. Yes, I agree with--exactly with what he said. 
Casey should still be here. There's no doubt about that. She 
should still be here. I shouldn't be here. I shouldn't belong 
to a group that nobody wants to join. And I'm glad he--that 
he's guilty, he was convicted.
    Mr. Walker. Sure.
    Ms. Hartling. So that's a big relief. But having to go over 
and over it in your head ----
    Mr. Walker. I want to compliment the strength that you guys 
are exhibiting. And Chief Martin, for you to take up the cause, 
and of course, congratulations, December, as far as being 
appointed full-time chief there. And a lot of that is due to 
your many years of experience. I have done a little reading on 
your background, very impressed with the background for what 
you did with the sheriff's department and the gang-related 
stuff, that you have been fighting this fight for a long time, 
so you have seen it firsthand.
    I was very impressed that you are willing to call it out 
what it is. I believe that you made a quote, said I think this 
is a national issue. I think it starts in Washington, D.C., 
with this administration that we see and their policies. I 
think you can draw a direct line over to Sacramento with the 
policies. And you talk about AB 109, prop 47, and you made this 
quote. You said, ``And I am not remiss to say that from 
Washington, D.C., to Sacramento there is a blood trail into the 
bedroom of Marilyn Pharis.'' Do you still believe that?
    Chief Martin. I do, sir.
    Mr. Walker. Can you expound just for a moment why, why you 
feel that way. Why are you that passionate about it?
    Chief Martin. Well, you know, we on the local level are 
really feeling the total brunt of all this. You know, we talk 
about the national, we talk about the State, but, you know, 
it's every police officer that goes to all these crime scenes. 
And it just sunk in that this was so, as I stated earlier, 
preventable. He was arrested six times ----
    Mr. Walker. Yes, over ----
    Chief Martin.--in 15 months.
    Mr. Walker.--15 months, yes.
    Chief Martin. In 15 months.
    Mr. Walker. Yes.
    Chief Martin. And it's catch and release, catch and 
release. All right. Now, if they're misdemeanors and--there--
two of those were felonies and they're dumbed down to a 
misdemeanor, I still think ICE ought to look at those cases and 
say, okay, he might have, you know, went and said I'll go ahead 
and take the misdemeanor plea bargain ----
    Mr. Walker. Right.
    Chief Martin.--but I think we ought to look at the original 
case and what it is if it's a felony.
    Mr. Walker. Of course. Yes.
    Chief Martin. Yes.
    Mr. Walker. What does it do the morale of the good men and 
woman that you lead when they see this kind of situation where 
they're working, putting themselves in danger, six times out of 
15 months? Speak to that if you would, please?
    Chief Martin. Well, the Santa Maria Police Department is a 
great police department, and hired 40 new police officers in 
the last 3-1/2 years. They're dedicated, they come to work 
every day, and I just think they realize that something needs 
to be done at a higher level. They all need that.
    Mr. Walker. And you know that by sticking your neck out 
like this, you're going to get all kinds of innuendos and name-
calling and everything else. I commend you for being willing to 
fight this fight because I think it is going to make a 
difference in the future, all of you.
    I had several questions. I may have time for one I at least 
want to get to for Mr. Burbank.
    Mr. Burbank, do you agree with the job Director Saldana is 
doing at the Immigration and Customs Enforcement department?
    Mr. Burbank. The system is broken on both ends.
    Mr. Walker. Okay. Does she have a responsibility for some 
of the decisions that she is making?
    Mr. Burbank. Absolutely.
    Mr. Walker. Okay. I have got a specific question for you. 
As you previously testified before the House Judiciary 
Committee in opposition to a bill that would make criminal 
alien drunk drivers deportable. How do you explain that? And I 
am not trying to add histrionics to this case today, but how do 
you explain this to families that that shouldn't be to that 
level of criminal offense?
    Mr. Burbank. The criminal offense should be equal under the 
law. So if you are a citizen, if you are a visitor to the 
country, or if you are undocumented in the country, they should 
have the same due process that anyone is entitled to the in the 
United States. And that's what I firmly believe in my job.
    Mr. Walker. But see, that is a flawed argument. I heard 
that today. You said, listen, aliens don't have as many 
criminal background or acts as the normal population. My point 
is if they weren't here to begin with, there would be no 
criminal acts from them. Is that not true?
    Mr. Burbank. You have a point.
    Mr. Walker. Thank you. I yield back. I see I am over my 
time. Thank you for your time. I appreciate that.
    Chairman Chaffetz. I now recognize the ranking member, Mr. 
Cummings, for 5 minutes.
    Mr. Cummings. What were you going to say?
    Mr. Burbank. I was just going to say we've identified many 
flaws within the criminal justice system that are not 
necessarily directly related to immigration status.
    Mr. Cummings. Okay. As I said to you, Ms. Hartling, and to 
you, Mr. Root, I really do thank you for being here.
    Mr. Root. You bet.
    Ms. Hartling. Thank you.
    Mr. Cummings. And, you know, the Government Printing Office 
prints the records of these hearings, and you know, one of the 
things that I noticed about myself--sometimes you can learn 
stuff about yourself when you go through stuff--is that I never 
wanted anybody to forget my nephew. You know, I didn't want him 
to be like a flash and then it is like he didn't exist.
    And since a record is being made here that is a permanent 
record, I wanted to give you an opportunity to say anything 
special about your loved ones. Ms. Hartling?
    Ms. Hartling. Oh, now?
    Mr. Cummings. Yes, you.
    Ms. Hartling. Oh. Casey was a spitfire. Everybody loved 
her. She was a tiny little thing and ----
    Mr. Cummings. Was she like you?
    Ms. Hartling. Yes.
    [Laughter.]
    Ms. Hartling. She was like me except she ----
    Mr. Cummings. How did I guess?
    Ms. Hartling. She is not as tall, though. She was very 
short, right. My--I have two daughters that are 5'1''. That's 
Casey and my oldest, and my other daughter is 17. She's as tall 
as me. But all my other--my other two daughters are short so--
but she was--Casey wouldn't put up with any wrongdoings or 
anything. Casey was--she was a fighter, and that's why she had 
so many defensive wounds on her and everything because she 
fought. She fought back.
    And--but she was great. She was--we talked every single 
day. I talked or texted--she talked or texted me every single 
day. If there was a car accident on the highway, because I'm a 
lousy driver, she'd call me on the phone and--to make sure that 
it wasn't me in the accident every time. And I would--sometimes 
I'd just answer the phone, I'm home, Casey. It wasn't me.
    So she just--she was just a very caring, loving 25-year-old 
beautiful girl with her whole life ahead of her, and now she's 
gone.
    Mr. Cummings. You know, you said something that kind of 
caught my ear, and you said after it happened you wanted to 
come to Washington.
    Ms. Hartling. Yes.
    Mr. Cummings. And you said these words, you said it made me 
happy to be able to come.
    Ms. Hartling. Yes.
    Mr. Cummings. Sometimes I think we who sit in these chairs 
don't realize the significance of these kinds of moments. Can 
you explain to me why you said that?
    Ms. Hartling. Because I felt that I could contribute my 
story about my daughter and how he was supposed to be deported 
three times, and you know, so ICE and the Federal Government 
need to--I wanted to just say what I wanted to say, that it was 
wrong and they need to have more steps to take or whatever they 
do to detain an illegal alien who may--did a heinous crime.
    So he obviously had already done that before Casey. He had 
already--he was acquitted of killing one guy and he attempted 
murder the guy's girlfriend. So he was already a--you know, he 
was already a criminal. And when he got out of jail and I 
just--when I found out that ICE let him go the same exact day, 
I was like that doesn't make any sense to me.
    Mr. Cummings. Yes. You know, one of my favorite sayings is 
that out of pain comes one's passion to do their purpose.
    Ms. Hartling. Exactly.
    Mr. Cummings. Pain, passion, purpose. Mr. Root, can you 
tell us about your daughter?
    Mr. Root. Well, my daughter, she's just a lot like Mrs. 
Hartling's daughter. She was small but she was a little 
spitfire. You know, you always knew where you stood with her, 
just like my whole family being vocal. But, you know, she was 
very loving, very smart, very beautiful, very caring. She was 
passionate and willing to help people all the time. She was--
like I said, she just graduated with a 4.0 at--and then she 
worked at Walgreen's, too, while she wanted to continue her 
master's. And then people, you know, need something, she was 
always willing to help somebody, you know, at the drop of a 
dime, just a good-hearted person, you know?
    Enjoyed doing a lot of family things, you know, hunting and 
fishing. She was going to hunt this year with me. She goes, 
Dad, you know, you're going to be pissed when I shoot on bigger 
than you. So I bought her a shotgun and, you know, them aren't 
in the cards. But, you know, she just was--she was real active 
in soccer when she was younger, she used to go fishing with me, 
be on the boat. If we're not catching no fish, she'd want to 
steer. And just a real joy, you know. We never had problems 
with either one of our kids. It's just--it's a lot to swallow 
in, you know, but I'll see her again.
    And, you know, you don't want your kids to die in vain. 
You've got to speak up for you believe in. And it's hard to do 
but, you know, myself and my family, like I said, feels from 
a--from the local to the Federal level, you know, it's--the 
ball's been dropped everywhere, and everybody should be held 
accountable. Until my baby girl gets justice, I'll be here.
    Mr. Cummings. You know, there is a song that I love so 
much. It says the time we shared will always be. The time we 
shared will always be. And, you know, as I listen to you, you 
know, I think it is very important that we put faces. That was 
one of the reasons I wanted you to talk about them ----
    Mr. Root. That's fine.
    Mr. Cummings.--to put faces. I mean, people--you know, we 
get to a point in our nation and in our world where things 
happen to people and it is just collateral damage. It is like 
it is not a human being, a family behind, the people mourning, 
feeling sorrow, you know, and as I say mourning for things that 
could have been.
    Ms. Hartling. Yes.
    Mr. Cummings. And so I just wanted to--I appreciate you all 
sharing.
    And, again, there are definitely some problems here that we 
are going to try to solve. And I agree with the other side. I 
don't think--to use the word political banter, I thought that 
was not appropriate. It is about trying to solve problems and 
trying to make it so. And I think this would be--your aim of 
being here, trying to make sure that this doesn't happen to 
somebody else's daughter ----
    Mr. Root. Yes, sir.
    Mr. Cummings.--or somebody else's cousin or sister or 
friend or fiance. So, again, I want to thank you all for being 
here.
    Ms. Hartling. Thank you.
    Mr. Cummings. And when you talk about your daughters, I can 
tell you, when you put the personal side to it, I think it 
helps us when we are trying to resolve these problems to just 
keep in mind, you know, this is for two wonderful, awesome 
spitfire--as you have said--young people.
    Ms. Hartling. They probably would have been friends.
    Mr. Cummings. Yes. Thank you all. Thank you very much.
    Ms. Hartling. Thank you.
    Mr. Root. You bet.
    Chairman Chaffetz. Thank you. I now recognize myself.
    Again, I love how Elijah Cummings puts his heart into it 
and cares, and I think we all do. I don't think this is a 
partisan issue. But there are public policy issues that we have 
to deal with.
    And, Mr. Root, I wanted to put up a picture, if it is all 
right with you, of Sarah. This is your daughter there. How long 
ago was that picture?
    Mr. Root. She graduated the 30th of January. She died 
January 31. That night, her--after graduation during the day 
she went out with her mom and her mom's side of the family and 
they had something to eat, and I was helping a friend do some 
work and I asked if she wanted to have steak and crab legs with 
us, but no, she wanted to go celebrate her graduation with a 
friend. And I had her in the driveway blocked in with my 
vehicle, and she moved her vehicle--or, I'm sorry, I moved my 
vehicle. I was parked behind her. And she parked her vehicle on 
the street, and she walked back up after parking her vehicle 
and hugged me and gave me a big old hug, and it was like a 
death hug. You know, she said I can't go nowhere without 
telling you I love you, Dad, and that's the last time I seen 
her alive before I identified her.
    Chairman Chaffetz. Well, you know, the strength that you 
exemplify here is just amazing to me. I have long said that it 
is ordinary people doing extraordinary things that I think I am 
most impressed with. And people wake up and something happens 
and they don't think they are going to be sitting in this 
situation, and here you are testifying before Congress.
    And I want you to know in your heart it does make a 
difference and that it is incumbent upon all of us to learn 
those lessons. As clearly and succinctly as you can, the person 
that is suspected of committing this--or that committed this 
murder, what had this person done previously ----
    Mr. Root. Well ----
    Chairman Chaffetz.--that you in your mind justifies 
deportation?
    Mr. Root. Well, first of all, he was 16 or 17 when he was--
15 or 16 was he identified in Arizona, I believe, and he was 
released to his brother, who was another illegal. You know, 
they--to me, they should have been both deported at that time. 
You're both entering the country illegally, you know, that's--
there's two. If he would have been deported, we wouldn't be in 
this boat right now. And then the traffic offenses he committed 
where he was going the wrong way and didn't--failure to show up 
for that, I think, and he might have had a couple other--I know 
he had one where he didn't seatbelt a child in. I mean, I don't 
have the information right in front of me. I know ----
    Chairman Chaffetz. Yes.
    Mr. Root.--he had two or three other times where he was 
supposed to be in court, and he didn't show up. This was prior 
to the incident with my daughter. And that--you know, with the 
judge deal, that should have been all public record. I mean, in 
this day and age, you know, you should be able to push that 
computer and it should show everything.
    And prior to releasing him, he was in jail for 4 days, 4 to 
5 days. So, you know, they were claiming they didn't know his 
immigration status and the county prosecutor didn't, you know, 
give us this information. And to me, you know, that's--you 
know, if a guy's in jail for 4 days, it gives you plenty of 
time to figure it out. You know, you should have known 15 
minutes pretty much all of it. I mean, I don't do legal work, 
but it's just commonsense issue, you know. And the way his name 
is spelled--and I'm not trying to be prejudiced because, like I 
said, my mother was an immigrant--that would probably tell you 
that he's, probably, you know, not, you know, just like Bob 
Smith or something. You know, you might want to do a background 
check, just common sense, you know.
    And not to the point where--even where you're a judge and 
you're supposed to be highly educated, to protect the public, 
to me, you've failed.
    Chairman Chaffetz. And, Mr. Burbank, look, you served the 
people of Utah for a long period of time. And I may not be able 
to convince you or change your mind, but I do want to offer 
another perspective. I want you to be able to offer another 
perspective, and I want to offer one as well because I believe 
in the principle of restitution. You steal a candy bar, you put 
it back or you pay for it. You break a window, you pay for it. 
You are here illegally, you go home.
    And so I think you do--for me personally, I think you do 
see need for some immigration reform--which I agree with. I 
think we need to fix legal immigration. I think it is broken. I 
think we are failing those people who are trying to do it 
legally and lawfully, but we doing it to the advantage of the 
people who do break the laws and just blow past the laws of the 
land. And I think we need to stand more firm as a nation and 
say we are a nation of laws. And if you break them, there is a 
consequence to that.
    And right now, that is what I don't see happening, and that 
is what I see time and time again just being dismissed as, 
well, that wouldn't have really helped.
    And there are a couple things that you said that I would 
like to ask you about. You said we couldn't deport our way out 
of this, but for somebody who has committed a serious crime who 
is here illegally--remember, they are here illegally--they 
committed a crime, they are convicted of that crime, why 
shouldn't they all be deported? Why should we stand for that?
    Mr. Burbank. If they have committed a serious crime, I 
don't think there's a police chief in the nation that's not 
going to tell you they shouldn't be deported or dealt with 
appropriately. But we should not move outside the laws or the 
Constitution in order to obtain that. Now, we have unfortunate 
circumstances where people fall in a category, but our criminal 
justice system adjudicates this.
    Now, if part of that is they are adjudicated and then we 
fail, I mean there's no question we've identified today that 
there's failures in the system.
    Chairman Chaffetz. So would you agree that--see, 
Immigration and Customs Enforcement is required by law to have 
a minimum of 34,000 beds, but they are only in the 30,000 
range. That means there is a good at any time 2 to 4,000 people 
that should be detained, could be detained, that the Congress 
funded to be detained, and they don't do that.
    Now, you don't work for ICE, you don't work for Homeland 
Security, but can you see the frustration, that there are 
literally thousands of people that are here illegally as 
criminal aliens and they are not being detained? Not because 
they haven't been funded, not because it is not the law, just 
because the Homeland Security folks and the Obama 
administration decide, no, that is probably not in our best 
interest. But why is that not in the best interest of the 
United States of America?
    Mr. Burbank. If we have identified individuals--
interestingly enough, I did work with ICE in order to come up 
with those people and to try and make the major city chiefs of 
the United States say, yes, we should deport those people 
who've committed serious criminal acts.
    Chairman Chaffetz. Do you think driving under the influence 
falls to that level?
    Mr. Burbank. I think laws such as that fall into the 
category that they should be adjudicated as they do with 
someone else. We've identified a shortcoming. Do you realize 
there are people driving around in this country now that are 
citizens that have four and five DUI arrests in the past that 
we haven't dealt with appropriately either? And so we're 
looking at a flawed ----
    Chairman Chaffetz. Now, but I am asking you, for somebody 
who is here illegally and convicted, convicted of a DUI, do you 
believe they should be immediately deported?
    Mr. Burbank. A DUI is a class B misdemeanor in the State of 
Utah ----
    Chairman Chaffetz. I am asking you ----
    Mr. Burbank.--and so ----
    Chairman Chaffetz.--do you ----
    Mr. Burbank. No, I do not.
    Chairman Chaffetz. So you think somebody who is here 
illegally, drives under the influence, it is in the best 
interest of this country to leave them in the United States?
    Mr. Burbank. I think it's in the best interest of this 
country to follow the standards set forth so that you have 
equal ----
    Chairman Chaffetz. I am asking you what ----
    Mr. Burbank.--protections under the law.
    Chairman Chaffetz. I am asking you what you think the 
standard should be. I would deport all of them. You commit a 
crime in this country, you are out of here. Guess what, you did 
jump to the front of the line. That is the deportation line. So 
why shouldn't we deport that person?
    Mr. Burbank. Well, this is where you and I absolutely 
disagree because I think that we have a practice in place and 
how we adjudicates things, and I think there needs to be some 
fairness and equity in that system. And when there's not, when 
we identify people and they have harsher penalties because of 
the color of their skin or the language that they speak ----
    Chairman Chaffetz. No, wait, wait, wait. I never said 
anything about the color of their skin. Those are your words, 
not mine. I never said that. I said they are here illegally. 
And that knows no bounds, right? Name a country that doesn't 
have somebody here illegally. It happens from the entire world. 
Why shouldn't we deport that person?
    Mr. Burbank. One, I don't think we have the capacity to 
reach that, and then two, this is the same ----
    Chairman Chaffetz. So you think that saving money is more 
important?
    Mr. Burbank. No, but what I'm telling you is this is no 
different than tax code. This is a civil penalty. It's not a 
criminal penalty enforceable in the State of Utah as a crime.
    Chairman Chaffetz. This is where ----
    Mr. Burbank. You can only be detained and deported for 
this, you cannot be jailed or fined for being in the country 
undocumented.
    Chairman Chaffetz. And you should be deported. That would 
solve all the problems. That would solve all the problems right 
there.
    My time is expired.
    I will now recognize Mr. Grothman of Wisconsin.
    Mr. Grothman. Thank you.
    I am not going to follow with Mr. Burbank, but my goodness, 
it is kind of incredible how we have people who don't want to 
enforce our immigration laws.
    I will go with Mr. Martin, Chief Martin. Could you just in 
general--you have been involved in law enforcement for quite a 
while. When were you first involved in law enforcement in 
California?
    Chief Martin. Nineteen seventy-three.
    Mr. Grothman. Okay. So you have seen a lot. Could you 
describe the difference in the way the immigration laws of this 
country, say, have been enforced, say, in 1975 and the way it 
is today?
    Chief Martin. Well, I can tell you from a perspective in 
Los Angeles when I worked in the Los Angeles County Jail, we 
used to have INS agents at the time working inside our jail, so 
every person that was booked in to the Los Angeles County Jail, 
they were screened by, at that time, INS, has now become ICE. 
So there's a change there.
    Then, I've seen changes--just through administrations you 
see the differences, you know, '70s into the '80s, and now we 
see it to the point where it's--like I testified earlier, it's 
like catch and release. It's at the point now where we've--at 
the local level it's saturation, and we're having a very 
difficult time dealing with it in Santa Maria and other places, 
too.
    Mr. Grothman. Are you seeing that people who would have 
been deported 40 years ago, today either for the lack of 
resources or maybe kind of Mr. Burbank's attitude of, you know, 
we don't care who comes in this country very much--do you see a 
difference in whether somebody would be deported or not 40 
years ago compared to today?
    Chief Martin. Yes, I do. And what we saw in the '70s and 
'80s was when you would have one or two convictions, you would 
normally be deported. Victor Martinez was arrested six times in 
15 months, and he was never deported, not even on the list to 
be deported, so therein lies the actual evidence.
    Mr. Grothman. Do you get any feeling--it is to a certain 
extent a mystery of mine because in my mind, we are ruining our 
country. And we have had witnesses appear not just in this 
example but people who represent the border patrol the degree 
to which--not just this administration but other 
administrations as well--don't want to enforce our immigration 
laws at all, which is I think, I as a Republican, we are going 
to get Donald Trump as our nominee because we have a lot of bad 
candidates who wouldn't say they would enforce the immigration 
laws. Did you ever hear why we don't care to enforce our 
immigration laws anymore? Is there any speculation you have?
    Chief Martin. Well, the only thing I hear in California is 
that we need illegal immigration to work the agriculture area, 
but that does not--that doesn't ring true in Santa Maria. We 
have many people there who come from different countries under 
the H-2A laws, and they work there for 6, 7, 8, 9 months and 
then return. So that argument doesn't seem to really hold water 
for us.
    Mr. Grothman. Okay. Do you feel we ought to do a better job 
enforcing our immigration laws?
    Chief Martin. I'm sorry, sir, say ----
    Mr. Grothman. Do you think we ought to do a better job 
enforcing our immigration laws?
    Chief Martin. Yes, sir.
    Mr. Grothman. Okay. Do you care to comment on Chief 
Burbank's comments before?
    Chief Martin. Well, the only thing I would say, I would 
like to share with the committee what happened in Santa Maria 
just 8 weeks ago. We had an increase in homicides for the past 
year-and-a-half in Santa Maria. Normally, we only have about 
three homicides a year. Last year, in 21 months--or in 15 
months we had about 21 homicides.
    Eight weeks ago this day, we undertook an operation that 
had an impact in these homicides. Along with the FBI, along 
with ATF, we undertook and we led the investigation. We served 
search warrants at 12 locations, eight in Santa Maria, some in 
Bakersfield, some in Ohio and other areas, culminating in the 
arrest of approximately 16 people. All 16 people are illegal 
aliens from either El Salvador or Honduras, and they were all 
booked for multiple counts of conspiracy to commit murder, and 
there are other murders that we believe we will be able to 
prosecute them for later on. So that was just 8 weeks ago on 
March 3.
    So, yes, I am seeing a huge increase in some of the 
problems we're having.
    Mr. Grothman. It would seem to me common sense that if you 
have somebody breaking the law to come here, while there may be 
wonderful people doing that, proportionately they would be more 
likely to break other laws, including maybe the laws against 
murder. Based on your experience in the last 20 months, do you 
believe that illegal immigrants in Santa Maria are less likely 
to commit crimes than the native-born?
    Chief Martin. Are they less likely?
    Mr. Grothman. Right. Right.
    Chief Martin. No, I don't believe that. I think it's 
proportional. We have a lot of people--Santa Maria has got a 70 
percent Hispanic population. Half of my police force is 
Hispanic or African-American, right, so they're seeing it on 
all levels also. But I don't think that, you know, they're--the 
illegals are--that when they are here, many of them, the only 
way to support themselves--they're not working the fields--
they're committing crimes just like Victor Martinez was doing. 
He didn't have a job. You know, he's hooked on methamphetamines 
so he makes his living--or he makes his money by stealing.
    Mr. Grothman. That, to me, makes sense. So you would say in 
general--and there is this myth out there. I think I saw it in 
some of the stuff that Chief Burbank said--that the illegal 
immigrants are less likely to commit crimes. I mean, my 
experience just talking to people in law enforcement, common 
sense would tell you, you are here illegally, more likely to 
commit crimes. Is that your experience, more likely to commit 
crimes, you think, people who are here illegally?
    Chief Martin. No, I don't think--well, let me give you an 
example. We had--we arrested 500 people for drunk driving, I 
think it was last year in Santa Maria. Of the 6,000, 500 were 
drunk-driving cases. I would estimate that about 40 percent 
were illegal aliens, and I think they only make up about 20 
percent of our population.
    Mr. Grothman. Okay. Well, that is kind of shocking.
    Mr. Palmer. [Presiding] The gentleman's time is expired.
    Mr. Grothman. Well, thank you for giving me the extra 
minute.
    Mr. Palmer. The chair now recognizes Mr. Connolly, the 
gentleman from Virginia, for 5 minutes.
    Mr. Connolly. Thank you. Thank you, Mr. Chairman.
    Mr. Burbank, I just heard that last statistic, and that is 
awful misleading. I mean, if you want to go down that road, 
what percentage of black American men as a total population--
part of the U.S. population and what percentage do they 
constitute in terms of incarcerated adults?
    Mr. Burbank. They are incarcerated at a much higher rate.
    Mr. Connolly. Much higher rate. What are we to conclude 
from that? Don't answer. I would suggest, respectfully, tread 
very lightly on what you conclude about that.
    So the fact that you have got a higher percentage of people 
who are undocumented who are arrested in a community that has a 
lot of undocumented people, I don't know what to conclude from 
that. There could be good and bad things to be concluded from 
that, including about policing. And I can tell you this. If my 
police chief were at this table, he would testify that we don't 
want to essentially federalize our police forces and make them 
the equivalent of immigration police because we want the 
cooperation of the immigrant community, including the 
undocumented immigrant community, in terms of law enforcement.
    I can tell you in my community right across the river it 
was because of an undocumented individual we were able to solve 
a murder by an undocumented individual. We would never have 
gotten the cooperation of the day laborer community, in this 
case undocumented, with our police if we had not had a 
different kind of policy where we differentiated our local law 
enforcement function from that of immigration and customs and 
so forth.
    So just a word of caution about that, and Chief, you are 
more than welcome to comment on that if you wish.
    Chief Martin. Thank you, Congressman. I have an excellent 
relationship with the Hispanic community. We have outreach 
officers that go out into the fields and speak with them all 
the time. We do have many undocumented people come forward to 
report crimes.
    But the question was do I see an increase or decrease, I'm 
not sure the exact numbers, but I think it's proportionate, as 
I said. So ----
    Mr. Connolly. Yes.
    Chief Martin.--we have B coordinators, we have--like I 
said, 40, 45 percent of my officers speak Spanish. So I go to 
every meeting that I'm invited to. So I agree. We're not 
supposed to be immigration officers, that's not our job ----
    Mr. Connolly. Right.
    Chief Martin. But at the same time, we are feeling the 
impact ----
    Mr. Connolly. Sure.
    Chief Martin.--of the lack of enforcement at the Federal 
and State level.
    Mr. Connolly. I understand that, too.
    Chief Martin. Yes, sir.
    Mr. Connolly. Yes. Thank you very much.
    Chief Martin. Sure.
    Mr. Connolly. Mr. Burbank, is deportation just sort of the 
answer to all of our immigration problems here? Let's really up 
the game on deportation and that will solve everything?
    Mr. Burbank. I do not believe it's the answer personally, 
no.
    Mr. Connolly. Really? Why not?
    Mr. Burbank. I do not believe it's realistic, and in fact, 
it's an unfair system in which we don't treat people equally 
across the board. Then the other thing is border issues and 
everything else. People come back. We need a system that 
reforms immigration so individuals can come into the country 
and work, can come into the country and visit, return home, can 
come out of the shadows and participate in society.
    This is not a question of legalization of everybody. This 
is a question of allowing them to participate so that 
understand traffic laws, so that they understand the rules, 
that they can get the treatment that everyone in society--for 
drug, alcohol, and mental health issues that everyone in 
society experiences regardless of what their race is or where 
they may be from.
    Mr. Connolly. What is the recidivism rate of deported 
individuals? I mean, we sometimes act as if deportation is the 
ultimate answer to a set of problems. But the fact of the 
matter is, depending on who you are and where you come from, 
you may illegally enter the United States multiple times even 
after having been deported, is that not correct?
    Mr. Burbank. That is correct.
    Mr. Connolly. And that is because of why?
    Mr. Burbank. I think there is a desire to be in this 
country. And there are family members, there's many issues, but 
they do not--studies have shown, conducted by research 
institutes and universities across the Nation that show that 
individuals even in multiple returns are committing crime at a 
lesser rate.
    Mr. Connolly. But even where we have got criminal activity, 
for example, in northern Virginia where I live, we have had 
gang leadership that has been deported back to Central America 
only to have them show up again, you know, 4 to 5 months later, 
and we had to go through the process all over again.
    So sometimes when we are dealing with criminals, they have 
a criminal network that also serves to re-inject them 
unfortunately back in this community. And that is a different 
kind of challenge than simply addressing somebody's status. 
Would you agree?
    Mr. Burbank. Absolutely. And you've just identified the 
frustration of police chiefs across the Nation. The system is 
broken, and until we reform immigration as a whole, we will not 
be able to get past some of these loopholes that criminals are 
finding.
    Mr. Connolly. I would just say this in my final comment, 
but I think you just put your--I spent 14 years in local 
government before coming here and was chairman of my county, 
was the equivalent of being a mayor, 1.2 million people. And 
that is my feeling that the Federal Government in some ways, by 
overseeing a broken system, has forced localities and local 
communities to deal with the consequences of this broken 
system. And sometimes, certainly as our two grieving parents 
here give witness to, it leads to tragedy. We have got to fix 
this system.
    Thank you.
    Mr. Palmer. The chair now recognizes Mr. Carter, the 
gentleman from Georgia, for 5 minutes.
    Mr. Carter. Thank you, Mr. Chairman. And thank all of you 
for being here. I can only imagine the feelings that you have. 
And please know that you are in our prayers, and we appreciate 
your courage for being here.
    Ms. Hartling. Thank you.
    Mr. Root. You're welcome.
    Mr. Carter. Mr. Martin, if I can ask you specifically, 
Victor Martinez-Ramirez, he was the illegal alien who cared Air 
Force veteran Marilyn Pharis. He had been arrested by your 
police department six times in the previous 15 months, is that 
correct?
    Chief Martin. That's correct, sir.
    Mr. Carter. Six times in the previous 15 months?
    Chief Martin. Yes, sir.
    Mr. Carter. And it is my understanding he had been released 
by the Santa Barbara County Jail only 96 hours prior to doing 
this?
    Chief Martin. Yes, sir.
    Mr. Carter. Had ICE issued a detainer for this guy?
    Chief Martin. Not in this particular case. They did provide 
a detainer in 2014, but that was the only one we knew.
    Mr. Carter. Mr. Martin, is your city or Santa Barbara 
County a sanctuary jurisdiction?
    Chief Martin. No, sir. The city of Santa Maria is not a 
sanctuary city, never has been. In fact, I have letters from 
our State manager, which was authored by our city council 
stating specifically they have never voted for at any time in 
the past or in the present to be a sanctuary city.
    Mr. Carter. Have you ever contacted ICE previously to 
request a detainer on someone or on a suspected illegal alien? 
Have you ever had that experience?
    Chief Martin. No, sir. What we do is when we arrest 
someone, the Santa Maria Police Department makes an arrest, we 
fill out a form that goes with the prisoner to the county jail. 
The Santa Maria Police Department, we don't have a jail for 
people to put in. We just have a booking/processing area. And 
in this form we do check--the officer does--the officer 
requests an immigration review, and in this particular case for 
Victor Martinez, we checked yes. So then it would be in the 
hands of the sheriff's department and ICE for them to go down 
and make the review.
    Mr. Carter. Okay. And you are not sure what happened after 
that in that particular case?
    Chief Martin. No, sir.
    Mr. Carter. Okay. Wouldn't you agree, Chief, that increased 
communication between local law enforcement and Federal law 
enforcement would--and Federal law enforcement especially 
because obviously they are the ones who are responsible for the 
immigration enforcement, wouldn't you agree that better 
communication would obviously benefit everyone in this case?
    Chief Martin. Yes, sir, I would.
    Mr. Carter. And hopefully keep a tragedy like this from 
happening again? I mean, this is obviously not our best work 
and could qualify as being our worst work.
    Mr. Chairman, obviously, I am appalled, as we all are, at 
what has happened in this particular case and what has happened 
in many cases like this. And, you know, especially when you had 
a veteran who was murdered at the hands of an illegal alien who 
was in police custody only hours before, only hours before this 
person was in police custody.
    So I want to bring to your attention, Mr. Chairman and 
other members of the committee, a bill that I have. It is H.R. 
4007, the ALERTED Act, and it helps to increase communication 
at all levels of law enforcement, and it ensures that DHS and 
that ICE are responsive to those inquiries just like Mr. Martin 
just indicated. And that is that they will work to make sure 
that these illegal aliens are indeed checked on and that our 
immigration laws are enforced.
    Again, it is H.R. 4007. That is a bill that I am 
sponsoring. It is called the ALERTED Act. Hopefully, it will 
improve communication between local law enforcement and between 
the Federal Government. That is what we need more of.
    Again, thank you for being here, and again, our 
condolences. Thank you so much. We appreciate your courage.
    Mr. Chairman, I yield back.
    Mr. Palmer. I thank the gentleman from Georgia.
    I now recognize myself for 5 minutes.
    And first of all, I want to thank the ranking member for 
asking you to tell us about Casey and Sarah, and you can, Mr. 
Martin, tell us a little bit about Marilyn Pharis. We don't 
want these people to just be statistics. And I watched as 
people wiped tears. As the dad of two daughters, I can't 
imagine what you have been through. We all of us are very, very 
grateful for you coming. This has been very helpful.
    Mr. Root, is it true that Mr. Mejia's bail was less than 
the cost of Sarah's funeral?
    Mr. Root. Yes, it is.
    Mr. Palmer. Do you know whether or not Mr. Mejia had a 
driver's license?
    Mr. Root. He did not.
    Mr. Palmer. Do you know whether or not he ever had one?
    Mr. Root. I do not know that fact. I know there's no 
insurance. The vehicle that killed my daughter, I'm not even 
sure the true owner of that vehicle. It's in the Omaha impound 
lot right now. I heard it was from another illegal roofing 
contractor from Wichita, Kansas, but, you know, I--they won't 
let me take it out of there to get it tested for prints or 
whatever you want to say. So ----
    Mr. Palmer. Okay. Mr. Martin, I listened to Mr. Burbank's 
response to Chairman Chaffetz about deporting drunk drivers, 
and frankly, that didn't go over well with me. But I'm going to 
ask you, do you think we have enough legal citizens that drive 
drunk without adding illegal immigrant drunk drivers to that 
number?
    Chief Martin. Yes, sir.
    Mr. Palmer. Do you think it makes sense when we know that 
they have record of drunk driving--and I would like for you to 
answer that again. You didn't have your microphone on. I ask 
you if you think we have enough without adding illegal drug 
drivers to that ----
    Chief Martin. Yes, sir, we have enough.
    Mr. Palmer. Do you think it makes sense when they are 
picked up for drunk driving since they are here illegally, 
regardless of race, national origin, sex, gender, does it 
matter--or since they are here illegally and they are breaking 
our laws, does it make sense for them to stay here?
    Chief Martin. No, sir, it does not. I view the vehicle just 
as I would a pistol.
    Mr. Palmer. And in Sarah Root's case it was just as deadly 
as a pistol, wasn't it?
    Chief Martin. Yes, sir.
    Mr. Palmer. Mr. Burbank, in your last comments, you seemed 
to imply that the American taxpayers should pay for substance 
abuse treatment for people who are here illegally. Is that what 
you are saying that we need to do as a nation?
    Mr. Burbank. I don't believe I said that as regards to that 
----
    Mr. Palmer. I believe you did.
    Mr. Burbank.--and the taxpayers. I said that we have 
demonstrated through restorative justice programs in which 
substance abuse treatment--that is the direction that we bring 
people out and they do not reoffend. We are more effective than 
we are with incarceration.
    Mr. Palmer. Okay. But ----
    Mr. Burbank. What I said.
    Mr. Palmer.--you said that in the context of illegals, and 
if they are here illegally and they are in these substance 
abuse programs, you are pretty much saying that we need to 
invest American taxpayer dollars in providing substance abuse 
for people who are here illegally. Does that not create another 
incentive for them to come here illegally?
    Mr. Burbank. We have people who exist in this country in 
all different forms and stats ----
    Mr. Palmer. Listen, you are trying to ----
    Mr. Burbank.--so I ----
    Mr. Palmer.--turn this into something it is not, and I am 
not going to let you do it. And the chairman would probably 
pull me out of the chair, but we are sick of this. You have got 
three people here representing families who have lost loved 
ones. We know that there were 124 people who are here illegally 
who have committed murders. Just this month in my home State of 
Alabama they have arrested three illegals, two Hondurans and a 
Mexican, who were here to do a home invasion, and one of them 
said had the family been there with a firearm, he would have 
shot them.
    They were arrested, Mr. Martin, by local police in Oxford, 
Alabama, who were alert enough to see that they were carrying 
weapons and arrested them. They had prior convictions as well. 
One of them was carrying a pistol stolen from Arlington, Texas. 
One of them had a felony that goes back to 2008. It is insane. 
It is criminal. And you are sitting next to people who have 
lost two of the most precious things they will ever lose in 
their lives. And frankly, I find it offensive.
    Mr. Burbank. May I respond?
    Mr. Palmer. Yes, you may.
    Mr. Burbank. So I sympathize with these individuals. In 
fact, in the year 2000, my friend and colleague lost his life 
at the hands of an undocumented immigrant. I would not want 
that person caught who has never been found--he was held in 
custody and released, but I would not want that person found at 
the expense of someone else's constitutional rights or civil 
rights.
    Mr. Palmer. We are not talking about constitutional rights, 
and I think you have crossed a line in trying to imply that 
people who are here illegally have the same rights as people 
who are here legally, who are citizens of the country. And we 
are not denying people due process. We are not denying them 
access to the justice system. We are trying to treat people as 
humanely as we possibly can, but the fact of the matter is I 
don't care if it was just one in the last 10 years, it would 
have been one too many if it were my daughter or my son.
    I yield back and recognize Mr. Grothman for 2 minutes.
    Mr. Grothman. I don't even need 2 minutes. I just wanted to 
do a follow-up with Chief Martin. I would like to thank you for 
being here today. I see Congressman Connolly had left. I just 
did want to respond a little to his comment. I thought it was 
completely out of line. I think the implication was completely 
unwarranted without anything to back it up.
    I appreciate what you are saying, and I think we see, both 
from Representative Connelly and former Chief Burbank, kind of 
the mentality that we have got to get over in this country if 
we are going to save our country because we are going to lose 
our country unless we begin to take these immigration laws 
seriously. We have too many people thinking of any ridiculous 
pretext under the world not to do the obvious. And we have seen 
that here today.
    But I just would like to thank Chief Martin and thank all 
the other law enforcement officers around the country who, I 
think, are doing a tremendous job. I think it is unfortunate 
that so many people want to disparage them. That is all.
    Mr. Palmer. I now recognize the ranking member for a 
closing statement.
    Mr. Cummings. Again, I want to thank all of you for being 
here.
    And I think when we look at this total problem, we have to 
understand that there is a lot of pain, and rightfully so. And 
at the same time, when our nation was put together, the 
Founding Fathers tried to create all kinds of balances so that 
we keep our people safe, make sure that there is equal 
protection under the law, and a true sense of justice. And 
sometimes, these things seem to kind of collide, but I am 
convinced that we can do better. I mean, as I heard Director 
Saldana talk, she was clear that there are some things that we 
need to do, we as Members of Congress need to do perhaps in 
looking at the code and figuring out ways we can help them be 
more effective and efficient in what they do.
    No system, unfortunately, is perfect. I practiced law for 
many years, and I saw a lot of things that will go with me in a 
negative way until I die. But I think what we have to do as 
Americans is constantly reach for that more perfect union. 
Whether we will ever get there, I don't know, but we need to be 
striving for it every day.
    And there are so many people who--and I want us to always 
be careful, though, and I go back to my opening statement, that 
we don't just label a group of people because I think that is 
very dangerous, too, because when we turn against each other, 
then I think it is almost impossible for us to truly pursue 
that more perfect union. So that means we have got to try to 
address the issues that come out of this. We have got to look 
at ICE and make sure that ICE is doing what it is supposed to 
do, and all the other agencies. And where there are places that 
need to be strengthened, we need to do that.
    But in the end, we want to try to make sure, to all of you, 
that these kind of things don't happen again. And again, we may 
only be able to minimize the possibility because, Chief, as you 
know, things happen. Even when you have the laws, people find a 
way to get around them. You know that because I know you have 
been in this business long enough.
    But again, your testimony has been very helpful to all of 
us. And I really--from the depths of my heart, I thank you. I 
really do. And I think somebody said it a little bit earlier, 
you know, you never get over the loss. You don't. You just 
learn to live with it. You learn to live with it. And you have 
learned--you are learning to live with it because it is still 
new. And the idea that you are able to do what you are doing, 
to come here and speak for, for your loved ones, and, like you 
said, Ms. Hartling, I think you said something to the effect 
that I don't want to see her having died in vain. You want to 
see something come out of this ----
    Ms. Hartling. Yes.
    Mr. Cummings.--to help somebody else, and that is one of 
the greatest ways you can deal with it. And we really 
appreciate it. And you came to the right place.
    Ms. Hartling. This is where I wanted to be.
    Mr. Cummings. Well, we are glad you came, all of you. Thank 
you very much.
    Ms. Hartling. Thank you.
    Mr. Root. Thank you.
    Mr. Palmer. We thank all of our witnesses for their 
appearance here today. If there is no further business, without 
objection, the committee stands adjourned.
    [Whereupon, at 2:59 p.m., the committee was adjourned.]

                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
